<html>
<title> - OVERSIGHT OF THE FBI AND DOJ ACTIONS IN ADVANCE OF THE 2016 ELECTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                  OVERSIGHT OF THE FBI AND DOJ ACTIONS

                    IN ADVANCE OF THE 2016 ELECTION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                                AND THE

                       COMMITTEE ON THE JUDICIARY

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2018

                               __________

                           Serial No. 115-100

             (Committee on Oversight and Government Reform)

                               __________

                            Serial No. 115-34

                      (Committee on the Judiciary)

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                       
                       
                       
                       
                        
                         _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-522 PDF             WASHINGTON : 2018                             
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
            Sean Brebbia, Senior Counsel for Investigations
              Stephen Castor, Chief Investigative Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                       Committee on the Judiciary

                   Bob Goodlatte, Virginia, Chairman
Jim Sensenbrenner, Wisconsin         Jerrold Nadler, New York
Lamar Smith, Texas                   Zoe Lofgren, California
Steve Chabot, Ohio                   Sheila Jackson Lee, Texas
Darrell Issa, California             Steve Cohen, Tennessee
Steve King, Iowa                     Hank Johnson, Georgia
Louie Gohmert, Texas                 Ted Deutch, Florida
Jim Jordan, Ohio                     Luis Gutierrez, Illinois
Ted Poe, Texas                       Karen Bass, California
Tom Marino, Pennsylvania             Cedric Richmond, Louisiana
Trey Gowdy, South Carolina           Hakeem Jeffries, New York
Raul Labrador, Idaho                 David Cicilline, Rhode Island
Doug Collins, Georgia                Eric Swalwell, California
Ron Desantis, Florida                Ted Lieu, California
Ken Buck, Colorado                   Jamie Raskin, Maryland
John Ratcliffe, Texas                Pramila Jayapal, Washington
Martha Roby, Alabama                 Brad Schneider, Illinois
Matt Gaetz, Florida                  Val Demings, Florida
Mike Johnson, Louisiana
Andy Biggs, Arizona
John Rutherford, Florida
Karen Handel, Georgia
Keith Rothfus, Pennsylvania

                    Shelley Husband, Staff Director
                 Branden Ritchie, Deputy Staff Director
         Bobby Parmiter, Chief Counsel for Crime and Terrorism
                      Zach Somers, General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2018....................................     1

                               WITNESSES

The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice
    Oral Statement...............................................    11
    Written Statement............................................    14


  OVERSIGHT OF THE FBI AND DOJ ACTIONS IN ADVANCE OF THE 2016 ELECTION

                              ----------                              


                         Tuesday, June 19, 2018

                  House of Representatives,
  Committee on Oversight and Government Reform, joint with 
                            the Committee on the Judiciary,
                                                   Washington, D.C.
    The committees met, pursuant to call, at 10:03 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Trey Gowdy [chairman 
of the Committee on Oversight and Government Reform] presiding.
    Present from the Committee on Oversight and Government 
Reform: Representatives Gowdy, Issa, Jordan, Amash, Gosar, 
DesJarlais, Foxx, Massie, Meadows, DeSantis, Walker, Hice, 
Russell, Grothman, Palmer, Comer, Mitchell, Gianforte, 
Cummings, Maloney, Norton, Clay, Connolly, Lawrence, Watson 
Coleman, Krishnamoorthi, Raskin, Plaskett, and Sarbanes.
    Present from the Committee on the Judiciary: Goodlatte, 
Chabot, King, Gohmert, Poe, Ratcliffe, Roby, Gaetz, Johnson of 
Louisiana, Biggs, Rutherford, Handel, Rothfus, Nadler, Jackson 
Lee, Cohen, Johnson of Georgia, Deutch, Bass, Jeffries, 
Cicilline, Swalwell, and Schneider.
    Chairman Gowdy. Good morning. The Committee on Oversight 
and Government Reform and the Committee on Judiciary will come 
to order. Without objection, the presiding member is authorized 
to declare a recess at any time.
    I am pleased, as I know my colleagues are, to see so much 
interest in today's hearing. As a reminder to our guests, the 
Rules of the House of Representatives prohibit any disruption 
or manifestation of approval or disapproval of the proceedings, 
such as shouting. Disrupting the proceedings is a violation of 
D.C. law and the House Rules, and it will not be tolerated, and 
this will be your only warning.
    Welcome, Inspector General Horowitz.
    Mr. Nadler. Mr. Chairman.
    Chairman Gowdy. Yes.
    Mr. Nadler. Mr. Chairman, before we hear from the Inspector 
General, I feel compelled to say something about a topic that 
is a more immediate priority.
    We have all seen the pictures of immigrant children ripped 
apart from their parents at the border. These children are not 
animals. They are not bargaining chips. They are not leverage 
to help President Trump build his wall. They are children who 
have been forcibly removed from their parents in our name. 
Every day that they are separated from their parents is a day 
we do irreparable harm to their health and well-being.
    The United States should be better than this. We should not 
put children in cages. The minute this hearing adjourns, sooner 
if we can----
    Chairman Goodlatte. Mr. Chairman, regular order.
    Mr. Nadler. --I hope our committees can work together to 
end this cruel practice without delay.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman from Virginia has requested 
regular order. The gentleman from New York has been given more 
time than would have been afforded the other side had we pulled 
something like that.
    So with that, we will welcome you, Mr. Horowitz, for what I 
think is a hearing on your inspector general report and to 
decisions made and not made in 2016.
    We will be in recess until the Capitol Police restore 
order.
    [Recess.]
    Chairman Gowdy. The committee will come to order.
    Inspector General Horowitz, just for your knowledge, the 
chairs and ranking members will give opening statements, then 
you will be introduced and recognized for your opening 
statement.
    What we're doing today does not happen everywhere. We are 
taking institutions with long and distinguished histories, 
institutions we need, institutions we rely upon, and we're 
applying scrutiny, review, and inspection. We're testing, we're 
probing, we're challenging, we're even criticizing.
    And we're doing this because we need these institutions to 
be above reproach. We need them to be respected and trusted. We 
need them to be above bias, taint, and prejudice. We need these 
institutions to be fair, just, evenhanded, proportional, and 
wholly immune from the vagaries of politics.
    That's what we expect and demand and need from the 
Department of Justice and the FBI, and those expectations 
should be consistently exacting, because the power we give 
prosecutors and law enforcement is an awesome power.
    The power to prosecute, the power to charge, the power to 
indict is the power to impact reputations. It is the power to 
deprive people of their liberty. It is the power in some 
instances to even try to take the very life of a citizen. And 
we give police and prosecutors tremendous powers, and with 
those powers comes a corresponding expectation of fairness and 
just dealing.
    This inspector general's report should conjure anger, 
disappointment, and sadness in everyone who reads it. This IG 
report lays bare the bias, the animus, the prejudging of facts 
by senior FBI agents and senior attorneys. And attempts to 
minimize and mitigate this bias are so antithetical to what we 
want and deserve in our law enforcement officers, and it is 
dangerous to the broader community.
    I have seen media efforts, and I have seen efforts from 
some, not all, but some of my Democrat colleagues to shift the 
burden of bias unto those impacted by that bias, that it is 
somehow the responsibility of those affected by bias to show 
how that bias negatively impacted them.
    What a dangerous shifting of the burden. It is not the 
public's job to prove the bias shown by the FBI did not 
influence decisionmaking. It is the FBI's job to prove to the 
public that this manifest bias was not outcome determinative.
    And bias and fairness cannot coexist. That is why no lawyer 
seated up here today would ever allow a biased juror to sit on 
his or her jury and no citizen would ever allow a biased police 
officer or judge to work on any matter of any significance.
    There is a presumption that bias is bad, and that is a 
presumption we should accept in nearly every single facet of 
life.
    As we read this report, we're reminded of Jim Comey's 
decision to hold the July 5 press conference and appropriate 
the charging decision away from the prosecutors. We see Jim 
Comey drafting an exoneration memo before important witnesses, 
like the target, were even interviewed.
    Ironically, this inspector general has been accused of 
softening or watering down his report when the reality is it 
was Jim Comey who softened and watered down his press release 
announcing no charges against Secretary Clinton.
    We see Jim Comey and Jim Comey alone deciding which DOJ 
policies to follow and which to ignore. We see Jim Comey and 
Jim Comey alone deciding whether there is sufficient evidence 
to support each and every element of an offense. We see Jim 
Comey and Jim Comey alone deciding whether to send a letter to 
Congress in the throes of a looming election.
    Now, his justification for this is that he did not have 
confidence in the objectivity of Attorney General Loretta 
Lynch. Whether it was her asking him to refer to this case as a 
``matter'' rather than an ``investigation,'' or her meeting 
with Bill Clinton while Hillary Clinton was under 
investigation, or the matter he has alluded to but claims he 
cannot discuss publicly, clearly Jim Comey had lost confidence 
in the DOJ to handle a case in a way worthy of public trust.
    But that leads us to the one thing we did not see Jim Comey 
do, which was take any steps to spur the appointment of special 
counsel in the Hillary Clinton investigation.
    When he lost confidence in the Trump Justice Department he 
memorialized private conversations, he leaked them, and he 
admitted he did so to spur the appointment of special counsel 
because he didn't trust the career prosecutors at the 
Department of Justice.
    When he lost confidence in the Obama Justice Department he 
didn't make special memos. He didn't share them with his law 
professor friends. He didn't leak the information. He didn't 
lift a finger to get a special prosecutor. Instead, he 
appointed himself FBI Director, Attorney General, special 
counsel, lead investigator, and the general arbiter of what is 
good and right in the world according to him.
    And one of the last times I spoke with Director Comey was 
in a committee hearing. We had a pointed exchange on what I 
thought was the FBI making decisions based in part on politics. 
And he, in his typically sanctimonious way, told me he 
disagreed. He said, the men and women of the FBI do not, quote, 
``give a hoot about politics.''
    Unfortunately, and I use that word intentionally, 
unfortunately, he was dead wrong. There were agents and 
attorneys at the FBI who gave a lot more than a hoot about 
politics.
    There's Andy McCabe, the former deputy director and acting 
director of the FBI, an agency which investigates and charges 
others for making false statements, himself accused of making 
false statements and showing a lack of candor.
    I think I recall, perhaps someone can correct me, but I 
think I recall some of my Democrat colleagues falling over 
themselves to offer a job to Andy McCabe when he was let go for 
making false statements and for a lack of candor, but those 
same colleagues apparently weren't hiring, they didn't have any 
openings when others in a related investigation, called Russia, 
were charged with the same offense.
    There were FBI agents and attorneys who decided to prejudge 
the outcome of the Hillary Clinton case before the 
investigation ended. I want you to let that sink in for a 
second. They prejudged the outcome of the Hillary Clinton 
investigation before the investigation ended, and these exact 
same FBI agents and attorneys prejudged the outcome of the 
Russia investigation before it even began.
    If prejudging the outcome of an investigation before it 
ends and prejudging the outcome of an investigation before it 
begins is not evidence of outcome-determinative bias, for the 
life of me I don't know what would be. That is textbook bias. 
It is quite literally the definition of bias, allowing 
something other than the facts to determine your decision.
    These agents were calling her President before she was even 
interviewed. They were calling for the end of the Trump 
campaign before the investigation even began. They were calling 
for impeachment simply because he happened to be elected. That 
is bias.
    And with all due respect, it is the FBI's job, not mine, to 
prove that bias can ever be harmless, because I don't agree, I 
think bias is always harmful.
    So we'll spend today on the small in number but significant 
in leadership group of DOJ and FBI officials, officials who had 
leadership and supervisory roles in the Clinton and Russia 
investigations and who failed to meet the basic expectations of 
fundamental fairness.
    But there are tens of thousands of FBI agents and DOJ 
employees who do meet our exacting expectations, and we will 
not be calling their names today, unfortunately, because we 
don't do IG investigations on agents and prosecutors who do 
their jobs with character and professionalism.
    To those agents and prosecutors who do the right thing the 
right way and for the right reasons, we'll get through this. It 
will be tough and it will be difficult, but we will emerge on 
the other side with a stronger FBI and a stronger Department of 
Justice because we have to. We cannot have a justice system 
that bases decisions on anything other than facts.
    To our fellow citizens watching at home, be unrelenting in 
your expectations of our justice system. Never lower those 
expectations. Respect for the rule of law is the thread that 
holds the tapestry of this country together, and it depends 
upon you having confidence in those you empower to enforce the 
law.
    And importantly, do not ever accept the notion that those 
victimized or impacted or negatively treated because of bias or 
prejudgment have any burden of proving harm. Bias is 
intrinsically harmful. It is the making up of your mind based 
on anything other than the facts.
    We use a blindfolded woman holding a set of scales to 
symbolize what we want in a justice system. And there is 
nothing more antithetical to justice than lowering that 
blindfold and making up your mind based on who is standing in 
front of you. That is not who we are. That is not what we 
should ever become.
    There's a saying in the courtroom: May justice be done 
though the heavens fall. You won't hear that saying in 
politics. You're more likely to hear: Let's win at all costs, 
the heavens be damned.
    We can survive with politicians we don't trust. We can't 
survive with a justice system we don't trust.
    With that, I would recognize the gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    When we look back to the Presidential campaign in 2016 
there's one extremely troubling image we all remember very 
well. That is the image of Donald Trump and other Republicans 
chanting: Lock her up, lock her up, lock her up. They were 
talking about Hillary Clinton using personal emails, and they 
demanded over and over again that she be jailed.
    But the Justice Department had already investigated. They 
had interviewed witnesses, reviewed documents, analyzed the 
law, and examined past charging decisions. At the conclusion of 
its investigation, the Department disagreed with the 
Republicans. They did not charge Hillary Clinton with any crime 
at all. And the entire DOJ and FBI team on the investigation 
agreed with that conclusion.
    Of course, the Republicans refused to accept that 
conclusion. They wanted Hillary Clinton to be guilty. So they 
attacked the investigation. They said there must have been 
collusion with Hillary Clinton. They called emergency hearings 
over and over and over again. They insisted on reviewing 
documents and reinterviewing witnesses. And they demanded that 
the inspector general conduct his own independent investigation 
of the FBI.
    Last week the inspector general issued his report, but it 
finds the same thing. It says, and I quote: ``We found no 
evidence that the conclusions by Department prosecutors were 
affected by bias or other improper considerations.'' The report 
goes on, and I quote: ``Rather, we determined that they were 
based on the prosecutor's assessments of the facts, the law, 
and past Department practice,'' end of quote.
    So the Republicans were wrong again. All their howling 
about ``lock her up'' was bogus. It was baseless. It was 
unsubstantiated. And now we have another report saying so. But 
again and again the Republicans refuse to accept this 
conclusion. They still want Hillary Clinton to be guilty even 
today.
    Now they're going after the investigation of the 
investigation. They're going after the inspector general's 
report issued last week. They want to rereview documents the 
inspector general already reviewed and reinterview witnesses 
the inspector general already interviewed.
    Some Republicans even want to investigate whether anyone 
tampered with the inspector general's report or watered it 
down. They simply refuse to accept the inspector general's 
findings. The Republicans point to some individual expressions 
of bias, and these are facts the inspector general already 
reviewed.
    Instead, the Republicans are now tripling down, threatening 
to impeach Rod Rosenstein and Christopher Wray for somehow 
obstructing their efforts to get to the bottom of all of this.
    They had a big meeting on Friday, by the way, Friday night, 
with Speaker Paul Ryan. No Democrats were invited, of course. 
But this weekend Chairman Gowdy described some of it during a 
press conference, press appearance.
    Apparently, after reading the inspector general's 
conclusions, House Republicans all decided that, and I quote: 
``The House of Representatives is going to use its full arsenal 
of constitutional weapons to gain compliance,'' end of quote, 
with their never-ending demands regarding Hillary Clinton.
    At this point I think it is crystal clear that the only 
answer Republicans will accept is that Hillary Clinton must be 
guilty. They will keep going on and going until they get that 
answer, even if the facts will never support it, and even if 
multiple independent reviews come to exactly the opposite 
conclusion.
    Republicans in Congress are only willing to use their full 
arsenal of constitutional weapons to attack Hillary Clinton or 
protect Donald Trump. Neither the Oversight Committee nor the 
Judiciary Committee has issued a single subpoena to investigate 
President Donald Trump on any other topic related to his 
administration, including the key moral and ethical issue of 
the day, which is the President's new policy to separate 
children from their families.
    And so I ask the question, and it is a simple question: Are 
we really going to sit here, 70 Members of the Congress of the 
United States of America, in 2018 and have a hearing that just 
repeats the hearings the Senate had yesterday on Hillary 
Clinton's emails?
    We sent letter after letter, letter after letter asking 
these committees to investigate the Trump administration's 
policy, which is now resulting in child internment camps--
that's what I said, child internment camps--but we have gotten 
no response.
    Look, even if you believe people entered our country 
illegally, even if you believe they have no valid asylum claims 
in their own country, even if you believe immigration should be 
halted entirely, we all should be able to agree that in the 
United States of America we will not intentionally separate 
children from their parents. We will not do that. We are better 
than that. We are so much better. We should be able to agree 
that we will not keep kids in child internment camps 
indefinitely and hidden away from public view. What country is 
that?
    This is the United States of America. We now have reports 
that parents are being deported, but the Trump administration 
is keeping their children here, 2018 in America.
    We do not need legislation. This is a policy--and 
understand this--this was a policy invented, implemented, and 
executed by President Donald Trump.
    And so in conclusion, Mr. Chairman, we need you. Those 
children need you. And I'm talking directly to my Republican 
colleagues. We need you to stand up to President Trump. We need 
you to join us in telling him that we reject this mean policy. 
We need you to tell him to abandon this policy. We need you to 
remind him that this is the United States of America and it is 
a great country. And we need you to stand up for those 
children.
    And with that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from Maryland yields back.
    The gentleman from Virginia is recognized.
    Chairman Goodlatte. We are here to shed light on decisions 
that have terribly tarnished the reputation of our chief law 
enforcement institutions and undermine Americans' confidence in 
their justice system. Today we will examine irregularities and 
improprieties in the FBI and DOJ's handling of two of the most 
sensitive investigations in the history of our country, and it 
all began with Hillary Clinton's mishandling of classified 
emails.
    The IG's report has spawned more questions and more 
theories about the FBI and DOJ's handling of the Clinton 
investigation. It confirms that Mrs. Clinton did, in fact, 
receive special treatment from the Obama Justice Department and 
FBI during their investigation.
    The American people often get tired of political infighting 
in Washington, D.C., so I want to ask a simple question: Why 
should Americans care about what we are talking about here 
today?
    I propose this answer: Because our constitution guarantees 
equality under the law. Americans expect that those with power 
and influence will not receive special treatment.
    But as the IG report describes, DOJ and FBI did not treat 
Mrs. Clinton like any other criminal suspect and did not follow 
standard investigative procedures in exonerating her.
    The IG found many issues with this particular 
investigation, as well as serious institutional issues, and 
while only telling half the story. We are still awaiting 
conclusions with respect to the allegations of surveillance 
abuse inside the FBI. The IG identified various corrective 
actions, including recommending five additional FBI employees 
for further review and possible disciplinary consideration.
    In a nutshell, the IG report details unusual actions taken 
by law enforcement officials who were sworn to uphold the 
Constitution impartially and fairly. They failed in that duty.
    Again, why should Americans care? The Department of Justice 
and the FBI are not mentioned in the U.S. Constitution. Who is 
mentioned in the Constitution? The President and Congress. Yet 
a handful of individuals in these law enforcement institutions 
placed the constitutional institution of the Presidency under 
attack during a heated election and mocked Congress' legitimate 
constitutionally mandated oversight.
    Equality under the law is a core American value. Our laws 
are to be administered and enforced with impartiality. The IG 
report confirms that this was not the case in the Clinton 
investigation.
    To quote from the report concerning certain individuals 
assigned to the investigation: ``We found that the conduct of 
these five FBI employees brought discredit to themselves, sowed 
doubt about the FBI's handling of the Midyear investigation, 
and impacted the reputation of the FBI...Moreover, the damage 
caused by their actions extends far beyond the scope of the 
Midyear investigation and goes to the heart of the FBI's 
reputation for neutral factfinding and political 
independence,'' end quote.
    I am only repeating what the IG found: Improprieties by the 
FBI and DOJ caused such far-reaching damage going to the heart 
of what is expected from agencies whose responsibility was to 
remain fair administrators of justice.
    This hearing and the IG's report underscore the importance 
of the ongoing joint investigation by the House Judiciary 
Committee and the House Oversight Committee into decisions made 
by the DOJ and FBI in 2016. To date, the committees have 
interviewed several key witnesses and reviewed tens of 
thousands of documents.
    While we appreciate the IG and his staff for a very 
detailed investigation, it is critical for the public to also 
hear what was not included in the report due to the IG's 
refusal to question, quote, ``whether a particular decision by 
the FBI and DOJ was the most effective choice,'' end quote.
    Here is what has been observed by these committees:
    Questionable interpretation by DOJ and FBI of the law 
surrounding mishandling of classified information;
    Foreign actors obtained access to some of Mrs. Clinton's 
emails, including at least one email classified secret;
    Director Comey appeared to have predetermined the 
exoneration of Mrs. Clinton at least 2 months before the 
investigation concluded;
    The Department of Justice determined any charge of gross 
negligence was off the table, reading an intent standard into 
the law that does not exist;
    Grotesque statements against then-candidate Donald Trump 
were made by top FBI officials, and they went so far as to say: 
We'll stop Trump from becoming President;
    Indiscretions involving Mr. Strzok and Ms. Page were not 
handled appropriately at the time the FBI management learned of 
them, resulting in their continued assignment as key players on 
the Clinton investigation and the Mueller Russia investigation;
    Mr. McCabe appears to have not been forthright with 
Congress during an interview conducted by the committees 
concerning his knowledge of meetings and actions taken by Mr. 
McCabe and his team;
    The FBI's top counterintelligence official was unaware of 
possible evidence indicating Mrs. Clinton's private email 
server had been penetrated by a foreign adversary and unaware 
of relevant legal process obtained during the investigation;
    Documents show significant criticism of Mr. Comey expressed 
by multiple current and former FBI agents;
    The FBI intentionally obscured the fact President Obama had 
communicated with Mrs. Clinton's private email address by 
editing Mr. Comey's final press statement, replacing ``the 
President'' with the euphemism ``senior government official'';
    Finally, top FBI officials, including Mr. McCabe and Mr. 
Priestap, through their wives had close ties to Democrat and 
Clinton-affiliated entities and should have seemingly been 
recused from the Clinton investigation.
    Public confidence in the impartiality of our law 
enforcement system is critical to ensure all are treated 
equally under the law. Fallout from the Clinton investigation, 
however, gives the impression those with money and influence 
are given lighter treatment than the so-called common person.
    Short-term damage to the FBI and DOJ's reputations is 
apparent. However, the IG and Congress' investigations will 
help to understand why certain deficiencies occurred during one 
of the most high-profile investigations in this Nation's 
history.
    This hearing is a crucial step toward repairing law 
enforcement's reputation as an impartial fact-finder and seeker 
of truth, and I look forward to the inspector general's 
testimony today.
    Chairman Gowdy. The gentleman from Virginia yields back.
    The gentleman from New York is recognized.
    Mr. Nadler. Thank you, Mr. Chairman.
    And thank you, Inspector General Horowitz, for being here 
today.
    In the days since you released your report, Mr. Inspector 
General, I have been struck by the total disconnect between the 
Republican party line and your actual findings. The report does 
not find, as President Trump continues to complain, that the 
FBI, quote, plotted against his election.
    The report also does not totally exonerate the President on 
the Russian matter no matter how you read it. It does not give 
any reason to conclude, as the President's increasingly 
untethered attorney Rudy Giuliani argues, that, quote, Mueller 
should be suspended and honest people should be brought in, 
unquote, or that the Attorney General should violate his 
recusal and end the special counsel's investigation altogether.
    Nor does it suggest, as Chairman Goodlatte and Chairman 
Gowdy insist, that Hillary Clinton received special treatment 
from the FBI.
    The key findings in the report are quite simple. The 
inspector general, quote, ``found no evidence that the 
conclusions by the prosecutors were affected by bias or other 
improper considerations; rather, we determined that they were 
based on the prosecutor's assessment of the facts, the law, and 
past Department practice,'' close quote. That sums up 
everything we're talking about.
    The report criticizes the FBI and its former leadership, 
but virtually every action criticized ultimately harmed the 
candidacy of Secretary Clinton and inured to the benefit of the 
candidacy of Donald Trump.
    And the report has nothing whatsoever to say about the 
ongoing work of the special counsel. President Trump, Rudy 
Giuliani, and some of my Republican colleagues are desperate to 
make that leap. Who wouldn't be in their position, with 23 
indictments and the President's campaign manager in jail? But 
their argument is based on innuendo and not on the facts and 
certainly not on this report.
    Now, I am not shy about my criticism of the former FBI 
Director. When James Comey testified before the Judiciary 
Committee last year I told him that he was wrong to have 
applied a double standard to the Presidential campaigns, 
speaking publicly and at length about the Clinton investigation 
but refusing even to acknowledge the existence of the 
investigation into the Trump campaign.
    I also told Mr. Comey that he was wrong to have criticized 
Secretary Clinton after announcing that he would not charge her 
with a crime, not because of the content of the criticism, but 
because issuing that statement was simply not his job, as the 
report finds.
    It is also wrong, as well as against Department of Justice 
guidelines, for the investigative agency to criticize the 
subject of an investigation for uncharged conduct. It was 
totally unnecessary and wrong.
    The inspector general's report describes both of these 
failings in detail. The report's analysis of Mr. Comey's July 5 
statement reads in pertinent part, quote: ``In our criminal 
justice system the investigative and prosecutive functions are 
intentionally kept separate as a check on the government's 
power to bring criminal charges.'' The report concludes that 
Mr. Comey's statement assumed an authority that did not belong 
to the office of the Director of the FBI.
    I am grateful for this important analysis, Mr. Horowitz. 
Unfortunately, sir, your key finding that the decision not to 
charge Secretary Clinton was based on an assessment of the 
facts, the law, and past Department practice and not on bias or 
improper consideration is now subject to the treatment that 
President Trump and some of my Republican colleagues will give 
it. ``I mean, there was total bias,'' the President argued on 
the White House lawn just last week.
    What are we to make of this disconnect between what the 
report says and what the President and his allies say it says? 
Why is it that no matter how many times we litigate this 
question House Republicans can think of nothing better to do 
than to endlessly investigate Hillary Clinton for the same 
conduct?
    Why is it that after half a dozen investigations found no 
wrongdoing at Benghazi the majority spent millions of dollars 
on their own Benghazi Select Committee? And when that body 
found no wrongdoing either, why is it that the majority moved 
on to legitimize conspiracy theories about the Clinton 
Foundation and Uranium One?
    Why is it that after the Department of Justice and the FBI 
concluded it should not charge Secretary Clinton with a crime, 
rather than accepting the conclusion, as we would in most 
criminal cases, the Judiciary and Oversight majorities launched 
an investigation into the Department of Justice and the FBI?
    Why is it that after you released this report, Mr. 
Horowitz, some of my colleagues seriously suggested that we 
open an investigation into your investigation of the 
investigation?
    Why is it that here and now, in June of 2018, we are still 
talking about Hillary Clinton's emails at all?
    I suspect it has something to do with the way Republicans 
have squandered their opportunity to govern and the 
consequences of abdicating that responsibility.
    House Republicans have done little or nothing to secure our 
next election from foreign attack; or to push back against the 
Attorney General's unprecedented refusal to defend in court the 
key protections of the Affordable Care Act; or to address an 
immigration crisis with anything other than a cruel and 
reactionary policy proposal that will never become law and with 
persecuting children at the border.
    They don't even make credible arguments about Hillary 
Clinton's emails. I suspect that if the majority were actually 
motivated by the sensitivity of classified information in the 
Clinton case they would have also said something by now about 
the highly sensitive Israeli operation revealed to Russian 
officials by President Trump; or about the way the President 
handles classified documents at Mar-a-Lago; or about the 
confidential human source whose identity was exposed recently 
while our colleagues tried to force the deputy attorney general 
to reveal his identity; or about the totally inappropriate, if 
not outright unlawful, dangling of pardons by the President and 
his attorney to those accused of participating in a conspiracy 
against the United States.
    No, too many of my Republican colleagues instead seem stuck 
in a perpetual Trump campaign rally, shouting ``lock her up'' 
with the rest of the crowd, hoping that the public won't notice 
how little they have accomplished with their time in the 
majority.
    I look forward to your testimony today, Mr. Inspector 
General. I hope our conversation can be the beginning of the 
end of this long preoccupation with Secretary Clinton. We have 
so many more important things to do.
    I yield back.
    Chairman Gowdy. The gentleman from New York yields back.
    We are pleased to introduce our witness today, the 
Honorable Michael Horowitz, inspector general for the 
Department of Justice.
    Welcome to you, Mr. Horowitz.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so I would ask you to do what you just 
did. Stand up, raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give shall be the truth, the whole truth, and nothing but 
the truth, so help you God?
    May the record reflect the witness answered in the 
affirmative.
    Mr. Horowitz, you are recognized for your opening 
statement.

    STATEMENT OF MICHAEL HOROWITZ, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Chairmen Gowdy and Goodlatte, and 
thank you, Ranking Members Cummings and Nadler, and members of 
the committee. Thank you for inviting me to testify today 
regarding the report we released last week.
    Our 500-page-plus report provides a thorough, 
comprehensive, and objective recitation of the facts related to 
the Department's and the FBI's handling of the Clinton email 
investigation. It was the product of 17 months of investigative 
work by a dedicated OIG team that reviewed well over 1.2 
million documents and interviewed more than 100 witnesses, many 
on multiple occasions.
    The review team followed the evidence wherever it led, and 
through their efforts we identified the inappropriate texts and 
instant messages discussed in the report.
    Additionally, the OIG's painstaking forensic examinations 
recovered thousands of text messages that otherwise would have 
been lost or been undisclosed.
    As detailed in our report, we found that the inappropriate 
political messages that we uncovered cast a cloud over the 
Midyear investigation, sowed doubt about the credibility of the 
FBI's handling of it, and impacted the reputation of the FBI.
    We found the implication that senior FBI employees would be 
willing to take official action to impact a Presidential 
candidate's electoral prospects to be deeply troubling and 
antithetical to the core values of the FBI and the Justice 
Department.
    With regard to the decision to close the investigation 
without prosecution, we found no evidence that the conclusions 
by the prosecutors were the result of improper considerations, 
including political bias, but rather were exercises of those 
prosecutors' prosecutorial discretion--an exercise of their 
prosecutorial discretion--based on their assessment of the 
facts, the law, and past Department practice.
    Our review also included a fact-based, detailed assessment 
of certain specific investigative and prosecutorial decisions 
that were the subject of controversy. It was necessary to 
select particular investigative decisions because it would not 
have been possible to recreate and analyze every decision made 
in a year-long investigation.
    In examining these decisions, the question we considered 
was not whether a particular decision was the most effective 
choice, but rather whether the documentary and testimonial 
evidence indicated the decision was based on improper 
considerations, including political bias.
    This approach is consistent with the OIG's handling of such 
questions in past reviews when assessing discretionary judgment 
calls and recognizes and respects the institutional oversight 
role of the OIG.
    Our report provides a comprehensive assessment of these 
decisions and of the Midyear investigation and details the 
factual evidence so that the public, Congress, and other 
stakeholders can conduct their own assessment of them.
    Within this framework as to the specific investigative and 
prosecutive decisions we reviewed, we did not find documentary 
or testimonial evidence that improper considerations, including 
political bias, directly affected those specific investigative 
decisions in part because the decisions were made by the 
Midyear team--by the larger Midyear team or by the prosecutors.
    This determination by the OIG does not mean that we 
necessarily endorse those decisions; or concluded they were the 
most effective among the options considered; or that our 
findings should or can be extrapolated to cover other decisions 
made during the course of the investigation by the FBI 
employees who sent those inappropriate text messages.
    Conversely, we found the FBI's explanations for its 
failures to take immediate action after discovering the Weiner 
laptop in September 2016 to be unpersuasive, and we did not 
have confidence that the decision of Deputy Assistant Director 
Strzok to prioritize the Russia investigation over following up 
on the Weiner laptop was free from bias in light of his text 
messages.
    We also found that in key moments then-FBI Director Comey 
clearly departed from FBI and Department norms and his 
decisions negatively impacted the perception of the FBI and the 
Department as fair administrators of justice.
    Director Comey concealed from the Attorney General and the 
deputy attorney general his intention to make a unilateral 
announcement in July 2016 about the reasons for his 
recommendation not to prosecute former Secretary Clinton. His 
July 5 statement included inappropriate commentary about 
uncharged conduct, announced his views on what a, quote/
unquote, reasonable prosecutor would do, and served to confuse 
rather than clarify public understanding of his recommendation 
or what the prosecutors had assessed in terms of the evidence.
    In late October he again acted without adequately 
consulting Department leadership and contrary to important 
Department norms when he sent a letter to Congress announcing 
renewed investigative activities--activity--days before the 
election.
    There are many lessons to be learned from the Department's 
and the FBI's handling of the Clinton email investigation, but 
among the most important is the need to respect the 
institution's hierarchy and structure and to follow established 
policies, procedures, and norms, even in the highest profile 
and most challenging investigations. No rule, policy, or 
practice is perfect, of course, but at the same time neither is 
any individual's ability to make judgments under pressure or in 
what may seem like unique circumstances.
    When leaders and officials adhere to bedrock principles and 
values the public has greater confidence in the fairness and 
rightness of their decisions and those institutions' leaders 
better protect the interests of Federal law enforcement and the 
dedicated professionals who serve us all.
    By contrast, the public's trust is negatively impacted when 
law enforcement officials make statements reflecting bias, when 
leaders abandon institutional norms and the organizational 
hierarchy in favor of their own ad hoc judgments, and when the 
leadership of the Department of Justice and the FBI are unable 
to speak directly with one another for the good of the 
institutions.
    Our report makes nine recommendations, most of which can be 
tied together to a common theme: that the FBI and the Justice 
Department remain true to their foundational principles and 
values in all of their work.
    That concludes my prepared statement. I would be pleased to 
answer any questions the committee may have.
    [Prepared statement of Mr. Mr. Horowitz follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman Gowdy. Thank you, Mr. Inspector General.
    There's a text exchange between FBI lawyer Lisa Page and 
FBI agent Peter Strzok from August the 8th of 2016. In that 
text exchange Lisa Page wrote: Trump's not ever going to become 
President, right, with a question mark, and then right, with a 
question mark and an exclamation point in case anybody reading 
it may have missed the point of her emphasis. Peter Strzok 
responded: ``No. No he's not. We'll stop it.''
    Do I have that text exchange right?
    Mr. Horowitz. You do.
    Chairman Gowdy. Now, Lisa Page was an FBI lawyer who worked 
on the Clinton email investigation?
    Mr. Horowitz. That's correct.
    Chairman Gowdy. Did she also work on the Russia 
investigation?
    Mr. Horowitz. She did.
    Chairman Gowdy. How about the Mueller special counsel team?
    Mr. Horowitz. She did for a period of time.
    Chairman Gowdy. All right. So we're three for three on her 
working on the two most important Bureau investigations in 2016 
and beyond.
    Now, is this the same Lisa Page that Andy McCabe used to 
leak information to a news outlet?
    Mr. Horowitz. She was his special counsel, and as we 
indicated in our earlier report, she was the individual through 
whom he provided that information.
    Chairman Gowdy. Wasn't there also a text about an insurance 
policy in case Trump won and a meeting in Andy's office? She 
was part of that text string, too, wasn't she?
    Mr. Horowitz. Correct. That was on August 15.
    Chairman Gowdy. All right. So this August 8 text was not 
the only time FBI lawyer Lisa Page was able to use the text 
feature on her phone. This is the same Lisa Page who admonished 
the agent interviewing Hillary Clinton not to go into that 
interview loaded for bear because Clinton might be the next 
President. And it is the same Lisa Page who said Trump was 
loathsome, awful, the man cannot become President, Clinton just 
has to win, and that Trump should go F himself.
    Now, most of those comments were before the Clinton 
investigation was over, and we are somehow supposed to believe 
that she did not prejudge the outcome of that investigation 
before it was over? She already had Hillary Clinton winning. I 
don't know how you can win if you're going to wind up getting 
indicted and/or plead guilty or be convicted of a felony.
    So I think we understand the first half of that text pretty 
well. She didn't want Trump to win, and she wanted Clinton to 
win.
    Now, for the response. Senior FBI agent Peter Strzok wrote: 
``No. No he's not. We'll stop it.''
    Now, I think this is the same Peter Strzok who worked on 
the Clinton email investigation. Do I have that right?
    Mr. Horowitz. That's correct.
    Chairman Gowdy. Same Peter Strzok who not only worked on 
the Russia investigation when it began, but was one of the lead 
investigators at the inception of the Russia probe. Do I have 
the right Peter Strzok?
    Mr. Horowitz. That's my understanding.
    Chairman Gowdy. Now, is it the same Peter Strzok who was 
put on the Mueller special counsel team?
    Mr. Horowitz. Yes.
    Chairman Gowdy. All right. Same Peter Strzok. And this is 
not the only time he managed to find the text feature on his 
phone either. This is the same Peter Strzok who said: Trump is 
an idiot. Hillary should win 100 million to zero.
    Now, Mr. Inspector General, that one is interesting to me 
because he's supposed to be investigating her for violations of 
the Espionage Act at the time he wrote that in March of 2016. 
He's supposed to be investigating her for violations of the 
Espionage Act, and he can't think of a single, solitary 
American that wouldn't vote for her for President.
    I mean, can you see our skepticism? This senior FBI agent 
not only had her running, he had her winning 100 million to 
nothing.
    So what if they'd found evidence sufficient to indict her? 
What if they had indicted her? Is this the same Peter Strzok? 
He wasn't part of the interview of Secretary Clinton, was he?
    Mr. Horowitz. He was present for the interview.
    Chairman Gowdy. Huh. So 4 months before that interview 
where he was present he's got her running and winning 100 
million to zero. And it is the same Peter Strzok who wrote: The 
bigoted nonsense of Trump. Trump's a disaster. I have no idea 
how destabilizing his Presidency would be. He wrote: F Trump. 
Trump is an f'ing idiot. On the prospects of Trump winning he 
wrote: This is an f'ing terrifying.
    In addition to seeming to like the F word, I think we have 
the same FBI agent, Lisa Page, and the same FBI agent, Peter 
Strzok, working on the Clinton email investigation, the Russia 
probe, and on Mueller's team.
    So we have the right texts and we've got the right people. 
I want to make sure we have the chronology right.
    July 5, 2016, Comey announces no charges for Secretary 
Clinton, right?
    Mr. Horowitz. Correct.
    Chairman Gowdy. July 28, 2016, the FBI initiates a 
counterintelligence investigation into Russia and the Trump 
campaign, and Strzok is not only on that Russia investigatory 
team, he's actually leading it. So that's 3 weeks after Clinton 
is exonerated by Comey, Strzok is leading an investigation into 
Russia and possible connections with the Trump campaign. That's 
on the 28th of July.
    Now, on the 31st of July, 3 days after the Russia 
investigation began, Strzok wrote: Damn this feels momentous. 
The other one did, too, but this was to ensure we didn't F 
things up. This one matters because it matters.
    And if you happen to not know how important it is, he went 
ahead and put ``MATTERS'' in all caps, in case you happened to 
not focus on the importance of why this matters.
    Now, her investigation was just to make sure they didn't F 
things up. This one we're 3 days into it, Inspector General 
Horowitz, 3 days into an investigation, but this one really 
matters.
    I wonder what he meant by saying the purpose of the Clinton 
investigation was to make sure they didn't F things up, but the 
Russia investigation, nah, that one was different, that one 
really mattered. You know, it almost sounds, Inspector General 
Horowitz, like they were going through the motions with the 
Clinton investigation. But, boy, they sure were excited about 
the Russia one.
    Then we get to August 6. This is less than 10 days after 
the Russia investigation begins, and Page says: You are meant 
to protect the country from that menace.
    And then we get to August 8, 2016, less than 2 weeks after 
the Russia investigation even began. The lead FBI agent says he 
will stop Trump from becoming President. This is 2 weeks into 
an investigation and he's already prejudged the outcome. And 
we're somehow supposed to believe that that bias was not 
outcome determinative.
    I can't think of anything more outcome determinative than 
my bias against this person I'm investigating with only 2 
weeks' worth of investigating. I have already concluded he 
should not be the President of the United States.
    And then we get to August 15, just over 2 weeks into the 
Russia investigation. Strzok says: I want to believe the path 
you threw out, that there's no way he gets elected, but I'm 
afraid we can't take that risk. It's like an insurance policy.
    Mr. Inspector General, that is 2 weeks into an 
investigation and he is talking about taking out an insurance 
policy because he can't fathom the target of his investigation 
possibly becoming the President.
    So I want to go back to the: No, no, he's not going to be 
President, we'll stop it. What do you think the ``it'' is in 
that phrase, ``We'll stop it''?
    Mr. Horowitz. Oh, I think it's clear from the context it's 
we're going to stop him from becoming President.
    Chairman Gowdy. That's what I thought, too.
    Now, I wonder who the ``we'' is in the ``we'll stop it.'' 
Who do you think the ``we'' is.
    Mr. Horowitz. Well, I think that's probably subject to 
multiple interpretations.
    Chairman Gowdy. We'll see if we can go through a couple of 
them.
    Mr. Horowitz. The ``we'' is the two of them or the 
broader--or a broader group beyond that.
    Chairman Gowdy. I mean, it's hard to fathom a definition of 
``we'' that doesn't include him. So we know he's part of 
``we.'' You could assume that the person he's talking with is 
FBI attorney who also happens to be working on the Russia 
investigation, she may be part of the ``we.''
    But I wonder, Inspector General, did you find any other FBI 
agents or FBI attorneys who manifest any animus or bias against 
Trump?
    Mr. Horowitz. We did.
    Chairman Gowdy. How many?
    Mr. Horowitz. We found three additional FBI agents, as we 
detail in the report.
    Chairman Gowdy. And were any of them working on the Russia 
investigation----
    Mr. Horowitz. Let me just correct, two agents and one 
attorney.
    Chairman Gowdy. Two other agents, one other attorney. Were 
they working on either the Russia investigation or the Mueller 
probe?
    Mr. Horowitz. I believe two of the three were, but I'd have 
to just double check on that.
    Chairman Gowdy. Okay.
    Now, Bob Mueller was named special counsel on May the 17th, 
2017. One day later, Mr. Horowitz, 1 day later Peter Strzok is 
back on his phone texting some more: For me, and this case, I 
personally have a sense of unfinished business. I unleashed it 
with the Clinton email investigation. Now I need to fix it and 
finish it.
    Fix what?
    Mr. Horowitz. Well, there is outlined in the report what 
Mr. Strzok's explanation for this was. Our view----
    Chairman Gowdy. Oh, I know what he says. I'm asking--I'm 
asking the guy who had a distinguished career in the Southern 
District of New York and had a distinguished career at the 
Department of Justice. Would you rather cross-examine Peter 
Strzok on that explanation or would you rather direct the 
examination on that explanation?
    Mr. Horowitz. Probably cross-examine.
    Chairman Gowdy. That's what I thought.
    How about ``finish it,'' when he said, I unleashed it, now 
I need to fix it and finish it? What do you think he meant by 
``finish it''?
    Mr. Horowitz. I think in the context of the emails that 
occurred in August, the prior August, that you outlined, I 
think a reasonable explanation of it or reasonable inference of 
that is that he believed he would use or potentially use his 
official authority to take action.
    Chairman Gowdy. But this is 24 hours into him being put on 
the Mueller probe. There's no way he possibly could have 
prejudged the outcome of the investigation--maybe he did. Maybe 
that's the outcome-determinative bias that my Democrat friends 
have such a hard time finding.
    Inspector General Horowitz, if one of your investigators 
talked about Lisa Page and Peter Strzok the way they talked 
about Donald Trump, would you have left them on the IG 
investigation?
    Mr. Horowitz. No.
    Chairman Gowdy. Did you ever have an agent when you were a 
prosecutor with this level of bias?
    Mr. Horowitz. You know, as I have laid out here, I thought 
this was completely antithetical to the core values of the 
Department and extremely serious.
    Mr. Nadler. Can you speak up, please?
    Mr. Horowitz. I'm sorry.
    Chairman Gowdy. I heard you, but you can say it where Mr. 
Nadler can hear you, too.
    Mr. Horowitz. You know, my view of this was that this was 
extremely serious, completely antithetical to the core values. 
My personal view, having been a prosecutor and worked with FBI 
agents, I can't imagine FBI agents suggesting even that they 
might use their powers to investigate, frankly, any candidate 
for any office.
    Chairman Gowdy. I can't either.
    Let me ask you this in conclusion. I think you've already--
you laid out in your opening that Peter Strzok's obsession with 
Donald Trump and the Russia investigation may have led him to 
take his eyes off of the Weiner laptop and, in a notably ironic 
way, caused James Comey to be a little bit later in sending 
those letters to Congress. So that is one example of outcome-
determinative bias.
    But I've got to ask you, you used to be in a courtroom. You 
were on the side of the United States and you worked for the 
Department of Justice. If someone is prejudging the outcome of 
an investigation before it ends and someone is prejudging the 
outcome of an investigation before it even begins, what is more 
textbook bias than prejudging this investigation before it's 
over and this one before it begins? I am struggling to find a 
better example of outcome-determinative bias than that. So what 
am I missing?
    Mr. Horowitz. Well, I think certainly with regard to the 
Russia investigation you mentioned, as you know, we are looking 
at that in an ongoing way.
    With regard to the Clinton email investigation, I think as 
we lay out here and go through it, we looked at text messages, 
emails, documents to try and assess whether the specific 
decisions that we were asked to look at and then the ultimate 
prosecutorial decision were impacted by Strzok, Page, and the 
others' views.
    And what we ended up finding, particularly as to the 
prosecutor's decision, was that that was a decision they made 
exercising their discretion on their view of the policy, the 
law, and the facts as it was found. We have laid that out, and 
in our view we didn't find or see evidence that the prosecutors 
were impacted by that bias.
    But as I mentioned in my opening statement, the idea here 
was to put out the facts for the public, Members of Congress to 
see, and so the folks who want to take a look at those issues 
obviously can assess them themselves.
    Chairman Gowdy. Well, my time is up. I hope one of my other 
colleagues will explore that. Because the explanation I have 
heard is that the failure to prosecute was predicated upon 
their belief that there was not sufficient evidence of intent 
on her behalf. And I don't know where in the hell you would go 
to find better evidence of intent than interviewing the person 
who actually was doing the intending.
    And when you make up your mind that you're not going to 
charge someone, and you make up your mind that you need to not 
go in loaded for bear, and then you read the 302 and there's 
not a single damn question on intent, it is really hard for 
those of us who used to do this for a living to not conclude 
they'd made up their mind on intent before they even bothered 
to talk to the single best repository of intent evidence, which 
would be her.
    With that, I would recognize----
    Ms. Norton. Mr. Chairman, may I make an inquiry? Mr. 
Chairman, in order to prepare our questions, could I have your 
guidance on how much time each member is to be allowed?
    Chairman Gowdy. Five minutes. And Mr. Cummings can have the 
amount of time he thinks is necessary. The other members will 
have 5 minutes.
    The gentleman from Maryland is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman. First of 
all, I want to thank you, Mr. Horowitz, for your work. And I 
want to thank all of the IGs. We have always been, both sides 
of the aisle, impressed with your efforts. And to your staff, I 
thank you.
    Mr. Horowitz, I want to focus on whether Secretary Clinton 
received, as some of my colleagues put it, special treatment 
from the FBI and the DOJ.
    On the decision not to prosecute Secretary Clinton, your 
report found, and I quote, ``We found no evidence that the 
conclusions by the prosecutors were affected by bias or other 
improper considerations. Rather, we determined that they were 
based on the prosecutor's assessment of the facts, the law, and 
past Department practice.
    We want Justice Department officials to make their 
decisions based on the facts, the law, and the past Department 
practices.''
    Isn't that correct? Is that accurate?
    Mr. Horowitz. That's correct.
    Mr. Cummings. And your report also concluded that the FBI 
team interpreted and applied the law to Secretary Clinton in a 
way that was, and I quote, ``consistent with the Department's 
historical approach in prior cases under different leadership, 
including in the 2008 decision not to prosecute former Attorney 
General Alberto Gonzalez for mishandling classified documents. 
Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Cummings. But Director Comey did apply a double 
standard to Secretary Clinton in a way that helped Donald Trump 
and severely hurt Secretary Clinton. Director Comey followed 
the Department policy and kept secret from the American people 
the FBI's investigation of the Trump campaign in Russia, but 
repeatedly ignored Department policy and released information 
about Secretary Clinton.
    Regarding Director Comey's July 5, 2016 public statement 
about his recommendation not to charge Secretary Clinton, your 
review found, and I quote, ``Comey's unilateral announcement 
was inconsistent with Department policy and violated 
longstanding Department practice and protocol by, among other 
things, criticizing Clinton's uncharged conduct.''
    Can you explain why the Department has a policy against 
criticizing the uncharged conduct of an individual?
    Mr. Horowitz. Certainly. The Department, and actually one 
of the things that was interesting in the report is we found 
that it's a norm, it's accepted, but there actually isn't a 
policy that explicitly states that.
    So that is one of our recommendations. And I would--as we 
talk about this issue, the reason you don't speak about 
uncharged conduct--there are many--but it is fairness to the 
individual, if an individual isn't going to be charged with 
criminal conduct or wrongdoing, you don't speak about it. You 
speak in court. That's what we've been trained from day one as 
prosecutors and anybody who has worked in the Justice 
Department.
    Doing that publicly, not only tarnishes an individual, but 
raises questions of the fairness of justice and applications of 
various principles, as you indicated.
    Indeed, as we point out here, while there isn't an explicit 
policy at the Department about not speaking on uncharged 
conduct in a case where you don't charge any criminal activity, 
there actually is language that prohibits Department's 
prosecutors from speaking about uncharged conduct of 
coconspirators.
    And so, in other words, where there is, in fact, a charge 
of criminal wrongdoing and a conspiracy and some individuals in 
the conspiracy are charged and some individuals aren't 
charged--and that can happen because there's stronger evidence 
against some than others--Department policy says you can't 
speak about the uncharged individuals, even though you believe 
they committed a crime. And yet there is no corresponding 
policy, which at the time--where there are no charges, which is 
why we make that recommendation in this report.
    Mr. Cummings. I see. You also found that Director Comey's 
October 28, 2016 letter to Congress about Secretary Clinton, 
and I quote, ``originated with Comey's elevation of maximal 
transparency as a value overriding for this case only, the 
principles of stay silent and take no action that the FBI has 
consistently applied to other cases.''
    Now, Mr. Horowitz, one of those investigations where 
Director Comey decided to follow Department policy and practice 
and keep silent was the Russia investigation into allegations 
of collusion with the Trump campaign.
    Is that accurate?
    Mr. Horowitz. It is. And I'll add it also had that policy 
with regard to the Clinton Foundation.
    Mr. Cummings. And so, say that again. Explain that, what 
you just said.
    Mr. Horowitz. So there are two investigations he declined, 
as we lay out, here to speak about. One was the Russia 
investigation and one was a then-ongoing Clinton Foundation 
investigation.
    In fact, that was the basis for the report about Deputy 
Director McCabe's misconduct that we released a few months ago.
    Mr. Cummings. So do you believe that Secretary Clinton 
received some favorable action?
    Mr. Horowitz. I'm not going to sort of judge whether it was 
favorable to whom or what. I'll just say that it was not 
consistent with Department policy, practice, and it shouldn't 
have been done.
    Mr. Cummings. Now, Mr. Horowitz, President Trump and his 
Republican allies are trying to use your report to discredit 
Special Counsel Mueller's investigation. Let me read a few 
headlines from the press about your report, and I'm sure you've 
seen them. Trump allies--quote, ``Trump allies seize on DOJ 
report as they seek to undercut Mueller's probe. Giuliani calls 
for DOJ to end Mueller probe after IG report.'' Quote, ``Trump 
claims vindication in a report on FBI that wasn't about him.'' 
And, quote, ``Republicans want to shut Mueller down over a 
report that isn't even about him,'' end of quote.
    President Trump stated last Friday, and I quote, ``If you 
read the IG report, I've been totally exonerated,'' end of 
quote.
    Mr. Horowitz, my copy of your report must be missing a 
page, or a few pages. Did your investigation examine whether 
President Trump's campaign colluded with Russia to impact the 
election or whether the President obstructed an FBI 
investigation?
    Mr. Horowitz. Our report was focused on the Clinton email 
investigation. And the only place where it touches the Russia 
matter is with regard to the text messages and then the October 
decision about the Weiner laptop.
    Mr. Cummings. The President also said, and I quote ``The 
Mueller investigation has been totally discredited,'' end of 
quote. I don't see that in your report anywhere. Maybe I missed 
it.
    Does your report reach any conclusions about the validity 
or credibility of Special Counsel Mueller's investigation?
    Mr. Horowitz. As we noted in the report, it relates to the 
Clinton email investigation, and the Russia matter was not part 
of this review, other than what, the exception I mentioned 
earlier.
    Mr. Cummings. Now Rudy Giuliani, President Trump's personal 
attorney, said, and I quote, ``Tomorrow Mueller should suspend 
his investigation,'' end of quote.
    Does your report recommend that the special counsel suspend 
his investigation?
    Mr. Horowitz. We don't address issues with regard to the 
special counsel.
    Mr. Cummings. Mr. Giuliani also said, and I quote, ``The IG 
report basically tells you that both prongs of the Mueller 
investigation are either corrupt or answered,'' end of quote.
    Did your investigation determine that the special counsel's 
investigation is corrupt?
    Mr. Horowitz. As I said, our report was concerning the 
Clinton email investigation.
    Mr. Cummings. Well, did your investigation answer the 
questions being considered in Special Counsel Mueller's probe?
    Mr. Horowitz. Same answer.
    Mr. Cummings. The conclusion in your report states, and I 
quote--and I will finish with this, Mr. Chairman--``Through the 
collective efforts of generations of FBI employees, the FBI has 
developed and earned a reputation as one of the world's premier 
law enforcement agencies. The FBI has gained this reputation, 
in significant part, because of its professionalism, 
impartiality, nonpolitical enforcement of the law, and 
adherence to detailed policies, practices, and norms.''
    Did you find that the FBI as an institution is corrupt, 
politically biased, or untrustworthy?
    Mr. Horowitz. We didn't reach the larger question of, you 
know, had this broadly affected the FBI, beyond noting that, in 
fact, this kind of conduct undermines that credibility, impacts 
people's perceptions of the FBI in a way that should never have 
happened. And is very concerning for all the reasons, I think 
everybody cares about, the fair administration of justice.
    Mr. Cummings. And I listened very carefully to Chairman 
Gowdy's questions, which were excellent. And the cloud that you 
talked about with regard to Ms. Page and Strzok and the others 
that you mentioned, how do you get--the method that you used to 
figure out that their opinions did not have a negative impact, 
you know, or inappropriate impact on this investigation?
    Mr. Horowitz. So, what we did was----
    Mr. Cummings. Because that is a crucial question. I mean, 
in fairness to all. I think it is important that that be 
addressed. Go ahead.
    Mr. Horowitz. Yeah, absolutely, Congressman. I think it is 
very important, because as we've talked about, the language, 
the messages, the appearance, the implication that any law 
enforcement officer would be willing to use their authority to 
impact any election, any individual, whatever side that person 
is running on or running from is so antithetical to the core 
values of justice and the FBI.
    And so the question we looked at was with the comments of 
the five individuals we identified here in looking at their 
various messages, how did those--how did those impact the 
specific decisions we looked at and then the prosecutor's 
decision, ultimately. Because, obviously, the prosecutors are 
the one--despite what Director Comey said publicly--were 
responsible for making the ultimate decision on whether to 
charge or not charge.
    What we did was, we questioned witnesses closely, we looked 
for all the documentary evidence we could, we looked at the 
specific decisions. As to the specific decisions we outline 
here in the report, they were either the result of larger team 
decisions that were not exclusively within the domain of the 
individuals who had very troubling messages, or were 
prosecutors' decision, and not the decisions of these 
individuals.
    And we also noted that at least for some of these 
decisions, the individuals are actually seeking more aggressive 
approaches than the prosecutors were, in some regards. So we 
looked at all of that evidence, and we assessed whether on that 
record, we could make a finding that bias turned into action by 
those other individuals. And we didn't believe there was 
evidence to reach that conclusion.
    And as to the prosecutors' decision, it was the 
prosecutors' decision. And folks can debate and discuss, and 
there's clearly been a fair amount of it on whether the 
precedent and the current--and the assessment here on the 
application of the gross negligence provision was an 
appropriate application of that provision. But that's a 
decision that the prosecutors made based on their judgment, as 
you indicated, looking at the----
    Mr. Cummings. Let me ask you this: In coming to that 
conclusion that you just talked about, was there--because it 
seems like we're having an investigation of the investigation 
of the investigation. But so I ask you this: Your staff, the 
people that you work with, your IG assistants and----
    Mr. Horowitz. Right.
    Mr. Cummings. --were you all solid behind what you just 
said, or did you have people say, Nah, you know, like a jury. 
Half of them----
    Mr. Horowitz. You know the great thing about having a large 
team like we had working on this is, much like I've done in 
other reports, Fast and Furious and others, we sit in a room, 
sort of hash it out, exchange ideas. But I'm comfortable saying 
this is the conclusion of all of us in the IG.
    I obviously am the one who has to, and is the one 
responsible for ultimately issuing this, but that was our team 
conclusion of it. But, you know, I hasten to add, we understand 
and recognize and state explicitly on how serious the conduct 
was, and how it cast a cloud over the whole investigation. I 
don't think I can be lost either.
    Mr. Cummings. Thank you very much.
    Thank you very much.
    Chairman Gowdy. The gentleman from Maryland yields back. 
The gentleman from Virginia is recognized.
    Chairman Goodlatte. Mr. Horowitz, welcome. We know from the 
report surrounding former Deputy Director McCabe's termination 
that the Department of Justice at high levels sought to 
terminate the Clinton Foundation investigation.
    We also know that you found communication between Secretary 
Clinton and President Obama.
    During your investigation, did you seek access to 
communications from the Department of Justice?
    Mr. Horowitz. Yes, we did.
    Chairman Goodlatte. What about former Obama White House 
officials?
    Mr. Horowitz. We sought Department records and Department 
information. We have, in the past, when we've sought White 
House records--and this is true of administrations going way 
back--it's been made clear to us that the executive office of 
the President does not provide records to inspectors general of 
agencies.
    So we would look for them if they were incoming to the 
Department and those would be records that we would seek and 
obtain, but we don't have authority over any other agency 
outside government--outside, I'm sorry, the Justice Department.
    Chairman Goodlatte. Did you seek to interview any officials 
at the White House? The Obama White House?
    Mr. Horowitz. I would have to go back and ask the team 
whether we sought interviews.
    Chairman Goodlatte. Denis McDonough?
    Mr. Horowitz. I don't believe so.
    Chairman Goodlatte. Valerie Jarrett?
    Mr. Horowitz. I don't believe so.
    Chairman Goodlatte. How about the President himself?
    Mr. Horowitz. No, we did not.
    Chairman Goodlatte. Neither the Department of Justice--
would you have liked to have had that information if you could 
get access to it?
    Mr. Horowitz. I would have to think about that and talk 
with the team, frankly, about that and how they would view 
that.
    Chairman Goodlatte. Neither the Department of Justice nor 
the FBI are mentioned in the Constitution. However, each 
institution has engaged in repeated stonewalling of Congress' 
constitutionally mandated oversight.
    The infamous text from Peter Strzok saying ``We will stop 
President Trump from taking office,'' which we received on the 
day of your report's release, is a prime example.
    This text was revealed to you late in your interview as 
well, as I understand.
    Do you believe this text shows political bias?
    Mr. Horowitz. I think as we found, it clearly shows a 
biased state of mind.
    Chairman Goodlatte. And if so, do you believe the political 
bias shown by this text had an effect on the initiation of the 
Russia investigation?
    Mr. Horowitz. I think, as you know, Mr. Chairman, that's a 
matter we've got under review and are looking at right now.
    Chairman Goodlatte. More to be determined on that?
    Mr. Horowitz. More to be determined.
    Chairman Goodlatte. But the time proximity, as Mr. Gowdy, 
pointed out is significant.
    Mr. Horowitz. Correct. In fact, there are these other text 
messages that are roughly in the same time period.
    Chairman Goodlatte. You were an assistant United States 
attorney for eight years. Is that correct?
    Mr. Horowitz. Correct.
    Chairman Goodlatte. In that time, did you ever charge any 
Espionage Act case or a case under Section 793(f)?
    Mr. Horowitz. I did not.
    Chairman Goodlatte. I'm trying to understand more about the 
seeming need for intent in this statute. Of course, as some 
have noted, people never intend the bad things that happen due 
to gross negligence, right?
    Mr. Horowitz. Correct.
    Chairman Goodlatte. So some courts have stated that willful 
blindness satisfies the requirement of knowledge. For example, 
this happens in cases where a defendant is transporting a 
package containing narcotics. Courts have never allowed the 
defendant to claim he didn't know what was in the package 
because he should have known and exercised criminal 
recklessness by failing to determine what was in the package.
    In your opinion as a former prosecutor, isn't a similar 
analysis appropriate here?
    Mr. Horowitz. I'm going to demur on what I would have done 
as a prosecutor or my views as a former prosecutor. I will say 
what was explained to us in terms of intent was actually, 
really knowledge. The focus was largely on the fact that these 
documents that were classified weren't clearly marked as 
classified.
    Chairman Goodlatte. Didn't Mrs. Clinton, as Secretary of 
State, having the authority not only to read all levels of 
classified documents, but also to classify documents herself, 
didn't she have a duty to determine whether the unclassified 
server she used to transact all her official business was 
moving classified information?
    Mr. Horowitz. I think it's fair to say there's a 
responsibility on senior officials to understand and know what 
classified information may be present.
    Chairman Goodlatte. Wasn't that the least amount of care we 
should have expected from her with information that could cause 
serious harm to our national security?
    Mr. Horowitz. I think I'm going to rely on the evidence 
that we had here and our review, which was to look at what the 
prosecutors made as an assessment, and as we described here, 
their view was, unless it was marked, unless it was clear 
knowledge, they believed that it would be inconsistent with 
past practice and how they would look at this provision, and, 
therefore, not charge it.
    Chairman Goodlatte. Following the 2016 election, many of my 
Democratic colleagues called for the resignation or termination 
of former FBI Director James Comey for his mishandling of the 
Clinton investigation.
    Curiously, these same colleagues cried foul when President 
Trump, upon the recommendation of Department of Justice, Deputy 
Attorney General Rosenstein did, in fact, terminate Comey.
    For instance, on November 14, 2016, one of our Democratic 
Judiciary Committee colleagues told CNN's Chris Cuomo that 
Comey should be fired immediately, and that President Trump 
ought to initiate an investigation into his actions.
    Conversely, on May 9, 2017, that same Democrat made a 
complete U-turn and stated that, quote, ``The firing of FBI 
Director Comey by President Trump is a terrifying signal of 
this administration's continued abuse of power on so many 
levels,'' end quote.
    Additionally, following the 2016 election, another of our 
Democratic colleagues insisted that Comey should ``pack his 
things and go.'' However, a year later, the same person 
insisted that James Comey's firing suggests an attempt to 
squelch an investigation in an effort to cover up wrongdoing.
    Lastly, on October 31, 2016, a third Judiciary Committee 
Democrat stated that Comey's actions make it clear he should 
resign immediately for the good of the FBI and the Justice 
Department.
    Fast forward a year, and the same Democrat is then 
advocating for Director Comey to receive--get this--the 
Profiles in Courage Award following his termination.
    So to clear up the apparent confusion among my colleagues, 
do you believe the termination of former FBI Director James 
Comey was justified following your recent findings that 
describe Comey as insubordinate in his handling of Hillary 
Clinton's email investigation?
    Mr. Horowitz. Mr. Chairman, as inspector general, my 
responsibility is to get the evidence and the facts, and it is 
then up to others to decide what the appropriate penalty or 
adjudication should be of that.
    So I'm going to, for the reasons that we found here, that 
people should stay in their roles and responsibilities and 
understand those, I'm going to----
    Chairman Goodlatte. You would agree, however, that 
insubordination, in the matters that you outlined in your 
report, is a serious matter?
    Mr. Horowitz. Oh, I agree. It is a serious matter.
    Chairman Goodlatte. So on page 147 of your report, there is 
a text exchange that I'm curious about. About halfway down the 
page, Agent 1 stated he could not recall anything specific to 
add to this exchange.
    In another exchange on February 4, 2016, Agent 1 and an FBI 
employee who was not assigned to the Midyear investigation 
discussed Agent 1's interview with a witness who assisted the 
Clinton's at their Chappaqua, New York residence.
    Part of this exchange follows:
    ``FBI employee: Boom. How did the witness go?
    ``Agent 1: Awesome. Lied his ass off. Went from never 
inside the SCIF, Sensitive Compartmented Information Facility 
at residence, to looked in to when it was being constructed, to 
remove the trash twice to troubleshot the secure facts with HRC 
a couple of times, to every time there was a secure fax, I did 
it with HRC. Ridic.'' End quote.
    ``FBI employee: Would be funny if he was the only guy 
charged in this deal.
    ``Agent 1: I know, for 1001"----
    Now that's referring to 18 USC 1001, is it not?
    Mr. Horowitz. That's correct.
    Chairman Goodlatte. All right.
    ``Even if he said the truth and didn't have a clearance 
when handling the secure fax, ain't no one going do S blank, 
blank, blank.''
    Now, we asked Agent 1 about the implication in this 
message--this is your report.
    Mr. Horowitz. Correct.
    Chairman Goodlatte. --that no one would be charged 
irrespective of what the team found.
    And Agent 1 stated, ``Yeah, I, I don't think I can say 
there's a specific person that I worked with in this case that 
wouldn't charge him for that, wouldn't charge him for that. I 
think it's a general complaint of, you know, of FBI agents that 
are kind of, kind of being emotional and complaining that no 
one is going to do something about, about something, so, but 
there's nothing specific that I, that I can tell you.''
    Now, this individual, Agent 1, is expressing an opinion 
that that, was a circumstance under which charging somebody 
would be appropriate. Is that correct?
    Mr. Horowitz. That's certainly the--what he's suggesting 
here.
    Chairman Goodlatte. All right. Now, what is Title 18, 
Section 1001? What is that about?
    Mr. Horowitz. Making a false statement to a government 
official in the course of a review or investigation.
    Chairman Goodlatte. So is that not exactly the same statute 
under which Mr. Papadopoulos and Mr. Flynn were charged?
    Mr. Horowitz. I don't specifically, but I assume so.
    Chairman Goodlatte. All right. Thank you. Those are all the 
questions I have, Mr. Chairman.
    Chairman Gowdy. The gentleman from Virginia yields back. 
The gentleman from New York is recognized.
    Mr. Nadler. Thank you, Mr. Chairman. Yes, first, of all, 
let me state before I ask questions of Mr. Horowitz, the 
President told us why he fired Mr. Comey, and it wasn't for any 
of the things mentioned in the report. It was because of the 
Russia investigation.
    He told that to us on NBC News in an interview with Lester 
Holt. I believe the President, unless there's evidence he was 
lying, but I haven't heard any suggestions of that.
    Now, Mr. Horowitz, the special counsel's investigation has 
resulted in five guilty pleas, and 23 indictments so far. Do 
any of your reports, findings, call into question any of these 
serious criminal indictments?
    Mr. Horowitz. Our report focused on the Clinton emails.
    Mr. Nadler. The answer is no, it has nothing to do with it?
    Mr. Horowitz. The only place we touched on Russia is that 
October time period.
    Mr. Nadler. Thank you. On May 2nd, 2017, President Trump 
tweeted, ``FBI Director Comey was the best thing that ever 
happened to Hillary in that he gave her a free pass for many 
bad deeds,'' unquote.
    Over the course of your investigation, did you find that 
the FBI gave Hillary Clinton, quote, ``a free pass from any bad 
deeds,'' unquote?
    Mr. Horowitz. I'm sorry. Could you restate that 
Congressman?
    Mr. Nadler. Did you find that the FBI gave Hillary Clinton, 
quote, ``a free pass for many bad deeds,'' unquote?
    Mr. Horowitz. I think we've laid out here quite clearly 
what the investigative steps were and how the decision was 
made, so 500 pages worth of information here to make that 
assessment.
    Mr. Nadler. You stand on that?
    In fact, you found, did you not, that the specific 
investigative decisions that you reviewed, quote, ``were based 
on the prosecutor's assessments of the facts, the law, and the 
Department practice,'' close quote.
    Mr. Horowitz. Correct.
    Mr. Nadler. On July 22nd, 2017, the President tweeted, 
quote, ``So many people are asking why isn't the AG or special 
counsel looking at the many Hillary Clinton or Comey crimes,'' 
close quote.
    Did you uncover evidence of any crimes committed by James 
Comey?
    Mr. Horowitz. I'm going to, again, rely on this report.
    Mr. Nadler. Let me rephrase the question. Does the report 
discuss any alleged crimes committed by James Comey?
    Mr. Horowitz. The report does not discuss----
    Mr. Nadler. Thank you. Does not.
    Mr. Horowitz. --crimes.
    Mr. Nadler. And in fact, although you found reason to 
question Mr. Comey's judgment, you found no evidence that his 
actions were, quote, ``the result of bias or an effort to 
influence the election.'' Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Nadler. It is correct?
    Mr. Horowitz. It is correct.
    Mr. Nadler. Thank you. On September 1, 2017, the President 
tweeted quote, ``Wow, looks like James Comey exonerated Hillary 
Clinton long before the investigation was over and so much 
more. A rigged system,'' close quote.
    Did you uncover any evidence supporting President Trump's 
assertion that Mr. Comey prejudged or, quote, ``rigged'' the 
outcome of the investigation?
    Mr. Horowitz. Again, I'm going to rely on what's here. I 
can only speak to what----
    Mr. Nadler. Okay. Then let me rephrase the question.
    Mr. Horowitz. Well----
    Mr. Nadler. Did the report note any evidence of that?
    Mr. Horowitz. We've got the May drafting of the statement, 
which some people have raised concerns about. I'm not going to 
sort of extrapolate beyond the facts here, but I think there is 
that information about the drafting of the statement back in 
May.
    Mr. Nadler. And your office reviewed evidence that showed 
Director Comey resisted acknowledging the existence of the 
Russia investigation in October 2016 because he wanted to avoid 
taking action that might influence the election. Is that 
correct?
    Mr. Horowitz. That's correct. And he wanted to be fair to 
then-candidate Trump.
    Mr. Horowitz. I don't know what his----
    Mr. Nadler. I think it can be fairly stated that if the FBI 
acknowledged an investigation into the Trump campaign, it might 
not have inured to Trump's benefit, and, therefore, being fair 
to Trump may not----
    Mr. Horowitz. I understand.
    Mr. Nadler. Okay.
    Mr. Horowitz. I'm saying we--he explained in here what his 
rationale was----
    Mr. Nadler. On December 3, 2017, the President tweeted, 
quote, ``After years of Comey, with the phony and dishonest 
Clinton investigation and more, running the FBI, its reputation 
is in tatters, worst in history,'' close quote.
    Did your investigation uncover any evidence that the 
Clinton investigation was, quote, ``phony and dishonest''?
    Mr. Horowitz. Again, I'm going to rely here. We found that 
the prosecutors made the judgments they made based on the 
facts, the law, and the evidence they uncovered. We had 
concerns about the text messages and the implications for the 
investigation.
    Mr. Nadler. I'll take that as a no.
    On June 5, 2018, the President tweeted, quote, ``What is 
taking so long with the inspector general's report on crooked 
Hillary and slippery James Comey? Numerous delays. Hope report 
is not being changed and made weaker,'' close quote.
    Did you omit horrible things from this report or otherwise 
weaken it to paint Hillary Clinton, James Comey, or any other 
Department official in a better light?
    Mr. Horowitz. We handled this report like we did any 
others. No, we didn't.
    Mr. Nadler. Thank you.
    Last week, the President said that the FBI, quote, 
``plotted against his election,'' close quote, and that your 
report shows ``total bias,'' in quotes, at the FBI against the 
President and in favor of Secretary Clinton.
    Did your investigation uncover evidence of an FBI plot 
against the President's election?
    Mr. Horowitz. I think those August text messages reflect 
individuals suggesting that they could take action based on 
their beliefs.
    Mr. Nadler. But your report also said that they did not, in 
fact, that the FBI's decisions were not influenced by that?
    Mr. Horowitz. If we're focused on Midyear on the Clinton 
investigation, that's correct, that's what we found as to the 
decision to decline back in July.
    Mr. Nadler. Did your investigation find that FBI is totally 
biased against President Trump?
    Mr. Horowitz. We lay out here what we found on bias and 
what we did, and at least as to certain individuals, we had 
concerns about what their texts indicated.
    Mr. Nadler. So your report concludes that the outcome of 
the Clinton investigation was based on the facts and the law 
and not on political bias. Do you stand by that conclusion?
    Mr. Horowitz. We stand by that conclusion in this report.
    Mr. Nadler. Can you explain why you reached that 
conclusion?
    Mr. Horowitz. We looked at the decision to decline 
prosecution. We interviewed the prosecutors, we looked at their 
notes, their emails, the documentary evidence. And as a result 
of that, we did not see evidence of bias by the prosecutors, 
political bias, I'm talking about, which is what we were 
looking at and looking for, and looked at past precedents they 
cited as their reasons for what they did. And based on all of 
that information, we concluded that there wasn't evidence of 
political bias infecting that decision, and we describe here 
how they reached the decision they reached.
    Mr. Nadler. Thank you. Now, during the rollout of the 
report, your office confirmed that it continues to investigate 
the improper disclosure of information about the Clinton 
investigation to Trump campaign surrogates like Rudy Giuliani. 
Can you confirm that this work is ongoing?
    Mr. Horowitz. The only thing I'll say about that is that, 
as we indicate here, our investigative work continues. I'm not 
going to speak as to what particular leak, matter, individuals 
might be part of that ongoing review.
    Mr. Nadler. So you can confirm--I will take that as a 
confirmation of the existence of a specific investigation into 
Mr. Giuliani's comments in the week before the election?
    Mr. Horowitz. You shouldn't take that as any specific 
confirmation of anything. I'm not going to do the same thing. 
We lay out here, it was inappropriate----
    Mr. Nadler. Fair enough.
    Mr. Horowitz. --as to what occurred.
    Mr. Nadler. When is the timeline for this work? When can we 
expect the next report?
    Mr. Horowitz. We will, much like this review, we will 
follow the evidence where it leads, and when it is completed, 
we will issue our report. We will----
    Mr. Nadler. Now, on page--thank you. On page 387 of the 
report, I'm going to read it. It said, ``He said it's clear to 
me''--this is Attorney General Lynch quoting FBI Director 
Comey--``He said it's clear to me that there's a cadre of 
senior people in New York who have a deep and visceral hatred 
of Secretary Clinton. And he said it is deep. It's--and he 
said, he said it was surprising to him or stunning to him,'' 
close quote.
    Is there evidence that, in fact, there were people in the 
FBI office in New York who were very--who had a hatred of 
Secretary Clinton?
    Mr. Horowitz. We looked at individuals connected to the 
Midyear Review. We were not out there looking at every single 
FBI agent's personal devices, text messages, who had no role in 
the Midyear investigation.
    Mr. Nadler. Okay. Now, I want to get back to the Peter 
Strzok matter. And I would like to discuss what appears to be 
the most troubling--well, let me ask first.
    You would agree, I take it, that there's a crucial 
distinction between appearance of political bias on the part of 
an FBI agent or whoever, and whether any investigative actions 
are actually taken as a result of political bias?
    Mr. Horowitz. They are two different issues.
    Mr. Nadler. Okay. I would like to discuss--and by the way, 
let me ask a different question. We keep using the word 
``bias,'' is the word ``bias'' synonymous with the word 
political opinion, or is it used in a different sense?
    Mr. Horowitz. No, we used it, and I'm using it in the 
context of political bias.
    In other words, you're using your personal views to impact 
your decisions in a way that's non-investigatory. In other 
words, for other reasons----
    Mr. Nadler. So you found that Strzok, for instance, had 
this bias but that it didn't impact the investigative action?
    So is that a--in what way is that bias, if it didn't impact 
the investigation, different from a political opinion, or is it 
the same thing?
    Mr. Horowitz. Let me just--we found he exhibited bias. We 
found decisions that were made by others were not infected by 
that bias, we did have concerns about how his, what we thought 
was a biased state of mind impacted his October decision 
regarding the Weiner laptop. I think it is important to keep 
them separate.
    Mr. Nadler. You couldn't say it didn't or it didn't in that 
one?
    Mr. Horowitz. We could not say one way or the other but we 
couldn't rule it out----
    Mr. Nadler. Okay.
    Mr. Horowitz. And that's a pretty significant----
    Mr. Nadler. Now, I would like to discuss what appears to me 
the most troubling text exchange, which has already been talked 
about. On August 8th, 2016, Page asks, quote, ``Trump''--
actually, she didn't use the word Trump, it's clear it's 
referring to him--``not ever going to become President. Right. 
Right.''
    Strzok responds, ``No, no, he won't. We'll stop it.''
    Many have used this text as proof that Strzok actually 
intended to use his position at the FBI to stop Donald Trump 
from becoming President of the United States. But Peter Strzok 
did not have that kind of power.
    Your report found that Strzok was, quote, ``not the sole 
decision-maker for any of the specific Midyear investigative 
decisions. Is that correct?
    Mr. Horowitz. Pre-July 5, just to be clear. Preclosing in 
July. I think it is important to keep it separate from where he 
could have been a decision-maker in October with regard to the 
Weiner laptop.
    Mr. Nadler. Peter Strzok certainly knew about the Russia 
investigation before the election. And if he had publicly 
disclosed that information, he might have prevented Mr. Trump 
from being elected.
    But your investigation did not find that Mr. Strzok 
disclosed the details of the Russia investigation to the press 
before the election, did it?
    Mr. Horowitz. No, we don't.
    Mr. Nadler. Okay. Your report goes on to point out that 
despite the appearance created by his texts, you, quote, 
``found no evidence, and in some instances, Strzok and Page 
advocated for more--I'm sorry--you, quote, ``found evidence,'' 
I added the word ``no''--``you found evidence that in some 
instances, Strzok and Page advocated for more aggressive 
investigative measures than did others on the Midyear team, 
such as the use of grand jury subpoenas and search warrants to 
obtain evidence. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Nadler. So, in general, I think it is fair to say that 
the evidence does not show that--well, it shows that pre-July 
5th, certainly, Strzok left his bias or political opinions at 
home and didn't bring it to the office. And after July 5th, it 
doesn't show one way or the other, is that correct?
    Mr. Horowitz. I wouldn't go that far in terms of what our 
finding is pre-July 5. I would say that at the investigations, 
we looked at his bias, we didn't find cause for those 
decisions. You know, as we noted, there are lots of decisions 
in investigation. I can't go through all of them.
    Mr. Nadler. So you could not point a finger and say, he 
made this decision or influenced this decision because of his 
bias?
    Mr. Horowitz. That's correct.
    Mr. Nadler. Okay. And were there FBI agents, to your 
knowledge, or officials, who had negative opinions of Hillary 
Clinton?
    Mr. Horowitz. We have the text messages we laid out here. 
There are some that you could, I think, imply that. Certainly 
Peter Strzok's attorneys have made that argument. Almost 
everything we found was the other way, was anti-Trump.
    Mr. Nadler. By Strzok and Page?
    Mr. Horowitz. By Strzok and Page and the other three agents 
that we----
    Mr. Nadler. The other three agents, but you didn't look 
at----
    Mr. Horowitz. Or two agents and lawyer.
    Mr. Nadler. But you didn't look at other agents, like in 
the New York offices?
    Mr. Horowitz. We did not look at agents beyond the Midyear 
team, the Clinton email investigation team. I am not here to 
tell you----
    Mr. Nadler. I will simply observe, in conclusion, that an 
organization as large as the FBI, in a country that was pretty 
closely divided where half the American people thought Trump 
was a great guy and half thought Hillary was wonderful, and 
half thought the opposite in both cases, it will be pretty 
amazing if there weren't lots of people in the FBI who loved 
Donald Trump, and lots of people who couldn't stand him.
    And that there's nothing wrong with people holding their 
political opinions as long as they didn't let those opinions 
impact their jobs. Would you agree with that statement?
    Mr. Horowitz. People are free to have their personal views 
and their job is to check them at the door when they walk into 
work.
    Mr. Nadler. And I'll say one other thing.
    If it is true that Strzok did not impact any decision based 
on his personal political opinion, then expressing his 
political opinion to his girlfriend was wrong only because he 
used the FBI phones?
    Mr. Horowitz. I think it is very troubling because it 
undercut confidence in the investigation as we laid out here, 
and as I said, I can't say definitively that his actions didn't 
result in action. I can only speak to the ones we looked at and 
the ultimate----
    Mr. Nadler. So there's no evidence it did.
    Mr. Horowitz. There's no evidence as to those pre-July 5 
ones they did. I'm very concerned about what occurred in 
October. And I, you know, again, I go back to what I said 
earlier. I think frankly anybody should be concerned about any 
law enforcement officer expressing these kinds of views while 
they're investigating those very individuals. I don't care 
whether it's a presidential race or a local election. It just 
shouldn't happen.
    Mr. Nadler. Okay. Thank you very much. I yield back.
    Chairman Gowdy. The gentleman yields back.
    Two quick housekeeping matters. Inspector Horowitz, if you 
need to take a break for any reason or no reason, just let me 
know.
    To my colleagues, I am acutely aware that all four 
chairpersons went over the time limit. And I am acutely aware 
of how manifestly unfair it would be for me not to allow you to 
do the same. Nevertheless, I will not be able to allow everyone 
the same amount of time.
    Mr. Horowitz. Thank you.
    Chairman Gowdy. Because some people have July 4th plans.
    So I'm going to try to do a better job. What I've done in 
the past is if you ask a question after 5 minutes, I'll say 
``the witness may answer but no more questions.'' And I 
apologize. I appreciate your attendance, but I'm trying to get 
us out of here before Friday.
    With that, the gentleman from Ohio, Mr. Jordan, is 
recognized.
    Mr. Jordan. Mr. Horowitz, does Peter Strzok like the 
President?
    Mr. Horowitz. I can only speak to what his text messages 
say, and they're obviously not positive comments about the 
President.
    Mr. Jordan. February-March of 2016, Peter Strzok said 
Trump's abysmal, Trump's an idiot. He's a bleeping idiot. 
Hillary should win 100 million to 0. It sounds to me like he 
hates the President.
    Mr. Horowitz. His text messages would certainly leave that 
as the implication.
    Mr. Jordan. Your report says Strzok ran the Clinton 
investigation on a daily basis. Is that accurate?
    Mr. Horowitz. That's correct.
    Mr. Jordan. And Peter Strzok, in your report, he was the 
lead investigator on the Russian investigation. Is that true?
    Mr. Horowitz. That's my understanding for the time period 
he was on it.
    Mr. Jordan. So the guy, he ran the Clinton investigation, 
he runs the Russian investigation, he hates the President, but 
your report says ``while his bias cast a cloud, it didn't 
impact final decisions.'' Is that accurate?
    Mr. Horowitz. It didn't impact the prosecutors' final 
decision.
    Mr. Jordan. Right. Let's look at a few other things Peter 
Strzok had to say.
    On May 4, 2016, the day after President Trump secures the 
Republican nomination, Mr. Strzok says ``Now the pressure 
really starts to finish the Clinton investigation.''
    I'm not sure why the pressure would be more or less the day 
after. It seems to me you just want to do the investigation.
    On July 31st, as was mentioned earlier, the FBI opens the 
Russian investigation. One week later, Peter Strzok says ``I 
can protect my country on many levels.'' Two days after that, 
he says, We will stop Trump.'' One week after that, he says No 
way he gets elected. It's like an insurance policy.
    So think about this, Mr. Horowitz, Peter Strzok opened--the 
FBI opens the Russia investigation on July 31st, 2016. Peter 
Strzok is the lead investigator. Within the next 15 days, he 
says, ``I can protect my country on many levels.'' ``No way he 
gets elected. We will stop him. We have an insurance policy.''
    Now that seems like, at least, think a lot of regular folks 
would interpret that as more than just casting a cloud on what 
the FBI ultimately did. I mean, it is one thing to say Trump is 
an idiot. It is another thing to say, We've got an insurance 
policy.
    It is one thing to say, Trump's awful. It's another thing 
to say, We're going to stop him, especially when those 
statements are made within 15 days, just days after you've 
launched an investigation into that individual.
    Would you agree?
    Mr. Horowitz. And I think the important thing here is the 
time period we're talking about. Because those messages in the 
July-August period, which we found extremely concerning and 
antithetical to core values of the FBI, concerned, as we noted, 
the Russia investigation--and as you noted--and that's why we 
had so much concern about what occurred in late September and 
October.
    Mr. Jordan. Exactly. Mr. Horowitz, was Peter Strzok put on 
Special Counsel Mueller's team?
    Mr. Horowitz. He was.
    Mr. Jordan. So, again, the guy who hates the President, the 
guy who ran the Clinton investigation, the guy who ran the 
Russian investigation, then gets assigned to the special 
counsel team.
    Do you know what date, Mr. Horowitz, the special counsel 
was named?
    Mr. Horowitz. I believe it was around May 17th.
    Mr. Jordan. May 17, 2017. May 17, 2017.
    Mr. Horowitz, do you remember what Peter Strzok said on May 
18, 2017?
    Mr. Horowitz. I do. It's in our report on page 405.
    Mr. Jordan. I unleashed it on the Midyear Exam, this one?
    Mr. Horowitz. Yes.
    Mr. Jordan. And now I need to fix it and finish it. There's 
unfinished business, and this could be an investigation leading 
to impeachment. That's what he said the day after.
    Mr. Horowitz. Correct.
    Mr. Jordan. Again, don't you think that sounds and looks a 
little bit like, to regular Americans, a little bit more than 
just casting a cloud on the overall investigation?
    Mr. Horowitz. Again, I go back to what the report concerns, 
which was the Clinton email investigation, which was concluded 
about a year earlier with Director Comey's announcement. But it 
is precisely why we were concerned about what occurred in late 
September and October, when Mr. Strzok had the choice between 
working on the Russia investigation----
    Mr. Jordan. Right.
    Mr. Horowitz. --or on the Weiner laptop Clinton 
investigation.
    Mr. Jordan. He was prioritizing the one over here.
    Mr. Horowitz. Chose Russia.
    Mr. Jordan. Yeah. Let me just finish with this. And this is 
probably what bothers me more than all what we just went 
through. More than that, probably what bothers me the bother is 
Peter Strzok's attitude. I think it's what bothers Americans 
the most about this whole ordeal.
    I just want to go to one more text message that, one more 
thing Mr. Strzok said. This is back in that August time period 
again. August 26, 2016, Peter Strzok says, ``just went to a 
southern Virginia Walmart, I can smell the Trump supporters.'' 
This is what ticks Americans off more than anything else I'm 
convinced about. All this Clinton investigation, all this 
Russia investigation, is this idea that there are two sets of 
rules, or two standards. One set of rules for us regular folk 
who shop at Walmart, but a different set if your name is 
Clinton, Comey, Lynch, McCabe, or if your name is Peter Strzok.
    And the arrogance and the condescension and elitist 
attitude, that is what ticks people off. And as they look at 
all this and see what Strzok said throughout this 
investigation, that's why their confidence is shaken. And 
frankly, that's why they're so mad.
    And that's why we got to get some answer from Mr. 
Rosenstein and Mr. Wray about this whole ordeal.
    With that, I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman from Ohio yields back. The 
gentlelady from New York is recognized.
    Mrs. Maloney. Thank you, Mr. Chairman, and thank you, Mr. 
Horowitz for your service.
    Chairman Gowdy and others have mentioned the very troubling 
emails that were very critical of President Trump. So my 
question to you, none of these emails were made public during 
the election, correct? That's what I read. They were not made--
--
    Mr. Horowitz. No, they were not. The text messages were 
not----
    Mrs. Maloney. They were not made public during the 
election. And so therefore, it's fair to say that these emails 
did not influence the election, correct? They weren't made 
public, so they did not influence the election.
    Mr. Horowitz. Yeah, I don't think these text messages at 
all were out there during 2016.We uncovered them in 2017.
    Mrs. Maloney. Okay. Did they did not influence the 
election.
    Now the FBI conducted investigations related to both 
presidential candidates. But Director Comey publicly released 
information only about Secretary Clinton, while he kept secret 
information about the investigation related to the Trump 
campaign and the Russian Government, correct?
    Mr. Horowitz. He followed the rules on the Trump--the 
Russia matter. He followed the rules on the Clinton Foundation 
matter. He didn't follow the Department's practices on the----
    Mrs. Maloney. And that was very troubling to me that he did 
not follow the protocol.
    Mr. Horowitz. I just worry when people say ``kept secret,'' 
he actually followed the rules.
    Mrs. Maloney. Mr. Horowitz, in a Senate Judiciary hearing 
the other day, one of our colleagues from the other side of the 
aisle, he said that your report only confirms that Hillary 
Clinton got kid-gloved treatment from the FBI.
    I would say the opposite is true. And as my good friend Joe 
Biden would say, that that is total malarky.
    I think that your report makes clear that the reverse is 
true. And that there was a fact and element within the FBI that 
was biased against Secretary Clinton.
    For example, according to your executive summary, one of 
the reasons cited for Mr. Comey's extraordinary October 28th 
letter to Congress about the discovery of additional emails on 
a laptop was, quote, ``the fear that the information would leak 
if the FBI failed to disclose it.'' And that, to me, is very 
troubling.
    And then it went on to say that there were selective leaks 
throughout the investigation on Clinton, serious errors in 
judgment. I quote, ``serious errors in judgment'' in the 
unprecedented action by the Director of the FBI in the final 
weeks right up next to the election of 2016 presidential race 
in violation of protocol, as you've mentioned.
    And I would say that this all worked in one direction and 
to the detriment of candidate Clinton and to the benefit of 
candidate Trump. And I would say that it may well have 
determined the outcome of the 2016 election.
    So my question to you is, what are you doing to make sure 
that this doesn't happen again? That it does not become 
politicized, that it can't influence another election?
    Mr. Horowitz. That's a very important question, 
Congresswoman. And what we've done is we've made nine 
recommendations in this report. One of which is precisely to 
that issue. That the Department needs to consider putting in 
place some guidance and rules and policies, practices, to 
memorialize what it believes prosecutors and agents should be 
doing in the time period before the election.
    Mrs. Maloney. Well, I think that's very, very important to 
make sure that no future election is swayed and no collusion is 
overlooked because of politics, pure and simple. And the main 
question that remains, and that I'd like to see a report on was 
why was there a different standard on the Russian 
investigation, which followed protocol, but on the Clinton 
area, there were press conferences, there were testimony before 
Congress, there were statements about emails that he hadn't 
even read. Why was there such a difference in standards? And 
how can you enforce a standard?
    You have a standard. It wasn't enforced. It was violated. 
So how would you enforce the standard in the future?
    Mr. Horowitz. So, you know, as we describe in here, 
Director Comey explained what his rationale for treating the 
Clinton email, the Weiner laptop issue differently than the 
Russia investigation, the Clinton Foundation investigation, 
even the request of the Intelligence Committee put out a 
statement about it, which is described in here.
    Mrs. Maloney. Well----
    Mr. Horowitz. And I think what has to happen going forward, 
and one of the most concerning parts, many concerning parts of 
this is Director Comey, rather than speaking with the Attorney 
General about it or consulting directly with them, did what he 
did in terms of his guidance.
    I think the bottom line here is, the leadership of the 
Department needs to have rules in place, policies in place, 
norms in place, practices in place to consider this. And when 
an issue like this arises, they should be able to talk to one 
another.
    Mrs. Maloney. Well, he violated protocol with one 
candidate. And followed it with the other helping President 
Trump and hurting the candidacy of Secretary Clinton.
    Chairman Gowdy. The gentlelady's time is expired. The 
gentleman from California is recognized.
    Mr. Issa. Thank you, Mr. Chairman. And I would like to 
thank the gentlelady from New York for making the case for 
firing Comey. Making the case for why both Democrats and 
Republicans had very valid reasons that we wanted the President 
to let him go for his unprofessional and insubordinate 
activity. And yet, once the President did it, somehow he was 
wrong.
    In your report, Mr. Horowitz, you bring out the fact that 
the former Director was, in fact, at times, unprofessional, 
didn't follow rules, and even insubordinate, correct?
    Mr. Horowitz. That's correct.
    Mr. Issa. So we have a reason to fire somebody. The 
gentlelady from New York just made the case in resounding ways 
if what she believes to be true is true, that he should have 
been fired and fired immediately. And probably would have been 
fired by President Clinton had she become President.
    But I want to go on to two other points. And one of them 
is, the standard for bias. Now I'm a former--I guess I'm an 
employer now, but in the years that I was manufacturer and so 
on, you know, the definition for most of us for a bias if 
reviewing text or emails and anything close to what Strzok and 
Page were saying and others, occurred, and we were in an EEOC 
or some other kind of complaint, we would be held clearly for 
this to have met the requirement for any action whatsoever that 
was less than favorable for an employee, a termination, and so 
on. We would be held as having a bias.
    As a matter of fact, every member up here on the dais had 
to go through 90 minutes of training in which they gave us 
examples that for a fraction of what Page and Strzok had done, 
if there were any adverse action whatsoever, we would be held 
as biased.
    How is it you can say you found no evidence of bias? What 
makes the standard different for the Department of Justice?
    Mr. Horowitz. Well, let me be clear. We did not say that 
their words and texts and these messages were not indicative of 
bias. In fact, we were very concerned with them because that 
kind of bias and those kind of----
    Mr. Issa. So you found bias, but the actions----
    Mr. Horowitz. That's the question.
    Mr. Issa. --the famous insurance policy, the likelihood 
that they were in, quote, Andy's office and were plotting, 
conspiring, to figure out a way to either keep the President 
from winning or hurt him, that conspiracy, that evidence of 
that conspiracy is not enough to be an action?
    Isn't a conspiracy an action separate from what you might 
do? If you conspire to blow up the Oklahoma City Federal 
Building, you don't have to succeed for there to be a crime. 
Isn't that true?
    Mr. Horowitz. Yes. A conspiracy, you don't have to actually 
carry it out at all. And I agree with you the concern evident 
in those texts in August.
    Mr. Issa. So they had a bias, and they had a conspiracy to 
do something, we just don't know exactly what that is. Is that 
correct?
    Mr. Horowitz. Well, I'm going to put aside what they had a 
conspiracy to do. But I do think that what was reflected there 
in August translated directly for us into concerns about what 
occurred a month later in September.
    Mr. Issa. Okay. So I see it as there's a bias, a 
conspiracy, and they did do some things wrong, and that came 
out clearly in your report. Very clearly there was a reason to 
fire the former FBI Director Comey. And it was a bipartisan 
effort. I guess I would say that maybe Republicans would have 
objected if President Clinton had fired him, but that isn't the 
case.
    I want to ask, though, a question back to Mr. Comey. Last 
Thursday when you issued your report, basically 4 hours before 
that was issued his op-ed came out showing that he had clearly 
read the report. How did he get to see the report before it was 
public?
    Mr. Horowitz. So as with all of our reviews--first of all, 
he did not see the whole report--but as with all of our 
reviews----
    Mr. Issa. But he is a former member----
    Mr. Horowitz. Right.
    Mr. Issa. --a former person. Do all former employees get 
this?
    Mr. Horowitz. So the process is--and we did this from Fast 
and Furious on forward to ones that never make headlines--if 
individuals whose conduct we criticize in a report have 
testified to us and voluntarily agreed to speak to us--as you 
know this has been an issue that you've supported us on----
    Mr. Issa. Right.
    Mr. Horowitz. --getting testimonial subpoena authority, one 
of the--without that authority----
    Mr. Issa. We want you to have it for former employees.
    Mr. Horowitz. Right. Without that authority they have to 
come in voluntarily. And one of the things that we do is, if 
they come in voluntarily and speak to us, we allow them----
    Mr. Issa. Okay. So the quid pro quo is you let him see it. 
Did he sign a----
    Mr. Horowitz. Only those portions of the report that 
related to him.
    Mr. Issa. Did he sign a nondisclosure?
    Mr. Horowitz. He did.
    Mr. Issa. So when he published before it came out he 
effectively breached the nondisclosure, didn't he?
    Mr. Horowitz. I'd have to look at the timing----
    Chairman Gowdy. The gentleman's time has expired, but you 
may answer the question.
    Mr. Horowitz. I'd have to actually look at the exact timing 
on that, on when it came out on Thursday versus when our report 
came out. I, frankly, didn't focus on that question before.
    Mr. Issa. Well, he certainly disclosed it to the newspaper 
to get it published in that timing. He must have been 
disclosing it to newspaper personnel hours or days ahead of 
time. That would seem to be a violation of that nondisclosure.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentlelady from Texas is recognized.
    Ms. Jackson Lee. Mr. Horowitz, thank you for your service.
    Let me apologize. I'm going to be wanting yes/no answers. I 
think some of these you have already, but because of the nature 
of the time.
    Let me just repeat, your report does not vindicate the 
President or conclude that the Trump campaign did not conclude 
with the Russians. Is that accurate?
    Mr. Horowitz. Our report doesn't address the Russia 
investigation.
    Ms. Jackson Lee. And your report doesn't have anything to 
do with the numbers of individuals that were--the numbers of 
individuals that were connected to the Trump administration--
Trump campaign with Russia, you didn't deal with any of these, 
including the picture of Papadopoulos, who was indicted in the 
meeting in Trump Tower?
    Mr. Horowitz. Our review focused on the Midyear 
investigation.
    Ms. Jackson Lee. Thank you very much.
    Donald Trump is the first sitting President in history 
whose campaign chairman spent his time behind bars doing his 
own Presidential campaign, but none of these issues were 
investigated by your investigation. Is that correct?
    Mr. Horowitz. Our review concerned the Clinton email 
investigation.
    Ms. Jackson Lee. And then let me quickly. Your report does 
not--excuse me, I am interested to know about chapter 7, pages 
260-262. You cite all the reasons for concluding that Secretary 
Clinton did not break the law or have any basis to conclude 
that she broke the law for her use of a private server. Is that 
accurate still?
    Mr. Horowitz. That are the prosecutor's reasons as given to 
us and explained to us and it is our analysis----
    Ms. Jackson Lee. And you didn't counter that in your 
report?
    Mr. Horowitz. Correct.
    Ms. Jackson Lee. Did you say that it was grounded in the 
law, facts, and applicable DOJ precedent?
    Mr. Horowitz. Based on the evidence we had reviewed, that 
is what we found with regard to the prosecutor's decision.
    Ms. Jackson Lee. And her campaign was not subject of a 
Federal counterintelligence investigation by the Nation's law 
enforcement to your knowledge or at least you didn't 
investigate that?
    Mr. Horowitz. There was a review on that issue, and I could 
talk a little bit more about it. I'd need to tease that out 
just a little, Congresswoman.
    Ms. Jackson Lee. But it did not impact the original or the 
basis of your report?
    Mr. Horowitz. The finding was that there was no intrusion.
    Ms. Jackson Lee. In light of what you saw, would you think 
it was reasonable for Americans to conclude that Secretary 
Clinton was a victim of a double standard in light of the 
information that the FBI had about the Trump administration--
or, excuse me, campaign--and its opening of the investigation 
that was not leaked?
    Mr. Horowitz. I'm going to focus on what our conclusion was 
as opposed to the public's. Our conclusion was the standard 
that should have applied was the same one that the Director 
applied to the Russia investigation and the Clinton Foundation 
investigation.
    Ms. Jackson Lee. And it was not the same standard?
    Mr. Horowitz. It was not the same standard.
    Ms. Jackson Lee. I want to show these documents which show 
the leaks from the Southern District and others from the FBI. 
Do you find that troubling, that leaks in your report went out?
    Mr. Horowitz. Just to be clear, we do not say where those 
are from. We simply put in there the individual's titles. But 
we're very concerned, as we explained in here, we're asked to 
look at leaks all the time in this matter, other matters. And 
if there are, as you know, multiple people who have had 
disclosures or contacts it makes it very hard to figure out who 
did it.
    Ms. Jackson Lee. Do you think they were biased toward Mrs. 
Clinton?
    Mr. Horowitz. I have no idea one way or the other.
    Ms. Jackson Lee. Let me move to the Strzok-Page questioning 
that I have.
    On November 2016, the day after the Presidential election, 
Lisa Page sent a quote to Peter Strzok: Are you going to give 
out your calendars? Seems kind of depressing. Maybe it should 
be just the first meeting of the secret society.
    Mr. Horowitz, are you familiar with that text?
    Mr. Horowitz. I am.
    Ms. Jackson Lee. On January 24, 2018, Ron Johnson went to 
FOX News and indicated, shouting: It is further evidence of 
corruption, more bias, corruption of the highest levels, the 
secret society. We have an informant that was talking about a 
group holding secret meetings off-site. There's so much smoke 
and there's so much suspicion.
    Mr. Horowitz, did your report find any evidence of a secret 
society at the FBI?
    Mr. Horowitz. We did not find any.
    Ms. Jackson Lee. Did your report find any evidence that 
there was a group at the FBI holding secret meetings off-site?
    Mr. Horowitz. I'm not sure we looked for that, but 
certainly as part of the Midyear investigation we didn't see--
--
    Ms. Jackson Lee. In fact, Page explained that the calendars 
referenced in this text message was funny and snarky calendars 
of Russian President Vladimir Putin in different poses, such as 
holding up a kitten.
    Mr. Horowitz, Page and Strzok both told your investigator 
that secret society was used as a joke. Is that correct?
    Mr. Horowitz. That's what they told us.
    Ms. Jackson Lee. On August 15, 2016, Strzok had sent Page a 
text that stated, quote: I want to believe the path you threw 
out for consideration in Andy's office, and there's no way he 
gets elected, but I'm afraid we can't take that risk. It's like 
an insurance policy in the unlikely event you die before you're 
40.
    Mr. Horowitz, in your report Strzok explains a reference in 
his text to an insurance policy, quote, reflected his 
conclusion that the FBI should investigate the allegations 
thoroughly right away as if Trump was going to win. Is that 
correct?
    Mr. Horowitz. That was his explanation.
    Ms. Jackson Lee. Did your report reach any conclusions that 
would contradict Mr. Strzok's explanation?
    Mr. Horowitz. I think it's fair to say we had concerns 
about what his intentions were there.
    Ms. Jackson Lee. Did any of what you came across suggest 
that they had a plan to undermine the election of Donald Trump?
    Mr. Horowitz. We did not. We did not investigate, as we 
said here, the Russia matter. We have ongoing work in that 
regard. So----
    Ms. Jackson Lee. And was there--in your opening statement I 
think you said the Director, Director Comey, clearly departed 
from the norms and undermined the perception of fairness of the 
FBI. Those are my paraphrasing words. Is that in relation to 
his handling of former Secretary Clinton's emails, which you 
found that she did not break the law based upon their report?
    Chairman Gowdy. The gentlelady's time has expired, but you 
may answer the question.
    Mr. Horowitz. Yes, Comey violated the norms, as you said. 
We didn't find that she didn't break the law. We found what the 
prosecutor's assessment was of it and determined that it was 
based on the facts and the law.
    Ms. Jackson Lee. And that was that she did not break the 
law?
    Mr. Horowitz. That was their conclusion, correct.
    Ms. Jackson Lee. Thank you. I yield back, Mr. Chairman.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Ohio is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Chairman, having spent the last 2 years down in the Old 
Executive Office Building, along with our colleague Mr. Issa, I 
didn't get an opportunity to hear all the other questions and 
the answers to those questions. So rather than repeat what a 
lot of others may have said, I would like to yield to my 
colleague from Ohio, Mr. Jordan, my time.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Horowitz, how many text messages were exchanged between 
Peter Strzok and Lisa Page?
    Mr. Horowitz. I don't have an exact number, but tens of 
thousands.
    Mr. Jordan. Tens of thousands. And we got to see most of 
these last fall and over the last several months. But there was 
one we didn't get to see, one text message we didn't get to see 
until last week when your report came out.
    Mr. Horowitz. Yes.
    Mr. Jordan. And it just happened to be the most explosive 
one, the one that says: We'll stop Trump. How come we didn't 
see that beforehand?
    Mr. Horowitz. Let me explain how we ended up finding that, 
because I think it's important to also appreciate----
    Mr. Jordan. I guess I'm more interested in if someone was 
trying to hide it.
    Mr. Horowitz. Well, we uncovered it in May, so last month. 
We uncovered it in our fourth round of work on their personal--
on their FBI devices.
    Mr. Jordan. That's my question. If you uncovered it a month 
ago, why did we not see it until last Thursday?
    Mr. Horowitz. I can't answer that question. We provided the 
materials to the Department----
    Mr. Jordan. But who made the decision? Was it Mr. Wray? Was 
it Mr. Rosenstein? Was it Mr. Sessions? Who made the decision?
    Mr. Horowitz. What we have done, as we have found these 
texts, is send them to the Department and for them to produce 
it to Congress, and that's what we did in May.
    Mr. Jordan. And who at the Department, though?
    Mr. Horowitz. We sent it to the Office of Deputy Attorney 
General and----
    Mr. Jordan. So Mr. Rosenstein?
    Mr. Horowitz. In his office.
    Mr. Jordan. Mr. Rosenstein made a decision that instead of 
us seeing the most explosive text message between these two key 
agents who were on the Clinton team, the Russia team, and on 
the special counsel team, he made a decision to wait a month 
for us to see that text message.
    Mr. Horowitz. I can't speak to whether anyone made a 
conscious decision. I would just say we--there was in that 
fourth recovery that we made in May there was 100,000-plus 
lines of texts to go through. Most all of them we'd found 
before. This one was one we hadn't. We didn't see it or pick it 
up until June.
    Mr. Jordan. And did you not see it or was it hidden from 
you? Because we have the text message right before it and the 
one that happened right after it, but somehow that one, the 
most explosive one, was missing from the pages that we got 
months ago.
    Mr. Horowitz. And I can explain how we ended up finding it, 
because it was missing from--we did not have it either. We 
recovered it.
    Mr. Jordan. So the Department didn't give it to you either?
    Mr. Horowitz. I don't think the Department had it, and I 
can explain why I don't think they had it.
    Mr. Jordan. Okay.
    Mr. Horowitz. These text messages were retained by the FBI 
pursuant to a data collection where they were pulling text 
messages--I'm not a tech person, I'll do my best here--they 
were pulling them off the FBI devices. They each had their own 
FBI phones. They were pulling them.
    As we got these texts and found these concerning messages 
in 2017, we then asked the FBI for all their text messages. 
When we got all their text messages, as you know, we found a 
window, a period of several months where there was zero.
    Mr. Jordan. Right.
    Mr. Horowitz. We then went and got their phones and said: 
Okay, if the FBI isn't collecting them, we're going to try and 
extract them from the phones.
    We did a first run-through using our cyber forensics 
capabilities, collected material. We went to our outside vendor 
that we use to see what else that contractor had. We did 
another go-round with some additional tools, found more.
    We then went to the Defense Department.
    Mr. Jordan. Okay.
    Mr. Horowitz. Did the same thing.
    Mr. Jordan. Yeah, I'm thankful that Mr. Chabot yielded me 
time, but I got the gist of it. You jumped through all kinds of 
hoops to retrieve it.
    Mr. Horowitz. Correct.
    Mr. Jordan. The point is when you did get it Mr. Rosenstein 
decided we couldn't get it until your report came out. He sat 
on it for a month of time.
    Mr. Horowitz. I can't speak to how they----
    Mr. Jordan. Well, it's not the first time Mr. Rosenstein 
has kept us from getting information. I mean, he's hid 
information from us. He redacted all kinds of important 
conversations between Strzok and Page. He redacted that from 
us. We had to go over to the Justice Department and find it. So 
this wouldn't be the first time he hasn't given us information, 
frankly, I think we're entitled to.
    I want to--well, I got 30 seconds. I don't have time to get 
into another subject area here.
    Mr. Horowitz, I appreciate that, but I do think it is 
interesting that you had it, you discovered it, and we couldn't 
get it right away. Like all the other text messages, we had to 
wait until the final report.
    With that, I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentlelady from the District of Columbia is recognized.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Horowitz, if there's a bottom line to your report it 
appears to be that while there were mistakes made, the mistakes 
that have been discussed, that the Clinton email--that the 
investigation itself was not politically motivated. Is that a 
fair rendition?
    Mr. Horowitz. I think what I would say about the final 
decision by the prosecutors is that we found their decision was 
not based on political bias but on their assessment of the 
facts, the law, and the precedent.
    Ms. Norton. Now, that, of course, in spite of what has been 
made at this hearing by some of my colleagues about Mr. 
Strzok's testimony, you know. If one hears that testimony, it 
could sound like a textbook example of bias.
    So could you explain why, notwithstanding the renditions we 
have heard of his virtual on-the-record, because it has been 
quoted, bias, nevertheless the investigation itself was not 
biased given the leading role he played in the investigation?
    Mr. Horowitz. What we found was with regard to the specific 
decisions we looked at pre-July 5 that there were other team 
members involved in some of those. He and Ms. Page took a more 
aggressive view than the prosecutors. In some of those 
instances or many of those instances actually it was the 
prosecutors who were making the decision, not the agents.
    And so when we looked at the notes, the emails, the other 
evidence we could find, and the testimony we got, we concluded 
that there wasn't evidence of bias in how those decisions were 
actually made or carried out, the specific ones we looked at.
    Ms. Norton. Notwithstanding Strzok's involvement, there 
were a sufficient number of other investigators so that the 
bottom line here of no political motivation stands as far as 
you're concerned?
    Mr. Horowitz. As to the specific decisions we looked at, 
correct, and as to the prosecutorial decision for the reasons I 
indicated.
    Ms. Norton. Now, there's a lot of concern about Mr. Comey's 
speaking out. He used words like ``extremely careless.'' And he 
has been criticized for, after the case was closed, speaking 
out again.
    Yet your report said, and here I'm quoting, sir: ``The 
problem originated with Comey's elevation of 'maximal 
transparency.'"
    I tell you, sir, if someone said, ``Eleanor,'' to me, 
``you're being maximally transparent,'' especially as a Member 
of Congress, I would take that as a compliment. So I need to 
understand your use of that word, rather than perhaps a more 
critical use of language.
    Mr. Horowitz. Right. Well, that was Mr. Comey's explanation 
to us as to why he did it. I will say as inspectors general, as 
you know, we stand for----
    Ms. Norton. No, I was quoting the OIG report----
    Mr. Horowitz. Right.
    Ms. Norton. --found the problem originated with Comey's 
elevation of maximal transparency as overriding this case. That 
is to say overriding the principle that you've got to stay 
silent----
    Mr. Horowitz. Correct.
    Mr. Norton. --if you are the FBI.
    Mr. Horowitz. Correct.
    Look, I'm--we are as IGs for government transparency in all 
ways possible. But there are places where there are other 
rules, like classified material, like ongoing criminal 
investigations, for the reason we said: Individuals' reputation 
should not be tarnished if they're not going to be charged with 
a crime. And that's a rule----
    Ms. Norton. So he went beyond--his transparency is not what 
you're recommending----
    Mr. Horowitz. Correct.
    Ms. Norton. --for Members of Congress.
    Mr. Horowitz. Correct.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Iowa is recognized.
    Mr. King. Thank you, Mr. Chairman.
    Thanks for your testimony, Mr. Horowitz. It has been a busy 
week for you this week.
    First, I'd like to turn to the question of how many emails 
were exchanged on the unsecured server between Hillary Rodham 
Clinton and President Barack Obama.
    Mr. Horowitz. I don't know the exact number. We can go back 
and look. We understood he was 1 of 13 individuals in that.
    Mr. King. Do you have any sense of the volume that was 
exchanged between the Secretary of State and the President?
    Mr. Horowitz. I can get back to you on that. I'd have to 
refresh my recollection on that one.
    Mr. King. At this point you don't have a sense of that 
volume?
    Mr. Horowitz. I just don't.
    Mr. King. And then do you have the information or a sense 
of were those emails secret, top secret, classified?
    Mr. Horowitz. My recollection is, as I sit here, that they 
were not among the classified material, but I'm not certain of 
that. So I'd need to go back and double check that.
    Mr. King. And I want to ask you formally that you produce 
those records for us.
    Mr. Horowitz. I will do that.
    Mr. King. I think it is essential that this committee 
understand those facts surrounding that. And I'll get to that 
hopefully in a moment.
    Could you point out to us your first encounter with the 
replacement of the words from the statute in 793, ``gross 
negligence,'' with the words ``extreme carelessness,'' the 
first encounter with that switch?
    Mr. Horowitz. That was back in May as this--as the drafts 
were--the Comey statement as the drafts were evolving into 
June.
    Mr. King. And were the fingerprints of Peter Strzok on that 
exchange?
    Mr. Horowitz. Yes.
    Mr. King. Anyone else's fingerprints on that exchange?
    Mr. Horowitz. I believe Ms. Page, as well.
    Mr. King. And what about James Comey, had he----
    Mr. Horowitz. He was very much in the middle of the 
drafting that was going on.
    Mr. King. The three of them were in communication and 
drafting that. So it would be hard to identify exactly who 
inserted it the first time. Is that a fair analysis?
    Mr. Horowitz. I think we actually do have some idea of how 
it got changed and who put it in, but not necessarily because 
it was their decision as opposed to who was the sort of scribe 
on it as opposed to the decision-maker.
    Mr. King. I would like a little bit more information on 
that, too, if you could, Mr. Horowitz.
    Mr. Horowitz. We can do that, yes.
    Mr. King. So while we're searching back for the genesis of 
``extreme carelessness'' as a replacement for the statutory 
language of ``gross negligence,'' could you inform the 
committee here as to the genesis of the word ``intent'' as it 
found its way into this dialogue?
    Mr. Horowitz. So it looks like in a variety of discussions 
with the team and the prosecutors, the investigative team from 
the FBI and the prosecutors, that the focus was on in a 
significant way--there were other factors as well here--but in 
a significant way the focus was on the fact that the classified 
material that was transiting through the email server was not 
clearly marked as you're supposed to have it marked, with 
banners saying it is classified and what level it is classified 
at.
    Mr. King. To more clarify my question, actually the 
insertion of the word ``intent'' as a condition to a violation 
of 793, when did that word first find itself in the dialogue 
that you looked at?
    Mr. Horowitz. That is in the dialogue months earlier, well 
before the investigation reached its conclusion.
    Mr. King. About when would you guess that is the months 
earlier?
    Mr. Horowitz. I'd have to----
    Mr. King. In 2016?
    Mr. Horowitz. It's in 2016.
    Mr. King. Not in 2015?
    Mr. Horowitz. I'm not sure whether it went back that far, 
although, frankly, it could have, because there's some 
indication that early on people thought that it was unlikely to 
be the case.
    Mr. King. Mr. Horowitz, let me assert that the evidence I'm 
looking at suggests that President Barack Obama spoke that word 
into law and that a taped program October 10 of 2015 he said 
Hillary Clinton was careless but not intentional. That program 
was aired on October 11, CBS ``60 Minutes.'' And I have the 
article printed in The New York Times, that's dated the 16th of 
October, the article that references the October 11, where it 
says in this article, quote: ``Mr. Obama said he had no 
impression that Mrs. Clinton had purposely tried 'to hide 
something or to squirrel away information,' close quote. 
Continuing: ``In doing so, Mr. Obama spoke directly to a core 
component of the law used against Mr. Petraeus, intent, and 
said he did not think it applied in Mrs. Clinton's case.''
    So I'm going to suggest that the President suggested that 
language through the open medium and spoke the word into the 
law, that it would require intent, which shows up throughout in 
the following months, in particular in James Comey's July 5, 
2016, exoneration--well, let's say summary of the prosecution/
exoneration statement, six times that word ``intent,'' and I 
find it no place else.
    Would you have any comments on your thoughts of how that 
might have been--the genesis might have gone back to the 
President of the United States on that idea?
    Mr. Horowitz. I don't know that that was necessarily the 
genesis. We don't have evidence of that. But we do have in 
here, as you noted, references to the statements made by 
President Obama and by his press secretary and the concerns 
that those raised and the issues that--and how it was viewed 
and perceived by the team, by the investigative team.
    Mr. King. My time has expired. Thank you, Mr. Horowitz.
    I yield back the balance.
    Chairman Gowdy. The gentleman from Iowa yields back.
    The gentlelady from California, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Horowitz, thank you for this report. It lays out in 
clear and unequivocal terms a conclusion that Republicans have 
resisted for years: The investigation into Secretary Clinton's 
emails and the decision to decline prosecution were both done 
properly, without bias.
    In this report you concluded, quote: ``We did not find 
documentary or testimonial evidence that improper 
considerations, including political bias, directly affected the 
specific investigative decisions...or that the justification 
offered for these decisions were pretextual.''
    Is that right?
    Mr. Horowitz. That's correct.
    Ms. Bass. Republican Members have repeatedly declared that 
the investigation was illegitimate and have questioned many 
aspects of that investigation, from the Justice Department's 
use of immunity agreements to the timing of James Comey 
drafting process.
    Did you investigate these allegations?
    Mr. Horowitz. The questions of--I'm sorry, could you say 
that again?
    Ms. Bass. Republican Members repeatedly declared that the 
investigation was illegitimate and questioned many aspects of 
the investigation, from the Justice Department's use of 
immunity agreements to the timing of James Comey drafting 
process.
    Did you investigate these allegations?
    Mr. Horowitz. Yes.
    Ms. Bass. In response to your report Chairman Gowdy wrote, 
quote: ``This report confirms investigative decisions made by 
the FBI during this investigation were unprecedented and 
deviated from traditional investigative procedures in favor of 
a much more permissive and voluntary approach.''
    Chairman Goodlatte similarly wrote, quote: ``The Justice 
Department and FBI didn't treat her like any other criminal 
suspect and didn't follow standard investigative procedures.''
    This doesn't seem to reflect your report's findings to me. 
In fact, your report explicitly states, and I quote: ``Contrary 
to public perception, the Midyear team used compulsory process 
in the Midyear investigation.''
    Your report also stated, quote: ``We found that these 
specific decisions were the result of discretionary judgments 
made during the course of an investigation by the Midyear 
agents and prosecutors and that these judgment calls were not 
unreasonable.''
    Is that right?
    Mr. Horowitz. That's correct.
    Ms. Bass. The report also concluded, quote: ``We found no 
evidence that the conclusions by the [Department] Prosecutors 
were affected by bias or other improper considerations; rather, 
we determined that they were based on the prosecutors' 
assessment of the facts, the law, and past Department 
practice.''
    Is that correct?
    Mr. Horowitz. As to the prosecutorial decision, yes, that's 
correct.
    Ms. Bass. Mr. Horowitz, I appreciate you being here today. 
I do want to ask you a couple of other questions.
    On June 29 Democrats on this committee and the House 
Judiciary Committee sent you a letter raising concerns that 
Attorney General Sessions may have violated his recusal when he 
participated directly and personally in President Trump's 
decision to fire FBI Director James Comey.
    You testified last November that you had not made a 
decision, but that you were holding off while special 
prosecutor Mueller has an ongoing investigation, but you also 
said you would revisit your decision if new information came to 
light.
    Is this an accurate description?
    Mr. Horowitz. Yes.
    Ms. Bass. It now appears that Attorney General's violation 
of his recusal impacts issues well beyond the scope of the 
special counsel's probe.
    On November 13, the Department of Justice sent a letter 
stating that the Attorney General has been directly involved in 
decisions regarding the appointment of a special counselor to 
investigate, and I quote, ``the sale of Uranium One, alleged 
unlawful dealings related to the Clinton Foundation, and other 
matters.''
    This letter says that the Attorney General, and I quote, 
``directed senior Federal prosecutors to evaluate whether a 
special counsel should be appointed and told those prosecutors 
to report their findings,'' quote, ``directly to the Attorney 
General and deputy attorney general.''
    Representative Raskin asked you about that letter and you 
said you would receive and review this additional information.
    On November 30 Ranking Member Cummings followed up and sent 
you a letter providing this additional information and again 
requesting you to conduct this review.
    On December 12 you responded with a letter that said, and I 
quote: ``Your letter asked the OIG to conducted an 
investigation separate from that of the special counsel.''
    Do you have any update to provide at this time?
    Mr. Horowitz. I don't, and I stand by what I said earlier. 
I think it's important for us as an OIG to consider what other 
investigative activity is ongoing out there and consider that--
keep that in mind as we're deciding when would be an 
appropriate time to make a determination whether to go forward 
with a review.
    Ms. Bass. The report your office issued last week that is 
the subject of today's hearing discusses text messages sent by 
FBI employees who previously were working on the special 
counsel's investigation.
    Can you explain why in that instance you were willing to 
conduct a review related to the special counsel's investigation 
but you will not review the Attorney General's potentially 
ongoing violations of his recusal agreement?
    Mr. Horowitz. Certainly.
    So when we undertook this review and started finding the 
problematic text messages back in 2017 and ultimately gathered 
the evidence we gathered in July of 2017, and then met with the 
Deputy Attorney General and the special counsel to inform them 
of what we had found, because at the time Mr. Strzok was 
working for the special counsel, I also discussed the matter 
with the special counsel about what we believed was our need to 
collect all of the text messages from those individuals even 
beyond the Clinton email investigation so that we could make an 
assessment of how their views and their conduct impacted the 
Clinton email investigation.
    Ms. Bass. Okay. Thank you.
    I believe that you could review today whether the Attorney 
General is violating his recusal when he participates in 
matters that are unrelated to the special counsel's 
investigation.
    I yield back my time.
    Chairman Gowdy. The gentlelady from California yields back.
    The gentleman from Michigan is recognized.
    Mr. Amash. Thank you, Mr. Chairman. I yield to my friend, 
the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Horowitz, I want to go back to where we were just a few 
minutes ago. This text message, this mysterious one, that was 
the most explosive one disappeared, refound, but the Department 
sits on it for a month.
    Can we get a copy of the correspondence that you had with 
Mr. Rosenstein? Was there any type of--how did you communicate 
to the Justice Department that you had found this text message?
    Mr. Horowitz. My agent sent it by email.
    Mr. Jordan. So you sent an email. Did you get----
    Mr. Horowitz. This printout, the spreadsheets, you know, of 
all the texts. We had 120,000 or so, 100,000 lines of texts.
    Mr. Jordan. So you didn't specify we found this one that 
had been missing?
    Mr. Horowitz. I then--when we found it I specified to the 
associate deputy attorney general on June 8 that he ought to 
look at this one.
    Mr. Jordan. Oh, so you sent it to him last month, but then 
you specifically pointed it out to him last week or 2 weeks 
ago?
    Mr. Horowitz. Correct. When we identified it and saw it as 
we were going through these hundred thousand pages.
    Mr. Jordan. What response did he give you when you pointed 
it out, the most explosive text message?
    Mr. Horowitz. Thank you for telling me about it.
    Mr. Jordan. Thank you for telling me about it. Well, yeah, 
I think so. But not like, well, we need to get this to Congress 
like we did all the others right away?
    Mr. Horowitz. I didn't engage him on that.
    Mr. Jordan. Do you know if there's anything nefarious at 
work? Because when we got the original pages of the text it had 
the prompting question from Ms. Page that says: He is not ever 
going to become President, right? We had that one.
    Mr. Horowitz. As did we.
    Mr. Jordan. We have had it for months, as did you. So why 
didn't we get the response? All the other times we get the back 
and forth, this time we didn't.
    Mr. Horowitz. I think actually it goes to the technical--
technological issue that we think needs to get addressed and 
fixed, frankly. Because what happened here is on the fourth go-
round, when we were doing our quality control check on what we 
had done, we found an operating system program in the phone 
that was----
    Mr. Jordan. So you think it was technical, you think it was 
a technical problem?
    Mr. Horowitz. To us that's what it appears as to why this 
wasn't found before May.
    Mr. Jordan. I'm more concerned about why Mr. Rosenstein 
didn't give us the information when he first got it. It seems 
to me he should have.
    Let me go to something else here. How many different 
investigations do you have going on right now? Are you looking 
at--you're looking at Mr. Comey, you're looking at FISA, 
potential abuse of the FISA court process. And are you looking 
at the leak issue with the FBI? Are you looking at--you got 
three other ones going on?
    Mr. Horowitz. We've got lots of investigations going on.
    Mr. Jordan. Well, I know, but with all this stuff, I know 
you've got lots.
    Mr. Horowitz. Yes, we're looking at the leak issue, as 
well. That's ongoing.
    Mr. Jordan. So all three of those----
    Mr. Horowitz. Remain ongoing.
    Mr. Jordan. --within ongoing investigations, right?
    Mr. Horowitz. Yes.
    Mr. Jordan. Do you have any idea when--I'm particularly--
well, I'm interested in all of them, but I'm particularly 
interested in the FISA--potential abuse of the FISA process. Do 
you have any idea when that one will be complete?
    Mr. Horowitz. I don't, Congressman. In part, as you know, a 
few weeks ago we were asked to broaden that and look at some 
additional information and issues.
    Mr. Jordan. Do you anticipate it taking 18 months like this 
Clinton investigation one did, Mr. Horowitz?
    Mr. Horowitz. I don't anticipate it, but let me just say, 
if we had released this report in January you would not have 
most of these text messages.
    Mr. Jordan. No. I understand. I mean, you got to do your 
work.
    Mr. Horowitz. So I can't--I didn't expect that.
    Mr. Jordan. As important as it is, when you look at looking 
at the FISA, potential abuse of the FISA process, will you be 
looking at the question of whether Mr. Rosenstein threatened 
staff members on the House Intelligence Committee?
    Mr. Horowitz. I've read about that recently, and I'm 
certainly, as in all instances, available to take information. 
I only know at this point what I've read from the newspaper.
    Mr. Jordan. Would that be within the parameters of your 
investigation, that question?
    Mr. Horowitz. Frankly, I would have to understand a little 
bit more about it and what occurred and how it might connect to 
this, if at all, or whether it's something separate.
    Mr. Jordan. Will you look at the issue of why when the 
dossier was taken to the FISA court they didn't tell the court 
who paid for the document? Will you look at that question?
    Mr. Horowitz. Certainly within the FISA review----
    Ms. Jackson Lee. Parliamentary inquiry, Mr. Chairman, 
parliamentary inquiry.
    Mr. Jordan. Mr. Horowitz, when you--when you----
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Jordan. In the course of your investigation will you 
look at the question of why when the application was taken to 
the FISA court they didn't reveal the fact that the author of 
the document, the author of the dossier----
    Ms. Jackson Lee. Mr. Chairman, I have a parliamentary 
inquiry.
    Chairman Gowdy. The gentleman from Ohio controls the time.
    Ms. Jackson Lee. Is it not appropriate to raise the 
question as to what is the germaneness of the gentleman's line 
of questioning and whether or not we are dealing with the 
report of Mr. Horowitz or are we dealing with the Republicans' 
attempt to undermine the Mueller investigation and as well to 
fire deputy secretary--excuse me, Attorney General Rosenstein, 
which they're planning to do on Friday.
    Chairman Gowdy. The gentlelady has not stated her 
parliamentary inquiry.
    Ms. Jackson Lee. This is not the agenda.
    Chairman Gowdy. The gentleman from Ohio controls the time, 
and I would ask that the time be put back on the clock that was 
usurped by the gentlelady from Texas.
    Mr. Jordan. I would just respond, Mr. Chairman, it's been 
widely understood that when the dossier was taken to the FISA 
court to get a secret warrant to spy on a fellow American 
citizen they didn't tell the court two important facts. They 
didn't tell the court who paid for the document, they didn't 
tell the court the guy who wrote it had been fired by the FBI. 
And I'm just asking as Mr. Horowitz undergoes this important 
investigation if he will be examining those two fundamental 
questions.
    Mr. Horowitz. We will take under advisement those and other 
questions that have been raised. And as we said with this 
review, if we find additional issues we will look at those, as 
well, and partly that's why----
    Mr. Jordan. One last question, if I could, Mr. Horowitz.
    May 17, 2017, Rod Rosenstein writes a memo outlining the 
scope and parameters of the special counsel investigation. On 
August 2, 2017, he writes another memo that in some way alters, 
amends, modifies the initial scope of the investigation. And 
yet we can't see that, the American people can't see that.
    Seems to me if you're altering the scope of an 
investigation into the guy that the American people made 
President of the United States, we as Americans deserve to know 
exactly the parameters and scope of that investigation.
    So will you be able to get ahold of that August 2 memo and 
make that available in the course of your investigation?
    Chairman Gowdy. The gentleman's time has expired, but you 
may answer the question.
    Mr. Horowitz. I'd have to think about how that connected to 
our investigation and what connectivity, germaneness it would 
have to ours. I'm happy to consider it. I have not seen either 
of those memos myself. And like I said, on its face I'm not 
sure the connection between that and the FISA. But I will 
certainly take it under advisement, Congressman.
    Mr. Jordan. I thank the gentleman.
    Chairman Gowdy. The gentleman yields back.
    For planning purposes, we will plan to break at 1 o'clock, 
if that's okay with the Inspector General.
    Mr. Horowitz. Fine with me.
    Chairman Gowdy. With that, the gentleman from Missouri, Mr. 
Clay, is recognized.
    Mr. Clay. Thank you, Mr. Chairman.
    And here is where I see where we are. A Presidential 
candidate was targeted by Russia, Russian intelligence. Members 
of Congress, including myself, were targeted, as well. And at 
least 21 States had their voter information penetrated by 
Russian intelligence.
    That information obtained by the Russians was weaponized 
with the clear intention to harm Hillary Clinton and support 
the election of Donald Trump. Time will tell, when Special 
Counsel Mueller issues his report, whether or not the 
President's campaign actively colluded with the Russians.
    Now, Mr. Horowitz, thank you for being here.
    On February the 2nd, 2018, the President tweeted, and I 
quote: ``The top leadership and investigators of the FBI and 
the Justice Department have politicized a sacred investigative 
process in favor of Democrats and against Republicans, 
something which would have been unthinkable just a short time 
ago,'' end of quote.
    This is an accusation that has been repeated by multiple 
Republican Members, including Representative Jim Jordan, who 
stated in an interview about your report, and I quote: ``I 
think one of the big takeaways is the exact same people who ran 
the Clinton investigation, who had a bias in favor of Clinton, 
who did all of these things that are not the typical practice 
when you're doing an investigation, those same people took over 
and ran the Russian investigation.''
    You know, these are serious allegations, and I would like 
to address them head on.
    Mr. Horowitz, did you find any evidence that James Comey 
took any investigative actions in the Clinton matter based on 
political bias and, quote, in favor of Democrats and against 
Republicans?
    Mr. Horowitz. We did not find evidence that Mr. Comey had 
acted out of political bias.
    Mr. Clay. And your investigation undiscovered five FBI 
employees who had exchanged texts or instant messages 
reflecting strong personal political views, but you found that 
even those individuals did not let their personal political 
views determine the outcomes of the Clinton matter.
    Your report states, and I quote: ``Our review did not find 
documentary or testimonial evidence directly connecting the 
political views these employees expressed in their text message 
and instant messages to the specific investigative decisions we 
reviewed.''
    And you also quote: In some instances Strzok and Page 
advocated for more aggressive investigative measures in the 
Midyear investigation, such as the use of grand jury subpoenas 
and search warrants.
    Did you find that there is a pro-Democrat or anti-
Republican conspiracy at the FBI or Justice Department?
    Mr. Horowitz. We didn't reach the question of whether there 
was a conspiracy or not. We've just laid out here what the text 
messages indicated and, as you noted, the fact that the 
specific decisions we reviewed we found weren't impacted or 
affected or resulted from political bias.
    Mr. Clay. I see. Do you know if the Office of Professional 
Responsibility is taking any actions on the subjects that you 
have, on the people----
    Mr. Horowitz. Director Wray testified yesterday that he had 
referred--provided our information and report to the FBI's 
Office of Professional Responsibility.
    Mr. Clay. I see. Thank you so much for your responses.
    And at this time, Mr. Chairman, I'm going to yield my 
remaining time to the gentlewoman from Texas.
    Chairman Gowdy. The gentlelady is recognized for 33 
seconds.
    Ms. Jackson Lee. Mr. Director--excuse me, Mr. Horowitz--did 
you investigate any questions about Mr. Rosenstein's actions in 
your report as relates to any inappropriate behavior?
    Mr. Horowitz. No.
    Ms. Jackson Lee. I didn't hear you, sir.
    Mr. Horowitz. No.
    Ms. Jackson Lee. And did you--let us finish the question 
that I had dealing with the FBI agents in the Southern District 
of New York. You did confirm that they leaked. Is that not 
correct?
    Mr. Horowitz. We did not say anything at all about whether 
they leaked or didn't leak. We're not speaking, or speak at 
all, to who we are looking at or what we're looking at, other 
than we're looking at the issues we were asked to look at about 
investigative leaks.
    Ms. Jackson Lee. And so you will continue that 
investigation?
    Mr. Horowitz. We will.
    Ms. Jackson Lee. All right. Thank you very much.
    I yield back.
    Chairman Gowdy. The gentlewoman from Texas yields back.
    The gentleman from Texas, Mr. Gohmert, is recognized.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Mr. Horowitz, there has been a massive amount of bias 
documented by you in your investigation. You have concluded 
with recommendations that appear to just be more policies of 
the same policies the FBI, the DOJ already had. You understood 
it was already against FBI, DOJ policy to let bias come into 
play in these investigations, correct?
    Mr. Horowitz. Absolutely.
    Mr. Gohmert. Well, you made references in your report, even 
quoted from unnamed but numbered prosecutors and agents. Have 
you given us the names of those individuals?
    Mr. Horowitz. So we have a request for them, and we are----
    Mr. Gohmert. So you haven't given us the names and now you 
can't decide whether you're going to give them to us?
    Mr. Horowitz. Well, let me be clear. We engaged the 
committee on this. We went out, went to the FBI. The FBI raised 
the concern----
    Mr. Gohmert. Okay. The answer is no, you haven't given them 
to us.
    So let me just tell you, we're here because prosecutors and 
agents at the DOJ have been biased and it may have and some of 
us believe you have laid out a case that bias did affect what 
was going on. And then you come in here and say: We're going to 
number these people, we're not going to let you know who they 
are.
    But let me ask you this. Have you checked to see what 
normally wouldn't matter, how they voted in a Presidential 
election, except when you're investigating a nominee or a 
President? Do you know how they voted? Did they donate money to 
either of the candidates?
    Mr. Horowitz. I have no idea how they voted, and I don't 
have an idea----
    Mr. Gohmert. So you're bringing this investigation in here 
based on or utilizing opinions and information provided by 
prosecutors and agents who may be just as biased as the people 
that we're investigating, we just don't know because we hadn't 
seen their texts, we hadn't seen their emails.
    Normally, putting back on my felony judge hat, if a jury is 
going to make a decision on guilt or innocence of a felony of, 
say, a Presidential nominee, I'm going let them ask the jury 
panel: Did you vote for this person, did you give money to this 
person, do you have a bumper sticker for this person, did you 
put a sign in their yard, did you talk this person up?
    And yet you're coming in here, you don't know if these 
people you were relying on actually had any biases like the 
very ones you were investigating.
    Well, let me ask you this. Among the supervising special 
agents you referenced and the prosecutors, do you have any idea 
of the percentage that may have voted for Hillary Clinton?
    Mr. Horowitz. We did not ask people who they voted for.
    Mr. Gohmert. Well, let me tell you, I know my friend Mr. 
Nadler had referenced, said, oh, you know, a big organization 
like that, probably just as many people supported Trump. I 
heard Newt Gingrich yesterday said the fact is 97 percent of 
the people in the DOJ that donated, don't to Democrats, 97 
percent.
    So there's a good chance that the people that you're 
relying on did support Hillary Clinton. We don't know because 
you haven't asked. It is important to know who the 
investigators are and the people you're relying on.
    You mentioned in here, in the report, about Strzok and the 
relationship that he mentions with Judge Contreras. Do you know 
why Judge Contreras was recused, was removed from the Mike 
Flynn case?
    Mr. Horowitz. I don't know why he was recused.
    Mr. Gohmert. Is that something you would investigate?
    Mr. Horowitz. It's not within the scope of this 
investigation.
    Mr. Gohmert. I'm going reinforce the request for the 
identities of the supervising special agent, the prosecutors, 
and agents that were only identified by numbers and ask who 
they contributed to, if anyone, in the last two cycles.
    Now, in your report you said: The SSA us that the FBI did 
not consider Pagliano as a subject or someone to prosecute in 
connection. But this guy set up the unsecured server, as I 
understood it. This is a guy that you had a laydown case, or 
the DOJ did, and yet they don't put--they don't use that 
leverage, they don't treat him like they did Manafort or any of 
these other people.
    The DOJ had leverage. And this is where bias came into 
play. They didn't go after him. You said the SSA told us he 
believed Combetta should have been charged with false 
statements, yet nobody charged him. And why? Because bias 
played a role.
    I understand when you have an investigation you like to 
give something, a little something to both sides, makes you 
feel good. You gave us hundreds of pages of bias, but the 
conclusion was just, I'm sorry, whether it was subconscious or 
conscious, you had a little throwaway to go to the Democrats.
    But the fact is bias is all the way through this, and I'm 
sorry that you were not able to see that with what is very 
obvious from your evidence.
    I yield back.
    Chairman Gowdy. The gentleman's time has expired.
    The gentleman from New York, Mr. Jeffries, is recognized.
    Would you like to respond, Mr. Horowitz?
    Mr. Horowitz. Mr. Chairman, can I just finish on the 
identity issue, just so the record is clear on that?
    We were asked to--when we write a report we obviously 
comply with the Privacy Act and the other laws Congress has in 
place on who we can speak to and who we can't. That's the first 
step we do here. Much like what we lay out here with the 
criticisms of folks who didn't follow the rules and the norms 
and law, we followed that.
    We then got the committee's request. Consistent with our 
support for transparency, we would be supportive of getting the 
committee that information. The FBI interposed an objection: 
Because these individuals work on and have worked on 
counterintelligence matters, that there might be a security or 
safety issue.
    That's what we've talked to the committee about. We're 
happy to facilitate that issue with the committee and the FBI. 
But that's the objection that was raised--what's today, 
Tuesday--Monday, I think it was, by the FBI.
    Mr. Gohmert. Mr. Chairman, to clarify my request, it was 
not for anything to do with any counterintelligence. I don't 
want to know anything about that, just who worked on this 
matter.
    Chairman Gowdy. I think the request is clear and his 
response is clear.
    We're going to go to the gentleman from New York, and then 
we're going to go to the gentleman from Montana, and then we 
will break, Inspector General Horowitz, just so people can know 
what we're doing.
    My friend from New York, Mr. Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman.
    Mr. Horowitz, we live in a democracy, not an authoritarian 
state. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Jeffries. And in your view, is it generally appropriate 
to begin to ask American citizens how they voted in a 
Presidential election or in any election for that matter?
    Mr. Horowitz. In my view that's not a question we should be 
asking, certainly from my standpoint.
    Mr. Jeffries. Okay. Thank you.
    Special counsel's investigation into possible Russian 
interference with the 2016 election has resulted in 23 
indictments, correct?
    Mr. Horowitz. I don't know actually.
    Mr. Jeffries. Twenty individuals have been indicted in 
connection with that investigation.
    Mr. Horowitz. I'll accept your representation.
    Mr. Jeffries. Okay. Three corporate entities have been 
indicted in connection with the special counsel's 
investigation, correct?
    Mr. Horowitz. Again, I don't know as I'm sitting here, but 
I'll certainly accept your representation.
    Mr. Jeffries. Special counsel's investigation into possible 
Russian collusion identified 75 different criminal acts, 
correct?
    Mr. Horowitz. Same answer.
    Mr. Jeffries. There have been five guilty pleas, true?
    Mr. Horowitz. Same answer.
    Mr. Jeffries. Trump's campaign manager Paul Manafort has 
been charged with conspiracy to defraud the United States, 
correct?
    Mr. Horowitz. Same answer. I believe that's correct.
    Mr. Jeffries. And Paul Manafort is now sitting in jail, 
correct?
    Mr. Horowitz. That is correct.
    Mr. Jeffries. And that's in connection with alleged witness 
tampering, true?
    Mr. Horowitz. That's what I've read.
    Mr. Jeffries. And Trump's former National Security Advisor, 
Michael Flynn, has pled guilty to lying to the FBI, correct?
    Mr. Horowitz. That's my understanding.
    Mr. Jeffries. His deputy campaign manager, Rick Gates, has 
been indicted on conspiracy to defraud the United States, true?
    Mr. Horowitz. Again, I would accept your representation.
    Mr. Jeffries. Okay. And George Papadopoulos, a former Trump 
campaign national security adviser, has pled guilty to lying to 
the FBI about his contacts with Russians during the campaign, 
correct?
    Mr. Horowitz. I believe that's correct.
    Mr. Jeffries. Now, former FBI Director James Comey 
initiated the criminal investigation into possible collusion 
between the Trump campaign and Russia, correct?
    Mr. Horowitz. Actually I'm not sure who and precisely how 
it was opened.
    Mr. Jeffries. Okay. But he was FBI Director at the time, 
true?
    Mr. Horowitz. He was the FBI Director at the time.
    Mr. Jeffries. And James Comey is a lifelong Republican, 
correct?
    Mr. Horowitz. That I don't know.
    Mr. Jeffries. Bob Mueller is the special counsel leading 
the criminal investigation into possible collusion between the 
Trump campaign and Russia, true?
    Mr. Horowitz. He is now the special counsel, correct.
    Mr. Jeffries. And Special Counsel Bob Mueller is a well-
respected law enforcement professional, correct?
    Mr. Horowitz. I'll speak for myself. I have respect for 
him.
    Mr. Jeffries. He is a man of integrity, true?
    Mr. Horowitz. That's my opinion.
    Mr. Jeffries. And Special Counsel Bob Mueller is a lifelong 
Republican, correct?
    Mr. Horowitz. That I don't know.
    Mr. Jeffries. Now Rod Rosenstein is the Justice 
Department's deputy attorney general, correct?
    Mr. Horowitz. Correct.
    Mr. Jeffries. And in that capacity the deputy attorney 
general oversees the special counsel's criminal investigation 
into the Trump campaign, correct?
    Mr. Horowitz. That's my understanding.
    Mr. Jeffries. Now, Donald Trump, the Republican President, 
appointed Rod Rosenstein to that position of deputy AG, true?
    Mr. Horowitz. Correct.
    Mr. Jeffries. And Rod Rosenstein is a registered 
Republican, correct?
    Mr. Horowitz. That I don't know.
    Mr. Jeffries. Christopher Wray is the current FBI Director, 
correct?
    Mr. Horowitz. Correct.
    Mr. Jeffries. He was appointed to that position by Donald 
Trump, true?
    Mr. Horowitz. Correct.
    Mr. Jeffries. And in that capacity the FBI Director helps 
lead the criminal investigation into the Trump campaign, 
correct?
    Mr. Horowitz. I'm actually not sure of that with the 
special counsel, how that plays out.
    Mr. Jeffries. Okay. We think that he is involved.
    FBI director Christopher Wray is a registered Republican, 
correct.
    Mr. Horowitz. That I don't know.
    Mr. Jeffries. For the last few hours we have sat in this 
hearing, and some of my colleagues, part of the Cover-Up 
Caucus, have attempted to peddle conspiracy theories that the 
investigation into the Trump campaign's potential criminality, 
where we were attacked by a hostile foreign power, is a witch 
hunt.
    There is not a scintilla of evidence that a witch hunt 
exists right now. In fact, if any, individual connected to the 
2016 Presidential campaign was victimized by prosecutorial 
misconduct, her name was Hillary Clinton.
    The report that you produced, 500-plus pages, makes clear 
that the former FBI Director violated Department of Justice 
protocol on multiple occasions, most severely in July of 2016 
with a public explanation of Hillary Clinton's conduct, 
recklessly calling it extremely careless, violating DOJ 
protocol, and then, of course, again in October of 2016, with 
11 days prior to the Presidential campaign.
    What are you guys complaining about? You know what 
happened. James Comey decided to play judge, jury, and 
executioner. And on October 28 he executed the Hillary Clinton 
campaign, killed her in Pennsylvania, killed her in Michigan, 
killed her in Wisconsin, and handed Donald Trump the 
Presidency; and at the same time decided to pardon the Trump 
campaign in the court of public opinion by refusing to confirm 
to the public the investigation that was taking place in the 
Trump campaign.
    It's a phony, fraudulent, and fake argument. Stop peddling 
lies about a so-called Democratic witch hunt to the American 
people.
    I yield back.
    Chairman Gowdy. The gentleman from New York yields back.
    The gentleman from Montana is recognized.
    Mr. Gianforte. Thank you, Mr. Chairman.
    Mr. Horowitz--over here, sorry--I appreciate the work you 
have done and continue to do on your ongoing investigations. 
I'd like to focus my short time with you on the improper 
interactions and leaking of information to the media.
    On page 19 of your report you state that the FBI policy and 
regulations forbid the confirmation or denial and any 
discussion of an active investigation, except in limited 
specified circumstances. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Gianforte. Also, only the FBI Director, deputy 
director, associate deputy director, and other limited staff 
are authorized to speak to the media. Is that correct?
    Mr. Horowitz. Yeah.
    Mr. Gianforte. So why does the agency have such a policy? 
And could you briefly describe the consequences of not 
following it?
    Mr. Horowitz. The agency has the policy because leaks harm 
cases, they can terribly damage an ongoing criminal 
investigation, and they harm people's reputations. No one 
should want to see anybody tarnished with mud, other 
allegations that are never charged, never proven.
    Mr. Gianforte. So leaks are damaging?
    Mr. Horowitz. Leaks are damaging to people and 
investigations.
    Mr. Gianforte. Okay. So on page 430 of your report you 
state that the FBI policy limits employees who are authorized 
to speak to the media, but you found that that policy was 
widely ignored and that numerous FBI employees at all levels of 
the organization were in frequent contact with reporters. Is 
that correct?
    Mr. Horowitz. Correct, yeah.
    Mr. Gianforte. Further, your team identified instances 
where FBI employees received tickets to sporting events from 
journalists, went on golfing outings with media 
representatives, were treated to drinks and meals after work 
with reporters, and were guests of journalists at nonpublic 
social events. Is that correct?
    Mr. Horowitz. Correct.
    Mr. Gianforte. Some might consider such gifts as bribes. At 
the very minimum these are serious ethics violations.
    In appendixes G and H you identify over 50 FBI employees 
who had over 300 interactions with reporters during the period 
you looked at. Is that correct?
    Mr. Horowitz. Correct.
    Mr. Gianforte. What evidence did you find that these 300 or 
so interactions and outings and meals and golf tournaments were 
authorized and in compliance with FBI policy?
    Mr. Horowitz. It appears that most, many, were not, and 
that is precisely why I wanted to put this--make this public. 
We have this work ongoing, so I can't speak to any individual 
matter or issue, but I thought it was critical because of our 
concern as we do these reports on systemic issues that the 
public and policymakers and the Department of Justice and the 
FBI itself understand what the challenge is. When we have to 
look at leaks and there are that number of contacts it makes it 
very, very, very challenging to figure out how it occurred.
    Mr. Gianforte. So you noted that this leaking of 
information to the media was widely known within the 
organization and even played a role in decisionmaking.
    Mr. Horowitz. And in addition here very concerning, 
correct, that a number of people made decisions based on 
concerns over what might be leaked.
    Mr. Horowitz. And you note on page 429, quote: ``We have 
profound concerns about the volume and extent of unauthorized 
media contacts by FBI personnel that have been uncovered during 
the review.''
    Mr. Horowitz. Correct.
    Mr. Gianforte. So given the policy to limit contact with 
the media was very clear, knowledge of the practice of leaking 
was widespread, and the potential consequences great, what 
evidence did you find of any disciplinary action against 
violating employees?
    Mr. Horowitz. Well, when leaks were, in fact, uncovered 
there was discipline. Our concern was that the contact alone 
wasn't being addressed effectively and that that's where the 
FBI needs to focus on and that's what Director Wray has said 
publicly that he will look at.
    Mr. Gianforte. So based on your investigation, how many 
people have been referred to investigation in possible code 
conduct violations?
    Mr. Horowitz. I'm not sure that number, but I can assure 
you that when we find contacts, even when we can't prove the 
leak going forward, when we find contacts, even if we can't 
prove that someone actually leaked, but if they contacted in 
violation of policy, we will refer that to OPR for their 
investigation.
    Mr. Gianforte. Okay. And at this point how many FBI or DOJ 
employees have been fired for violating the leaking policy or 
accepting improper gifts?
    Mr. Horowitz. I would have to get back to you on that. I 
don't know off the top of my head.
    Mr. Gianforte. Okay. It is very important, given the extent 
of your findings.
    And finally, the real issue here is can the American people 
trust that these individuals will be held accountable. And can 
we count on you and your organization in your role as inspector 
general to ensure that this kind of improper behavior does not 
persist?
    Mr. Horowitz. I can. And I will say that we will, to the 
extent the law permits us, make public our findings when we can 
make them public.
    Mr. Gianforte. Thank you.
    And I yield back.
    Chairman Gowdy. The gentleman yields back.
    Mr. Inspector General, how long of a break would you like?
    Mr. Horowitz. Long enough to get a sandwich or a bite to 
eat.
    Chairman Gowdy. Is 45 minutes enough?
    Mr. Horowitz. Plenty of time.
    Chairman Gowdy. Why don't we reconvene at 1:45?
    With that, we're in recess.
    [Recess.]
    Chairman Gowdy. The committee will come to order.
    The gentlelady, Mrs. Watson Coleman, is recognized for 5 
minutes of questions.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    And good afternoon to you, Mr. Horowitz. Thank you for your 
testimony. Thank you for the work you've done. Thank you for 
the investigation that you've overseen here today, and thank 
you for the report that you've made.
    I'm very struck by the report that you made: 500 pages, 17 
months of investigative work, 1.2 million documents, including 
over 100,000 text and instant messages, and interviewed more 
than 100 witnesses, many on multiple occasions.
    Am I correct that your findings, as it relates to this 
Clinton email investigation, is that the decisions that were 
made, the findings that were made, the investigations that were 
conducted were not negatively--the outcomes were not negatively 
impacted by the biases of any individuals?
    Mr. Horowitz. Correct. The decision was--our conclusion was 
that the decision of the prosecutors was not the result of 
political bias, based on the evidence we reviewed.
    Mrs. Watson Coleman. Thank you.
    And I am very disturbed about the behavior of many people 
in the FBI, starting with Mr. Comey. I find his ego exceeded 
his ability to discern right from wrong. I am very concerned 
about those individuals that had negative things to say about 
either one of the candidates. And I am very concerned about 
what I think was a failure of the leadership in the Justice 
Department, who seems to me to have been intimated by Mr. Comey 
and not pushing back on him and not holding him accountable.
    Having said that, I'm tired of this discussion.
    I thank you for your findings.
    I would like for my committee, the Oversight Committee, as 
well as the Judiciary Committee, of which I get the chance to 
sit today but do not belong to, to look at the issues that are 
impacting the safety and security of our Nation, our 
reputation, and whether or not we should be using tax dollars 
to try to figure out why the President of the United States of 
America, his administration are doing things that are so un-
American as to rip children and babies from the hands and the 
hearts of their parents and putting them in cages.
    We've seen in our history two times in particular that we 
should be so offended by. The first was slavery, when we ripped 
families apart and wouldn't let parents be parents to their 
children or wives to their husbands, and then during the World 
War, when we took Japanese Americans and we put them in 
internment camps.
    We have seen what this kind of behavior has done in the 
world when we saw what Germany did to the Jews. And now we're 
doing it in the United States of America.
    And I need to understand why my colleagues, who've been 
elected to Congress to protect and preserve this Constitution, 
this Republic, and this Nation, is sitting silently by while we 
consistently observe this un-American activity on behalf of 
this administration, coming from this administration, and their 
complicitness in this and their silence.
    I want to know why we haven't used our taxpayer dollars and 
our responsibility here to look at the constant violations of 
the Emoluments Clause by this President and his family and how 
they consistently are intermingling their desires to get richer 
and richer and richer with our safety and security with other 
nations.
    I want to understand why my colleagues here in this room, 
in this committee, in the Judiciary Committee, and even in 
Congress are silent as we become enemies to our friends and 
friends to dictators.
    Who are we? We are better than that.
    I want to say that, if we were going to utilize our good 
time, our communication to the Nation, our exploration of 
what's right and what's wrong, what's going on, then we've got 
lots of opportunities, from an arrogant, dismissive Secretary 
of Homeland Security who has not a heart in her to a President 
who doesn't even read the material before him.
    So I am feeling very discouraged by where this committee 
has taken us all day long. I am very discouraged by what my 
colleague Mr. Hakeem Jeffries referred to as the antics of the 
cover-up caucus.
    And before I yield back, I just want to say that we are the 
people for whom this government has been organized. It is of 
us, by us, and for us. And the people must have the final word 
here. Pay attention.
    I yield back.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Arizona is recognized, Dr. Gosar.
    Mr. Gosar. It's good to see you, Mr. Horowitz. Sorry you 
had to hear some of the ranting and raving and people talking 
out of both sides of their mouth. I mean, we can bring up 
abortion. And, oh, my God, how is that not the ultimate in 
hypocrisy?
    But I'm going take a little different tact. I want to talk 
about the foreign access to the Clinton email server.
    Mr. Horowitz. Uh-huh.
    Mr. Gosar. So what difficulties did the FBI have during the 
intrusion analysis process of the capacity of the servers?
    Mr. Horowitz. Well, in terms of difficulties, what they 
were trying to do is understand who had intruded, if at all. 
And one of the challenges they had was getting the servers 
themselves and, obviously, recreating what was on the servers 
and what emails and evidence trafficked through it, but also 
the fact that foreign adversaries might not leave footprints if 
they did attack the server.
    Mr. Gosar. Right, but we didn't have all of the server 
materials and that.
    Mr. Horowitz. Correct.
    Mr. Gosar. So that leads me to my next question. So how did 
the FBI square its lack of the complete data with a definitive 
statement on whether an adversary compromised Clinton's server 
or system?
    Mr. Horowitz. Well, I think, you know, one of the issues 
was trying to understand Director Comey's statement where he 
both--in his July 5th statement--indicated that there wasn't 
evidence of a--that they had uncovered evidence of an 
intrusion, but they wouldn't necessarily know that either. And 
that was a question we had. And, as we lay out here, they 
explained to us the steps that they took, and we questioned the 
individuals who were involved in the intrusion analysis.
    Mr. Gosar. Well, that kind of gets me back to the point. So 
why wouldn't you ask any and all sources, like the DNI, the 
military, CIA, special ops, any remote centers, if they had 
hacked into the server during this time? I mean, because it was 
offline, no one really realized what this really was. This was 
off--the server was here. So we could ask a number of questions 
in regards to that opportunity of how they looked at that 
server.
    And the reason I say that is, when I asked the question 
last Thursday as to who looked at that server, I was told that 
it was an individual from the FBI. So, to me, that's 
bothersome, because once again we saw upper-echelon FBI with 
problems with this aspect.
    And I'm going to come back to another aspect here, and that 
is, there was a megadata abnormality that happened with Mr. 
Strzok, and Mr. Strzok blew it off.
    So my point is, why wouldn't we go outside the FBI to look 
at the servers and this data?
    Mr. Horowitz. Let me--my understanding was there was some 
contact with other agencies, but I'd have to go back and just 
refresh my----
    Mr. Gosar. I'd love to know exactly who that is and who 
they were, because my understanding is that there's something 
peculiar in that regards. There were other people that noticed 
something totally different than what the findings that you're 
showing----
    Mr. Horowitz. Right.
    Mr. Gosar. --okay?
    Now, I want to go back to this comment in regards--who told 
Comey that ``reasonably likely'' was the proper way to explain 
the results for the intrusion analysis?
    Mr. Horowitz. I don't recall, as I sit here. I'd have to go 
back and take a look at the report.
    Mr. Gosar. Do you feel that you delved into that issue deep 
enough to have a thorough conversation on that?
    Mr. Horowitz. I think, to be clear, what we did was look at 
what the FBI did, as opposed to do the intrusion analysis 
ourselves, where, you know, as an IG, inspector general's 
office, we don't do an intrusion analysis. We're looking at 
what the FBI did----
    Mr. Gosar. Right.
    Mr. Horowitz. --to effect that.
    Mr. Gosar. Well, I mean, I'm going to get back to Mr. 
Strzok. I mean, so he's--my understanding is he responded to 
the ``reasonably likely'' formation when providing edits back--
--
    Mr. Horowitz. Right.
    Mr. Gosar. --to Comey, did he not?
    Mr. Horowitz. He did.
    Mr. Gosar. So, once again, there's a common thread that 
we're seeing here with Mr. Strzok, not just in the parsing of 
words but also in megadata anomalies, as well as looking at 
sources within the data.
    So is Strzok's edit advice to Comey not a clear example of 
where Strzok's bias is not publicly sound--to sound not too 
harsh on Clinton and change the public's perception on that?
    Mr. Horowitz. Well, it's certainly a place where he weighed 
in and had an effect on the statement and had an impact on what 
ultimately was said publicly by Comey about whether or not 
there was evidence of intrusion.
    Mr. Gosar. Well--and I'll get back to reiterating. I'd love 
to know all the sources and actually have the server and these 
devices looked at by other groups, particularly some hotshots 
within DOD, DNI, to really look at this aspect, because I think 
there's more to this story than meets the eye. It seems to me 
that I'd want different validation than just the FBI.
    Thank you, Mr. Horowitz.
    Mr. Nadler. Mr. Chairman?
    Chairman Gowdy. For what purpose does the gentlemen from 
New York seek recognition?
    Mr. Nadler. To make a point of order.
    Chairman Gowdy. State your point of order.
    Mr. Nadler. Mr. Gosar, a moment ago, referred to a member 
on our side of the aisle as, quote, ``ranting and raving,'' 
speaking out of both sides of her mouth. I ask that his words 
be taken down.
    Mr. Meadows. So, Mr. Chairman, I think it would do us all 
good to make sure that we have personalties that are not 
involved in this. And I think it really degrades the overall 
importance of this issue as we bring personalities in, whether 
it be with other Members or others in the administration. So I 
think it's important, maybe a gentle reminder would be 
appropriate.
    Mr. Nadler. Mr. Chairman, I would insist on--I would insist 
either that his words be taken down or that there be an 
apology.
    Chairman Gowdy. Well, I'm not going to instruct the 
gentleman from Arizona to apologize any more than I am other 
Members who today have also said things that came precipitously 
close to the line.
    Mr. Nadler. I don't think anybody----
    Chairman Gowdy. I will ask the gentleman from Arizona--if I 
may continue. If I may continue.
    Mr. Nadler. All right.
    Chairman Gowdy. I will ask the gentleman from Arizona if he 
wishes to rephrase or restate his comments in any way or to 
make clear that he wasn't directing this at his colleague.
    Mr. Gosar. Thank you, Mr. Chairman. I was acknowledging 
that the other side has been ranting and raving about issues 
that are not pertinent to today's hearing. And that's what I 
was confronting, not just one individual person.
    Chairman Gowdy. So it was a general comment as opposed to 
one directly--specifically directed at an individual colleague?
    Mr. Gosar. No.
    Chairman Gowdy. Does the gentleman from New York still wish 
to----
    Mr. Nadler. Well, as long as it's clear that he was talking 
in general political terms and not about an individual, okay.
    Chairman Gowdy. I think it's pretty clear.
    We will now recognize the gentleman from the great State of 
Texas, Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, Mr. Horowitz, for being here. You probably think 
you are in the lion's den. I don't think you are. You're 
handling the questions quite well.
    As the chairman alluded to, I'm a former judge, a former 
prosecutor like you. And the justice system, we strive--whether 
we're a prosecutor, defense attorney, judge, we strive for the 
goal of fairness. Whatever happens, whether it's a hearing on a 
search warrant, whether it's a criminal case, we strive for 
fairness.
    And things must not only be fair in the Justice system, 
they've got to look fair. And if they don't look fair, that's, 
to us in the system, like you, just as bad as if it weren't 
fair.
    Prosecutors, when I was one, I had the rule, as you have, 
that prosecutors must seek justice, not convictions. That's our 
role when we're a prosecutor. I tried a lot of cases, and 
lawyers always wanted to know from the prospective jurors if 
they're biased for or against one side. If they're biased, it's 
happy trails, they can't serve on the jury.
    So, in this case--and it may not be an exact analogy, but 
here we have a jury taking place on a case, and we find out 
five of the jurors are biased for whoever they're investigating 
or hearing a criminal case. Neither side would tolerate that. 
They could not be involved in that proceeding. And, in some 
cases, if we're proceeding in a trial and the jury's biased 
from the outset, there's a mistrial. We may try it again, or it 
may be dismissed with prejudice, depending on the severity of 
the bias.
    But, in this case, we've got two named individuals, Page 
and Strzok. We know who they are. We know what they've done. 
All of the things that you've mentioned.
    But there are also three other unnamed biased people based 
on your investigation, one lawyer and two other FBI agents. 
What are their names?
    Mr. Horowitz. So, as I mentioned earlier, Congressman, the 
request has come in from the committee to give their names. We 
went to the FBI. The FBI raised a concern because they work on 
counterintelligence matters. And we are working with the 
committee to try and get the information you've asked for to 
the----
    Mr. Poe. So the FBI does not want their names released.
    Mr. Horowitz. Correct.
    Mr. Poe. And so the FBI makes the decision as to who those 
other three biased people are, and they say, we're not telling 
you because of some other internal reason on what they also 
work on, counterintelligence----
    Mr. Horowitz. Right.
    Mr. Poe. --whatever that means to whoever is hearing it.
    So my point is we let the FBI determine not to tell us who 
the other three biased people were in this 500-page 
investigation that we all now have. Does that seem a little odd 
to you? I'm just asking your opinion.
    Mr. Horowitz. Yeah, no, and there's a legitimate request, 
reasonable request from the committee, and I don't think it is 
a final decision at this point from the FBI or, in my view, a 
final decision.
    It's something I'm looking forward to working with the 
committee to try and get the answers to, because I completely 
understand what the interest is of the committee in getting 
that information.
    Mr. Poe. Well, it just seems to me that, in the name of 
fairness, we ought to know the names of those three people who 
you determined were biased in this investigation that has taken 
place, this 18-month investigation that you have been working 
on. I think that's in fairness, and I think the American public 
would like to know who they are.
    I think in this issue, changing gears a little bit to 
Comey, he has done a great disservice to the reputation of the 
FBI. I mean, when FBI agents would walk in my courtroom back in 
Texas, you know, the jury wanted to stand up and say the 
pledge, because they just trusted what they were going to say. 
I think now those days are over, because the investigation must 
not only be fair, it has to look fair, and it no longer looks 
fair, as to what the FBI is doing.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman from Texas yields back.
    The gentleman from Tennessee is recognized.
    Mr. Cohen. Thank you, Mr. Chair.
    How many years have you known Jim Comey?
    Mr. Horowitz. He was in the U.S. attorney's office when I 
started in 1991 there. So sometime after I started in 1991 I, 
obviously, met him.
    Mr. Cohen. How many years do you think y'all worked in the 
same area? Eight years? Ten years?
    Mr. Horowitz. No, no, no. He left, I think, within a year 
or 2 of my arriving to come down to Virginia to work in the 
U.S. attorney's office there. I'd have to go back and try----
    Mr. Cohen. And then, in your position at Justice, he was at 
FBI, so you had----
    Mr. Horowitz. When I became IG, a year later he became the 
FBI Director.
    Mr. Cohen. Okay. So you've known him long enough to have an 
idea about what his reputation for truth and veracity was among 
other members of the Justice Department and the FBI? Is that 
accurate?
    Mr. Horowitz. Yes.
    Mr. Cohen. And what was his the reputation for truth and 
veracity?
    Mr. Horowitz. He had a very strong reputation.
    Mr. Cohen. In your report, do you ever say at any point 
that Jim Comey lied?
    Mr. Horowitz. We do not.
    Mr. Cohen. Do you know of any time when Jim Comey has lied?
    Mr. Horowitz. I can't think of any as I sit here.
    Mr. Cohen. So when President Trump said there's not a 
bigger--a person who's told more lies in the world than Jim 
Comey, you would disagree with that?
    Mr. Horowitz. I'm not going to answer what other people's 
views are. I think I can only speak to what my interactions 
with him were----
    Mr. Cohen. Thank you.
    Mr. Horowitz. --in my capacities.
    Mr. Cohen. I know that your report basically said that Jim 
Comey was exceedingly careless in coming forward before the 
election with his reportage of the renewal of the investigation 
of Hillary Clinton and the laptop and Anthony Weiner but that 
there was no malicious intent. Is that accurate?
    Mr. Horowitz. As to Mr. Comey, we didn't find any malicious 
intent.
    Mr. Cohen. And what he did could have possibly affected the 
election. You don't know if it did or it didn't, but it could 
have.
    Mr. Horowitz. I have no idea.
    Mr. Cohen. But it could have.
    And he also could have gone into the Trump/Russia 
investigation, which could have affected the investigation, and 
he didn't. Is that correct?
    Mr. Horowitz. When you say ``go into,'' I'm sorry----
    Mr. Cohen. He could have let the public know----
    Mr. Horowitz. Oh.
    Mr. Cohen. --that there was such an investigation.
    Mr. Horowitz. The only thing I would say is he did not do 
that----
    Mr. Cohen. Right.
    Mr. Horowitz. --which was consistent with policy.
    Mr. Cohen. Some of the attacks were made on your decision 
not to prosecute or the Justice's Department's decision not to 
prosecute Secretary Clinton, and they stem from the Justice 
Department and the FBI's interpretation of the legal statute 
and term ``gross negligence.'' The Justice Department and FBI 
interpreted the statute to require deliberate intent, and they 
agreed there was simply no evidence in the Clinton case.
    And your report examined this and stated, ``We found this 
interpretation of section 793(f)(1) was consistent with the 
Department's historical approach in prior cases under different 
leadership, including the 2008 decision not to prosecute former 
Attorney General Alberto Gonzales for mishandling classified 
documents.''
    Mr. Horowitz, did you find the Department's prosecutors 
investigating Secretary Clinton considered both the caselaw and 
the Department's previous decision to decline the prosecution 
of Mr. Gonzales?
    Mr. Horowitz. Yes.
    Mr. Cohen. Can you explain to us a little bit about the 
decision not to prosecute Alberto Gonzales and how that was 
similar to or parallel to Secretary Clinton?
    Mr. Horowitz. Well, I think the issue there--and I'd have 
to go back and refresh myself on the Gonzales case--but it was 
the fact that it wasn't being sent to a third party who--
classified information wasn't being provided to a third party, 
and some of the other factors overlapped with the factors in 
this matter, according to the prosecutor's assessment.
    Mr. Cohen. The FBI has been referred to in somewhat 
disparaging terms since this report. Did your report find that 
the rank and file of the FBI were at all guilty of bias?
    Mr. Horowitz. No, not at all. In fact, as we lay out in the 
conclusion here, they worked hard to create a strong 
reputation, and, as we know, conduct like this creates such 
harm to that reputation that's been built up that that's why 
it's, in part, so important to address and to avoid having this 
kind of activity occur.
    Mr. Cohen. Mr. Chairman Gowdy, my friend, said that the 
confidence in our system of law enforcement and public 
prosecutions is important to its confidence in our government 
and the rule of law, and I agree with him.
    Would a statement to say that the FBI was a den of thieves 
contribute to the soured climate that we have in this country 
towards law enforcement and the rule of law?
    Mr. Horowitz. You know, Congressman, I'm going to stick to 
what we concluded in our report, and others can assess what 
they think this----
    Mr. Cohen. Is there a den of thieves at the FBI?
    Mr. Horowitz. We--in this investigation or any others we've 
done, we've not identified a den of thieves.
    Mr. Cohen. I thank you for your service and yield back the 
balance of my time.
    Chairman Gowdy. The gentleman from Tennessee yields back.
    The gentleman from Illinois is recognized.
    Mr. Krishnamoorthi. Good afternoon, Mr. Horowitz.
    Mr. Horowitz. Good afternoon.
    Mr. Krishnamoorthi. I just want to go through some things.
    Isn't it true that, regarding the FBI's investigation of--
--
    Mr. Cohen. Mr. Chairman, I think the gentleman's mic's not 
on.
    Mr. Krishnamoorthi. Do I get 10 more seconds?
    Chairman Gowdy. Absolutely not.
    Mr. Krishnamoorthi. Mr. Horowitz, isn't it true that, 
regarding the FBI's investigation of Hillary Clinton's email 
servers, also called the Midyear review, your report found, 
quote/unquote, ``no evidence'' that the conclusions of the 
Department of Justice prosecutors were affected by bias or 
improper considerations?
    Mr. Horowitz. Correct.
    Mr. Krishnamoorthi. And isn't it true that the report found 
that decisions made during the 2016 campaign Midyear review 
were, quote/unquote, ``based on the prosecutors' assessment of 
the facts, the law, and past Department practice''?
    Mr. Horowitz. Correct.
    Mr. Krishnamoorthi. Now, turning now to Agents Strzok and 
Page, it is true that your report says that their actions 
brought discredit to themselves, correct?
    Mr. Horowitz. Correct.
    Mr. Krishnamoorthi. However, it's also true that you, 
quote/unquote, ``did not find documentary or testimonial 
evidence'' directly connecting these political views that these 
employees expressed in their text messages and instant messages 
to the specific investigative decisions that you reviewed.
    Mr. Horowitz. Correct.
    Mr. Krishnamoorthi. Now, unpack that for them. How could it 
be that these two individuals who texted back and forth--and I 
reviewed hundreds of these texts. They're unprofessional. They 
say bad things about Donald Trump. They say bad things about 
Hillary Clinton. If they knew me, they'd say bad things about 
me too, I'm sure.
    How could it be that these two individuals, who were 
tainted by this political bias, could have done what they did 
and yet you say that the ultimate decisions made by the 
prosecutors were not tainted by political bias?
    Mr. Horowitz. So the reason and how we got to our 
conclusions was by looking at all the records of all the 
individuals involved in those specific decisions we looked at 
as well as the prosecutors' ultimate decision. And going 
through those records, the question was, was the biased 
evidence by those individuals translated into action by what 
turned out to be, in most instances, other people--
prosecutors----
    Mr. Krishnamoorthi. Oh, so other people were involved. Is--
--
    Mr. Horowitz. --others that were involved.
    Mr. Krishnamoorthi. --that what you're saying?
    Mr. Horowitz. Correct.
    Mr. Krishnamoorthi. Oh, so it wasn't just Strzok and Page 
who called all the shots on this investigation.
    Mr. Horowitz. Certainly as to the decisions we looked at 
pre-July. Again, I'm separating out the October events because, 
in that instance, Mr. Strzok was a key decision-maker.
    Mr. Krishnamoorthi. Okay. So let's unpack this. There's 
more than two people involved here investigating the Hillary 
Clinton email server situation. How many other people were 
involved?
    Mr. Horowitz. My understanding, there was somewhere over a 
dozen. So whether it was in the 15 or so range--I don't have a 
precise number, but it was certainly in that 10 to 15, 20 
range, as I understand.
    Mr. Krishnamoorthi. Oh, wow. So as many as 20 people could 
have been involved in basically making decisions of this group. 
And what you're saying is that these 2 people, though they 
personally may have been tainted by political bias, did not 
railroad the other 20 into making a decision that was 
politically tainted.
    Mr. Horowitz. That's my--that's--in looking at those 
decisions we're talking about, that's precisely the case.
    Mr. Krishnamoorthi. Got it.
    Mr. Horowitz. There was either a broader team decision or 
the prosecutors, not the agents, who made the decision.
    Mr. Krishnamoorthi. Got it. Got it.
    Now, let me take you to another point. You would agree with 
me that Jim Comey, although he did announce that there was an 
investigation into Hillary Clinton, did not announce any 
investigation into Donald Trump, correct?
    Mr. Horowitz. In October--in that fall period, he did not 
announce the ongoing Russia investigation or, for that matter, 
as I said, the Clinton Foundation investigation.
    Mr. Krishnamoorthi. Correct.
    Now, Strzok and Page, if they wanted to really tank Donald 
Trump, the way that some of my colleagues assert that they 
wanted to do, could have leaked that this investigation was 
happening. But you did not uncover any evidence that Strzok and 
Page did that, did you?
    Mr. Horowitz. We did not uncover evidence that they 
disclosed the Russia investigation. And that was one of the 
arguments their lawyers made as to their conduct.
    Mr. Krishnamoorthi. In fact, there's no evidence in your 
report that anybody leaked evidence of an ongoing investigation 
into Donald Trump and Russia, correct?
    Mr. Horowitz. We didn't touch on the Russia investigation 
in this. This was focused on the Clinton email investigation. I 
will say that, obviously, we're looking at the leak question. 
It could be a broader question, depending on what we find.
    Mr. Krishnamoorthi. Sure. But in this report----
    Mr. Horowitz. This report does not reference that.
    Mr. Krishnamoorthi. Correct. That's what I thought.
    Thank you so much.
    Mr. Horowitz. Yep.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Tennessee, Dr.DesJarlais, is recognized.
    Mr. DesJarlais. Thank you, Chairman.
    And thank you, Mr. Horowitz, for your time and testimony 
here today.
    You did determine in your report that there was political 
bias against President Trump evidenced by the Strzok-Page text, 
correct?
    Mr. Horowitz. Correct.
    Mr. DesJarlais. Okay. These same agents assigned to the 
Clinton investigation were then assigned to the Russian probe, 
correct?
    Mr. Horowitz. Correct.
    Mr. DesJarlais. Do you think that this probe, the Russian 
probe, then, could potentially have been tainted by the same 
political bias?
    Mr. Horowitz. I'm not going to opine on that, Congressman. 
We focused in this review on the Midyear investigation. As you 
know, we have the ongoing work that we're doing. So I'll defer 
on that, if I could.
    Mr. DesJarlais. Okay. But it's reasonable, then, if you 
found agents with political bias against the President that 
were then assigned to the Russia probe, that certainly that is 
something that needs to be looked at.
    Mr. Horowitz. It's certainly a reasonable question and 
something, as I said, that we're looking at in our ongoing 
review.
    Mr. DesJarlais. Now, I assume you watch the news.
    Mr. Horowitz. Occasionally. I try not to, actually, as much 
as perhaps I have in the past, but----
    Mr. DesJarlais. Do you believe that there is anti-Trump 
bias in the news, not as inspector general but just as a 
private citizen?
    Mr. Horowitz. I'm not going to opine on that.
    Mr. DesJarlais. You don't have an opinion as a private 
citizen?
    Mr. Horowitz. I might have a private citizen opinion----
    Mr. DesJarlais. But you won't in a hearing.
    Mr. Horowitz. No.
    Mr. DesJarlais. Okay. Would it surprise you to know that 90 
percent of the mainstream media coverage is anti-Trump?
    Mr. Horowitz. Again, I wouldn't weigh an opinion on that, 
Congressman.
    Mr. DesJarlais. Okay. Would it be safe to assume that FBI 
agents and attorneys watch the mainstream news?
    Mr. Horowitz. I assume the public at large does, and since 
they're a part of that, I assume they do.
    Mr. DesJarlais. Okay. So I guess what I'm getting at, 
wouldn't it be fair to conclude that some of the biased 
coverage has impacted their ability to fairly conduct their 
investigation?
    Mr. Horowitz. I couldn't draw that--I wouldn't be able to 
draw that conclusion, sitting here, Congressman.
    Mr. DesJarlais. Okay.
    While your report highlighted some of the most blatant 
anti-Trump sentiments within the FBI, it concerns me that this 
problem is more pervasive than we think. The FBI is oath-bound 
to remain neutral and enforce the law impartially and fairly. 
How can we accomplish this when there is--when there are agents 
that are actively biased against our sitting President?
    Mr. Horowitz. Look, I think, Congressman, you know, having 
been an AUSA, worked with agents, tremendous agents, at the FBI 
and other law enforcement agencies, the one thing I thought we 
all understood is you're entitled to be and you should be part 
of the public, the government, the democracy that we live in, 
but when you get to the work and to your office, you leave your 
views outside the door when you walk through, and you just 
focus on your work, the law, the evidence. And that's what you 
focus on.
    Mr. DesJarlais. Knowing what you know, though, if you were 
the subject of the investigation and knowing that the people 
you just investigated were the ones doing the work, would you 
not be concerned?
    Mr. Horowitz. Look, I think, again, it goes to what I just 
said. There are--I was a public corruption prosecutor, and the 
key, the most important thing--I supervised our unit. People 
who were working on those cases needed to leave whatever their 
views were outside the office. They needed to come in and be 
committed to focusing only on the facts and the law.
    Mr. DesJarlais. But that didn't happen in this case. That 
didn't happen, at least with multiple agencies----
    Mr. Horowitz. Well, certainly with regard to what occurred 
in October, we were concerned that that did not happen.
    Mr. DesJarlais. Okay. Well, I thank you for your time.
    I would like to yield the balance of my time to our 
chairman, Mr. Gowdy.
    Chairman Gowdy. Thank you, Dr. DesJarlais.
    Mr. Horowitz, I'm trying to understand, drafts of the Comey 
memos indicated that the missing element was the failure to 
expose the material to potentially hostile actors. And then I'm 
going back to his press conference and his subsequent testimony 
where he said the missing element was intent.
    Mr. Horowitz. Right.
    Chairman Gowdy. So I want you to put on your old hat. It's 
rare, when your job is to prove intent, that you have a 
defendant or a suspect who walks in and has a card out and 
says: To whom it may concern, I would like to admit that I had 
the intent to commit a violation of each and every essential 
element of the offense charged beyond a reasonable doubt.
    I've never had that happen. Have you?
    Mr. Horowitz. I can't recall that happening as an AUSA.
    Chairman Gowdy. You have to prove intent with 
circumstantial--usually it's circumstantial evidence. Rarely do 
you have direct evidence of intent. Is that fair?
    Mr. Horowitz. That's fair, although there are times people 
do things on camera and admit things----
    Chairman Gowdy. They do.
    Mr. Horowitz. --in a wiretap that gives you pretty good 
evidence of intent.
    Chairman Gowdy. Those don't go to trial that much. 
Sometimes those plead.
    Mr. Horowitz. Those plead.
    Chairman Gowdy. When you're going to trial, the best you 
can have sometimes is circumstantial evidence.
    Mr. Horowitz. Sometimes that is the best you have.
    Chairman Gowdy. All right. Such as false exculpatory 
statements, false nonexculpatory statements, concealment, 
destruction of evidence, knowledge, absence of mistake, notice 
of wrongdoing. I can't think of a better source for that 
potential circumstantial evidence than the actor, the target, 
the defendant himself or herself, can you?
    Mr. Horowitz. That's usually where you find some of your 
best evidence.
    Chairman Gowdy. All right. I'm out of time.
    If any of my colleagues give me any more of their time, I 
want to close the loop on how to prove this missing element and 
whether or not, in your judgment, in this case, a fulsome 
effort was made when they did interview the target.
    With that, the gentleman from Georgia, Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Thank you.
    Mr. Chairman, between Republican-led committees, there have 
been numerous hearings on the topic of Hillary Clinton's 
emails. Hillary Clinton has been the gift that Republicans 
can't get enough of.
    The American people will recall that, during the run-up to 
the 2016 Presidential election, House Republicans held numerous 
hearings about then-Presidential candidate Hillary Clinton. We 
remember what House Majority Leader Kevin McCarthy admitted 
when he told a reporter, quote, ``Everybody thought Hillary 
Clinton was unbeatable, right? But we put together a Benghazi 
special committee, a select committee. What are her numbers 
today? Her numbers are dropping. Why? Because she's 
untrustable,'' end quote.
    Well, Mr. Chairman, today finds us again mired in another 
hearing about Hillary Clinton's emails. And instead of holding 
hearings to muck up Hillary Clinton, today we're holding this 
hearing hoping that the American people are distracted from 
important issues of today.
    As chants of ``Lock her up'' fade from our memories, our 
consciences are being disturbed as we hear the ProPublica 
footage of the little children crying, ``I want my mama,'' ``I 
want my daddy.'' As I prepared for this hearing last night, all 
I could hear were the cries of those children being held in 
private, for-profit jails crying out for their parents.
    Mr. Chairman, I think we should have hearings about how the 
Trump administration is deporting their parents as those 
children remain wards of this country. And we also can be 
looking into issues like what was reported last week, the New 
York attorney general's investigation and criminal referral to 
the Department of Justice.
    The same day that the OIG report came out, New York 
attorney general, his office--or her office sued Donald Trump, 
his children, and the Trump administration, with alarming 
allegations about flagrant violations of the law and 
potentially criminal acts.
    The New York attorney general found, and I quote, ``In sum, 
the investigation revealed that the foundation was little more 
than a checkbook for payments to non-profits from Mr. Trump or 
The Trump Organization. This resulted in multiple violations of 
State and Federal law because payments were made using 
foundation money regardless of the purpose of the payment. Mr. 
Trump used charitable assets to pay off the legal obligations 
of entities he controlled, to promote Trump hotels, to purchase 
personal items, and to support his Presidential election 
campaign.''
    The complaint included images of emails from campaign 
staff, such as Corey Lewandowski, directing political spending 
out of the foundation's accounts. It included a note, clearly 
in the President's own handwriting, directing foundation money 
to be used to settle a lawsuit against Mar-a-Lago, his country 
club estate for the ultra-rich.
    This is simply stunning. The New York attorney general 
alleged that there were, quote, ``multiple violations of State 
and Federal law,'' end quote. The New York attorney general 
sent an official criminal referral letter to the IRS and also 
to the Federal Election Commission to investigate tax and 
election law violations. The letter to the FEC copied an 
official from the Public Integrity Section of the Criminal 
Division of the Department of Justice.
    Now, more than ever, we need strong and independent 
oversight to ensure that Federal law enforcement and 
prosecutors can do their job free of political pressure. Based 
on the President's past statements and actions, I have serious 
concerns that he or his political allies will attempt to make 
this new potential criminal case go away.
    And so I think we will once again need to rely on your 
office, Mr. Horowitz, for that oversight. Can you commit to us 
here today that your office will look into this criminal 
referral to ensure that there is no improper outside 
influence--or inside influence, for that matter--including any 
attempts from the President or his staff to shut down an 
investigation into the conduct of the President or his family?
    Mr. Horowitz. So certainly matters that are within our 
jurisdiction and our authority we're prepared to conduct 
appropriate oversight on. There are some things that will be 
within our jurisdictions, some things that are not within our 
jurisdiction, and I think it really depends ultimately on what 
comes to us in terms of a referral or not, if and when one does 
come.
    So that's what I can tell you in a hypothetical. But thatis 
why we're here as Inspector General Office, and if it's within 
our jurisdiction, we will obviously take any referrals and look 
at it carefully.
    Mr. Johnson of Georgia. I thank you for your exhaustive 
investigation in this report. I think you've done a great job, 
and I thank you.
    And, with that, I yield back.
    Chairman Gowdy. The gentleman from Georgia yields back.
    The gentleman from Kentucky is recognized.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Horowitz, did Lisa Page work on the Hillary email 
investigation?
    Mr. Horowitz. She did.
    Mr. Massie. Did she work on the Russian investigation?
    Mr. Horowitz. She did.
    Mr. Massie. Did she work on the Mueller investigation?
    Mr. Horowitz. Yes, she did.
    Mr. Massie. When you or your people asked her why she used 
her FBI phone for personal purposes, what did she tell you was 
the predominant reason?
    Mr. Horowitz. Well, as she indicated, she and Mr. Strzok 
were having a relationship, and they were using the phone to 
communicate with each other for that purpose.
    Mr. Massie. To cover up the affair, to keep their spouses 
from knowing?
    Mr. Horowitz. Yeah.
    Mr. Massie. So she texted something that you asked her 
about. This is an April 1st, 2016, text. I want you to tell me 
why she told you she sent this text.
    She said, ``So look, you say we text on that phone when we 
talk about hillary because it cant be traced, you were just 
venting bc you feel bad that youre gone so much but it cant be 
helped right now.''
    Why did she--what did she tell you was the reason she sent 
that to Strzok?
    Mr. Horowitz. The--she told us this was an example--and I'm 
looking at our report here--why she had used the phone to keep 
this information from their spouses, and this was an example of 
that.
    Mr. Massie. And, in this text, she said she was coaching 
Strzok, basically, on what to tell his wife, correct?
    Mr. Horowitz. Correct.
    Mr. Massie. So she was telling him how to lie. She was 
using a government phone to tell her husband how to cover up an 
affair, coaching him on how to lie, and using the pretext of 
this investigation to carry out this affair with her coworker.
    So she coached her coworker and lover on how to lie to his 
wife, used government resources to do it and the pretext of 
this investigation to conceal what they both knew was immoral 
behavior. Did that give you any reason to doubt her testimony 
to you in the interviews?
    Mr. Horowitz. I think, frankly, as to all the individuals, 
when we go in, we come in with a healthy skepticism, as you 
would expect us to. And I think we, you know, treated her no 
differently than we would treat others in terms of going in and 
looking. And I think, you know, as you can see here, we 
expressed our skepticism of some of the explanations we got.
    Mr. Massie. Your report's really good at uncovering bias, 
so I want to talk about some bias that has been uncovered by 
your report that's not being covered in the news. So I want to 
read you five texts.
    March 12th, 2016, Page forwarded an article about a 
conservative candidate in Texas, stating, ``What the f is wrong 
with people?'' Strzok replied, ``That Texas article is 
depressing as hell. But answers how we could end up with [Trump 
as President].''
    August 26th, 2016, Strzok sends to Page, ``Just went to a 
southern Virginia Walmart. I could SMELL the Trump support.''
    August 29th, 2016, Agent 5 to Agent 1: ``I would rather 
have brunch with Trump and a bunch of his supporters like the 
ones from Ohio that are retarded.''
    October 28th, 2016, Agent 5 lists things that he's sick of, 
and he lists on there the ``average American public.''
    And then on November 9th, 2016, unnamed FBI employee says, 
``Trump supporters are all poor to middle-class, uneducated, 
lazy POS''--we know what that stands for--``that think he will 
magically grant them jobs for doing nothing. They probably 
didn't watch the debates and aren't fully educated on his 
policies.''
    This is bias at the FBI at the top level. I'm not saying at 
the field agent level. They probably more reflect the American 
people. But at the top, highest-most level, you have a bias 
against the American people. And this terrifies the average 
worker, who is paying their salary with their tax dollars. So I 
think that's something we need to look at.
    I want to yield my remaining minute to the gentleman from 
Ohio, Mr. Jordan.
    Mr. Jordan. I thank the gentleman.
    Mr. Horowitz, James Comey, Director of the FBI; Andy 
McCabe, Deputy Director; Chief of Staff Jim Rybicki; General 
Counsel Jim Baker;FBI Counsel Lisa Page; and Deputy Head of 
Counterintelligence Peter Strzok--these were six important 
people at the FBI. Is that right?
    Mr. Horowitz. Correct.
    Mr. Jordan. And they were the key players on the Clinton 
investigation and on the Russian investigation, correct?
    Mr. Horowitz. They were certainly important on both.
    Mr. Jordan. Has Mr. Comey been fired?
    Mr. Horowitz. Yes.
    Mr. Jordan. Has Mr. McCabe been fired?
    Mr. Horowitz. Yes.
    Mr. Jordan. Did Mr. McCabe lie under oath, according to 
your report?
    Mr. Horowitz. In our view, yes.
    Mr. Jordan. Yeah. Is there a criminal referral for Mr. 
McCabe?
    Mr. Horowitz. I'm not going to comment on that.
    Mr. Jordan. Has Mr. Rybicki left the FBI?
    Mr. Horowitz. Yes.
    Mr. Jordan. Has General Counsel Jim Baker left the FBI?
    Mr. Horowitz. Yes.
    Mr. Jordan. Was he removed from his position prior to 
leaving the FBI?
    Mr. Horowitz. I'm not sure of that.
    Mr. Jordan. Has Lisa Page left the FBI?
    Mr. Horowitz. Yes.
    Mr. Jordan. Was she reassigned prior to leaving the FBI?
    Mr. Horowitz. I believe so.
    Mr. Jordan. And has Peter Strzok been removed from his 
position as Deputy Head of Counterintelligence?
    Mr. Horowitz. Yes.
    Mr. Jordan. Now, Mr. Horowitz, you've been in the DOJ for 
10 years. You've been inspector general for 6 years. You're 
chief of all the inspector generals. Have you ever, ever seen 
anything like this at any other Federal agency in your time in 
the Federal Government, six of the top people fired, demoted, 
reassigned, or left?
    Mr. Horowitz. I obviously can't speak broadly to other 
areas that I haven't known before, but, yes, this is 
concerning.
    Mr. Jordan. I've been in this town 11-1/2 years. I have 
never seen anything like this. Even the IRS scandal didn't come 
close.
    And, again, this is not any type of reflection on the rank-
and-file agents who I know you respect, we all respect, and do 
a great job. But these were the six key people. I have never 
seen anything like this in my time in government. My guess is 
there's not a person on this dais who has, as well.
    Chairman Gowdy. The gentleman's time has expired.
    The gentleman from Maryland, Professor Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Mr. Horowitz, our committee seems deeply lost in the forest 
today. A lot of my constituents are baffled why, at a moment 
when the U.S. Government is separating thousands of children 
and parents at the border in a way that threatens to make us an 
international pariah, the Judiciary Committee and the Oversight 
Committee are doing nothing about this scandalous policy but, 
rather, seem stuck in a time warp, doing another investigation 
into an investigation into an investigation of Hillary 
Clinton's emails.
    The amazing thing is that the majority chose to reenter 
this maze when your report was perfectly clear on its findings. 
And I quote, ``We found no evidence that the conclusions by the 
prosecutors were affected by bias or other improper 
considerations. Rather, we determined they were based on the 
prosecutors' assessment of facts, the law, and past Department 
practice.''
    Indeed, you seemed to find that the major case of 
prosecutorial wrongdoing here took place at the expense of 
Secretary Clinton. While Director Comey properly kept secret 
the FBI investigation of the Trump campaign's involvement with 
Russian agents throughout the campaign, he repeatedly ignored 
Department policy to release information about the Clinton 
email investigation.
    Mr. Horowitz, did you make a finding about why Director 
Comey violated DOJ policy and tradition in the Clinton case 
while steadfastly refusing to talk about Trump/Russia? This 
might have cost the Democrats the election. And Comey, of 
course, was a lifelong Republican.Was he motivated by 
partisanship and bias? Was that something that you found?
    Mr. Horowitz. We did not find that Director Comey's 
decisions were based on political bias.
    Mr. Raskin. Do you think we're making a mistake not to 
blame that decision on partisan bias because he was a 
Republican?
    Mr. Horowitz. Again, I'll stick with our finding, which is 
that we did not see evidence of political bias.
    Mr. Raskin. Well, all of this seems to come down to, in my 
view, the text in this sophomoric texting relationship between 
Strzok and Page, a couple now made almost as famous as Bonnie 
and Clyde or Romeo and Juliet by this committee.
    We've all read and heard these titillating messages between 
the two. Sure enough, they don't like Donald Trump. They're 
very snarky about him. They called him an idiot. They were also 
snarky about Eric Holder, Chelsea Clinton, Bernie Sanders, and 
my good friend Martin O'Malley.
    So, if the question is whether they liked Donald Trump, of 
course not. They called him an idiot. But your job as the 
inspector general is not to diagnose their private biases as 
government employees but, rather, the character of their public 
actions. Mr. Gohmert seemed to think it's sufficient to 
disqualify public prosecutors or investigators because of their 
private biases.
    And I'm wondering whether you could illuminate for the 
committee the difference between a private bias or political 
opinion someone might have and a public bias that actually gets 
activated in the character of a public investigation or policy.
    Mr. Horowitz. I think it's fair to say, if you are involved 
in a democracy, whether you're a Federal prosecutor, an agent, 
or just a citizen going about your business, you have views, 
political views. You vote; you have positions. That's what you 
would want people to do and be engaged in democracy.
    When you are a law enforcement agent, when you are a 
Federal prosecutor, you have to understand and appreciate that 
whatever your views are as a citizen, you keep them outside the 
office and away from your decision making.
    And what was troubling here is--and I understand the 
explanation that was provided to us by Mr. Strzok and Ms. Page, 
that they thought these were private. But they weren't. They 
were using their FBI devices, sometimes at work, sometimes not 
at work, to speak about individuals they were investigating.
    So they weren't just speaking about a generic election that 
they cared about. It just so happened that the people they were 
speaking about had a connection to the investigations they, 
themselves, were working on. And, in some instances, they tied 
that discussion to their investigative work, and that's what's 
concerning.
    Mr. Raskin. Okay.
    When these text messages came out, it turned out that 
representatives of the Department of Justice actually convened 
a select group of reporters in advance to show them the texts. 
And there was great mystery about why that happened.
    Have you made any progress in investigating why this was 
leaked in advance by the Department of Justice to certain 
reporters?
    Mr. Horowitz. Yeah, we haven't undertaken a full 
investigation of it. We made clear to the committee that we 
were unaware of that until after it happened and we got 
complaints in from it. We were told it was considered by the 
Department and by its lawyers.
    And so, as you know, the IG doesn't have authority over 
decision by lawyers in the course of their legal authority. 
Under the IG Act, those go to the Department's Office of 
Professional Responsibility. And so they would be the ones who 
would have to be consulted as to what they ultimately found----
    Mr. Raskin. So you're not doing any further investigation.
    Mr. Horowitz. We don't have jurisdiction, actually. Because 
what we first learned right away was that lawyers had been 
consulted and lawyers had given advice. And once that happens, 
while we would--and the committee has supported given us that 
jurisdiction, at this point we don't have it.
    Mr. Raskin. Thank you.
    I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Horowitz, thank you. And for your entire team, some of 
which are Republicans, some of which are Democrats, some of 
which are unaffiliated, I thank you for your unbiased way that 
you conducted this comprehensive report, and for the rest of 
the team at large that's probably back at DOJ watching this.
    And so I want to get right to the heart of the matter. One 
of the concerns that I have when we look at bias in the 
analysis that you made at the very end, it is incumbent upon 
any team to make sure that they do the investigation without 
bias. And it is clear that Peter Strzok and Lisa Page had some 
bias. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Meadows. And so, if you were to learn that they had a 
disproportionate role in the investigation, both on this 
investigation and the Russia investigation, that would mean 
that their bias would have a disproportionate contribution to 
that decision, would that not?
    Mr. Horowitz. Yeah, and I'm going to stick to this review, 
since I know this one at this point, but, yes, that would be a 
concern.
    Mr. Meadows. All right. So let me go further. You're the 
one that actually discovered the text messages.
    Mr. Horowitz. That's correct.
    Mr. Meadows. Your forensic team.
    Mr. Horowitz. Correct.
    Mr. Meadows. So why would the FBI not have been able to 
find that?
    Mr. Horowitz. So----
    Mr. Meadows. Did they look?
    Mr. Horowitz. Well, the first batch we recovered in 2017--
--
    Mr. Meadows. Right.
    Mr. Horowitz. --we found because we asked for text 
messages.
    Mr. Meadows. All right. And so they produced them to you.
    Mr. Horowitz. They produced them to us. Then we asked for 
more.
    Mr. Meadows. So the ones that you found forensically----
    Mr. Horowitz. Correct.
    Mr. Meadows. --why did they not find those?
    Mr. Horowitz. If you didn't do the forensic work on the 
phones, you wouldn't have found the text messages on the 
phones.
    Mr. Meadows. So they really just didn't look is what you're 
saying. The FBI didn't look.
    Mr. Horowitz. Nobody looked beforehand, correct.
    Mr. Meadows. So you looked, but they didn't look.
    Mr. Horowitz. They hadn't looked.
    Mr. Meadows. So was it a lack of curiosity on their part? I 
mean, because you're the ones----
    Mr. Horowitz. I think you'd have to ask the FBI on that, as 
to why they didn't----
    Mr. Meadows. Well, but if they were really serious about 
oversight and they were really serious with the confines of 
these text messages, I think an investigator would want to know 
if they had bias within their own agency, wouldn't you?
    Mr. Horowitz. Yes. And I would just add, we've had those 
phones in our custody for probably about a year now or 6 months 
now. So, just to be clear, we've had them the last 6----
    Mr. Meadows. Since then. Well, you've done a lot more with 
them than they did, and I'll give you that.
    And so let me--I want to focus on what's not in the report. 
Because, as we look at what's not in the report, what's not in 
the report is, as you know, the intelligence community IG 
actually was part of the predication for this investigation. Is 
that correct?
    Mr. Horowitz. That's correct.
    Mr. Meadows. They were so concerned that there might have 
been foreign infiltration into this that they went immediately 
to the FBI to let them know about that. Is that correct?
    Mr. Horowitz. I know they went to them. I don't know the--
--
    Mr. Meadows. Well, I talked to the IG, and he indicated 
that he went literally that day, got in a car, went over and 
met. And so he was really concerned that there were some 
anomalies in the metadata that would----
    Mr. Horowitz. Right.
    Mr. Meadows. --suggest that a foreign actor was getting 
copies of potential emails. Are you aware of that?
    Mr. Horowitz. I am. And I've talked to him as well.
    Mr. Meadows. Okay. And so, if they are that concerned, do 
you not find it curious that the FBI investigators, Peter 
Strzok and his team, did not ever talk to them other than that 
initial meeting where they did that? Would you think that part 
of an investigation would be to go back to the very people that 
brought up the accusation to say, what did you find?
    Mr. Horowitz. Yeah, I assume that would be----
    Mr. Meadows. But that's not in your report.
    Mr. Horowitz. That's correct.
    Mr. Meadows. And they didn't do that, did they?
    Mr. Horowitz. I'd have to double check that.
    Mr. Meadows. Yeah. I can tell you that the last time that 
they talked to them was when they gave the referral to close it 
out after the Comey incident.
    So wouldn't you find that curious, that they wouldn't have 
looked any further?
    Mr. Horowitz. If they didn't, yes.
    Mr. Meadows. All right. And so you can get back to the 
committee on that.
    Mr. Horowitz. Yes.
    Mr. Meadows. All right.
    So let me go on a little bit further. So, if they didn't 
look and if we don't have that information, your staff 
indicated that, indeed, emails with at least some classified 
information did go to a foreign entity or a third party.
    Mr. Horowitz. Yes. One of the individuals who was on 
Secretary Clinton's staff, his email account, private email 
account, Gmail account, was hacked.
    Mr. Meadows. Right.
    And so let me look at four other things that I need to hear 
some clarification. Because there are some text messages. We 
know that Peter Strzok worked on both the Russia and the 
Hillary Clinton investigations, so I want to make sure that 
these text messages don't apply to Hillary.
    So, on July the 29th, before the investigation into the 
Russia investigation started, there was a text message that 
says, do you want us to reach out to Gurvais? And I think 
they're referring to Gurvais Grigg at that particular point. 
And they said, well, why do you want to do that? Well, we want 
to see if he actually has the names that we already have.
    Now, I'm troubled by this a little bit. Did that apply to 
the Hillary Clinton investigation? It was already closed at 
that point.
    Mr. Horowitz. It was already closed. I'd have to go back 
and double check.
    Mr. Meadows. Okay. Why I'm curious is, why would they be 
checking with someone who his specialty is, quote, ``FBI 
advanced electronic surveillance''? Why would he be checking 
before a Russia investigation is opened with somebody who does 
essentially bugging and monitoring to find out anything that 
might have been going on? Why would that have happened?
    Mr. Horowitz. I don't know.
    Mr. Meadows. Okay.
    So let me go on a little bit further then. The text message 
that says the White House is running this, which happened on 
August 5th, was that in reference to Russia or Hillary Clinton?
    Mr. Horowitz. Our assumption and understanding was it was 
not Hillary Clinton's matter because that had been closed 
already.
    Mr. Meadows. That's my assumption as well.
    And the one that says that the President wants to know 
everything about this that happened on September 2nd, was that 
with Hillary or with the Russia investigation?
    Mr. Horowitz. Our understanding is that would not have been 
Hillary, that would have been the Russia matter.
    Mr. Meadows. Yeah.
    So, looking at the difference between the way that the 
Hillary Clinton investigation was notified and researched 
versus the way that it appears that the Russia investigation, 
did the administration, the previous administration, take an 
abnormal interest in all of that?
    Chairman Gowdy. The gentleman's time has expired, Mr. 
Inspector General, but you may answer.
    Mr. Horowitz. I don't know the answer to that at this point 
because that was not part of this review. But, certainly, it's 
something we, as we look at the matters that have recently been 
referred to us, we will be considering.
    Mr. Meadows. I thank you.
    I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    The gentleman from California is recognized, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Horowitz.
    I want to see if we can summarize your findings after a 
long day going through your testimony.
    Do you agree, yes or no, that Hillary Clinton committed no 
crimes?
    Mr. Horowitz. Our finding is that the prosecutors looked at 
the facts along with the evidence to conclude she shouldn't be 
charged.
    Mr. Swalwell. Do you agree, yes or no, that Page and Strzok 
acted inappropriately?
    Mr. Horowitz. Yes.
    Mr. Swalwell. And you agree they were removed by Bob 
Mueller from his team?
    Mr. Horowitz. He was removed. Ms. Page had already returned 
prior to our notification to the special counsel.
    Mr. Swalwell. You agree that Director Comey never leaked 
the Russia investigation, the existence of it, prior to his 
testimony to Congress?
    Mr. Horowitz. He did not disclose it back at the time 
period we looked at.
    Mr. Swalwell. You agree there's no evidence that Jim Comey 
lied to you in your investigation?
    Mr. Horowitz. We did not make any finding that he lied to 
us.
    Mr. Swalwell. Mr. Horowitz, do you think it is time to move 
on past the Hillary Clinton emails?
    Mr. Horowitz. I think we have put forward our report. 
Congress has a separate oversight authority and interest, and 
I'm not going to speak to what Congress should or shouldn't do.
    Mr. Swalwell. Because I appreciate your work on this, and I 
think it was fair findings all around, but the only text 
messages that I really care about right now are the hundreds of 
people at home and across the country who are asking me what in 
the hell is the Judiciary Committee doing right now? I mean, 
this is maddening. I don't know if my colleagues are checking 
their voice mails or checking your you emails or checking your 
Twitter feed; people aren't talking about the God-damned 
emails. They're not. They're talking about kids separated from 
their mom and their dad sitting in cages on our southern 
border.
    And then they say: Hey, Congressman Swalwell, which 
committee is responsible for that?
    And I tell them: Well, it is the Judiciary Committee.
    Great. So, when you get back to Congress on Tuesday, you 
guys are immediately going to look at why this is happening, 
right?
    No, we're having a hearing, I tell them, but our hearing is 
on Hillary Clinton emails.
    You know how upsetting that is? That is upsetting to 
Republicans, Democrats, people who don't give a rip about 
politics.
    This is important. People should be held accountable for 
inappropriate behavior, Mr. Inspector General, and again, I 
appreciate that you're doing that, but our responsibility is to 
act on behalf of the American people, and we're not helpless. 
We're actually the one committee in Congress that is not 
helpless to act when families are being ripped apart.
    So I would ask Chairman Goodlatte, please interrupt me if 
you intend when we conclude today to hold a hearing on how 
we're going prevent future families from being separated and 
reunite those who have already been torn apart.
    Mr. Gowdy, again, interrupt me if you have a plan for what 
we're going to do next what I can tell my constituents because 
the only thing they care about right now is that the United 
States that they know is no longer a compassionate one.
    Chairman Goodlatte. Would the gentleman yield?
    The gentleman may be pleased to know that, on the floor, on 
Thursday, as soon as Thursday, there will be a bill to address 
the very problem the gentleman is talking about, but it has 
nothing to do with the importance of making sure that the 
Federal Bureau of Investigation does not repeat what it did in 
2016 and into 2017.
    Mr. Swalwell. And reclaiming my time, Mr. Chairman, I 
understand that's a partisan bill without Democratic support, 
and that did not come through this committee. Again, we have an 
opportunity to act now. I saw Mr. Meadows at the White House 
today, and, Mr. Meadows, I was encouraged by what you said that 
families shouldn't be ripped apart, but here we sit.
    Mr. Meadows. Well, if the gentleman will yield.
    Mr. Swalwell. Yes.
    Mr. Meadows. I have a nonpartisan bill that does not deal 
with a wall, does not deal with sanctuary cities, that I 
introduced an hour ago. If he would like to cosponsor with me, 
we'll bring it together.
    Mr. Swalwell. Let's work on that, Mr. Meadows, because my 
constituents, and I think all of our constituents want to make 
sure that we show compassion, that we show heart, and that 
Congress acts. There's consensus on this issue. And it is just 
maddening that the one committee that has the responsibility to 
do something is focused on this.
    I yield back the balance of my time.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Florida, Mr. DeSantis, is recognized.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Horowitz, with the Weiner laptop issue, I think that 
you had said Peter Strzok's explanation for his conduct was not 
really persuasive.
    Mr. Horowitz. Correct.
    Mr. DeSantis. So it would be reasonable for somebody to 
infer that his actions, at least with the Weiner thing, were 
motivated by his bias.
    Mr. Horowitz. And that was precisely our concern.
    Mr. DeSantis. Okay. July 31 Strzok, the same Strzok that's 
bias affects how he is handling the Weiner laptop, opens up a 
counterintelligence investigation against Trump's campaign. 
Why? We're trying to get the reason. Some guy made a comment in 
a bar, so he opens up an investigation. Eighth of August he is 
asked: Trump can't be President, right, right? No, he can't. 
We'll stop it.
    Why was that text message not originally produced to you? 
What did the FBI tell you?
    Mr. Horowitz. So what appears happened is that its 
collection mechanism, the program it used, was not collecting 
all the text messages.
    Mr. DeSantis. But you had every other text message from 
that day, correct?
    Mr. Horowitz. Actually, I don't know the answer to that. I 
thought I did, but I'm not sure.
    Mr. DeSantis. So, when you guys went back recently and got 
this damning one, was that the only one from that day that you 
found that was new?
    Mr. Horowitz. I would have to go check, but there was at 
least one other--actually, there were several others, but at 
least one other relevant to our review that we had not seen 
before that we found as we went back through it.
    Mr. DeSantis. And that was--so it was their explanation 
that it was not human agency, that it was some type of glitch?
    Mr. Horowitz. Correct, right.
    Mr. DeSantis. Well, look, this is the most damning one of 
all.
    Mr. Horowitz. Correct.
    Mr. DeSantis. I guess theoretically possible it could be 
the glitch, but I need an explanation for that.
    Now, the 16th of August, the infamous insurance policy text 
message. They have a scenario thrown out in Andrew McCabe's 
office that Trump can't win. Strzok says: No, no, no. We can't 
take that risk. We need an insurance policy.
    Their explanation: Oh, we don't really know. We don't 
remember the meeting.
    I mean, was it persuasive or credible how they explained 
that text message?
    Mr. Horowitz. It wasn't persuasive to us.
    Mr. DeSantis. It was total not at all. And so here's the 
thing that I get with the insurance policy. If the 
investigation was validly predicated in the Trump's campaign, 
who the hell cares whether he was going to win or not? If it is 
an investigation, you should want to do it. This tells me that 
they're saying: Well, heck, if the guy may win, then we have to 
do this.
    Peter Strzok, the same guy who said, ``We'll stop him,'' 
who opened this up on the 31st of July based off some errant 
comment in a bar. This stinks to high heaven.
    Let me ask you this: The three other FBI agents who you're 
not naming you said because they're involved in 
counterintelligence, correct?
    Mr. Horowitz. Not me. The FBI has asked they not be named.
    Mr. DeSantis. Why did we get Peter Strzok's name, though. 
That's what I don't understand.
    Mr. Horowitz. So what we do is, when we prepared the 
report, we do an analysis under the Privacy Act Federal law, 
and our determination was that because of his--the level he was 
at at the agency, Deputy Assistant Director, the Privacy Act 
balance weighed against him, and we would make it public. As to 
the others, they're lower down.
    Mr. DeSantis. Okay.
    Mr. Horowitz. And the balance went the other way.
    Mr. DeSantis. Two of the three had worked for Mueller?
    Mr. Horowitz. That's my understanding.
    Mr. DeSantis. Do they still work for Mueller?
    Mr. Horowitz. My understanding is no.
    Mr. DeSantis. So did they get removed because of bias?
    Mr. Horowitz. I believe at least one of them--and I can 
double-check this--was removed after we alerted again the 
special counsel to the text messages. It may have been both of 
them, but I think it was one.
    Mr. DeSantis. Is it fair to say that your investigation 
identified a culture of leaking in the FBI?
    Mr. Horowitz. That's precisely what we say here and is a 
very big concern.
    Mr. DeSantis. Okay. Let me ask you about the Clinton-Lynch 
tarmac meeting. Is that plane monitored in any way, either 
audio or visual monitoring, Lynch's plane?
    Mr. Horowitz. I don't believe there's audio monitoring.
    Mr. DeSantis. You were never given any type of document 
that memorialized any conversation between the two?
    Mr. Horowitz. No, not at all.
    Mr. DeSantis. And what was your report's view of Lynch's 
explanation for the meeting? I know it was about a 20-minute 
meeting. She said it was about grandkids. Could you fill up--I 
don't think she has grandkids. So what did you think? How did 
you guys view that?
    Mr. Horowitz. I think we laid out there what the 
explanation was from former Attorney General Lynch, President 
Clinton, that was the sum total of the evidence that we had, 
and they both explained, and we detailed here what they said 
occurred during the during the meeting, and that is the basis 
for our evidence at this point.
    Mr. DeSantis. Comey in his statements to you guys said that 
there was, you know, they were grappling with the Hillary 
stuff; there's no evidence of willfulness. But was there any 
doubt that Hillary intended to create a separate server? I 
mean, that was done willfully, correct?
    Mr. Horowitz. Yes, that was never the question.
    Mr. DeSantis. So the question is, if you take a willful 
action, and there are certain consequences that are reasonably 
foreseeable--I mean, there's certainly aspects of the law where 
you would be held liable for that. So you're setting up a 
parallel system knowing you're going to conduct the main 
business of Secretary of State, one of the most sensitive 
positions in our government. The idea that Comey's like, ``Oh, 
there was just no willfulness here,'' I didn't really find his 
explanation credible. I know you guys have looked at it, but I 
just wanted to put that on the record.
    I'm out of time. So I yield back.
    Chairman Gowdy. The gentleman yields back.
    The gentlelady from the Virgin Islands is recognized, Ms. 
Plaskett.
    Ms. Plaskett. Thank you very much.
    Thank you, Mr. Horowitz, for being here.
    I have--since, you know, I'm further down in seniority I 
have the ability to now ask you some questions trying to 
clarify what my other colleagues were discussing with you.
    In your discussion with Mr. Meadows, there was a question 
that the texts sent between Mr. Strzok and Ms. Page discussed 
the White House running this. You said you assumed that this 
text was not referring to the Clinton email matter and that you 
assumed it referred to the Russian investigation. I just want 
to clear up, do you actually know who the text was referring 
to?
    Mr. Horowitz. I'm sorry. The particular----
    Ms. Plaskett. The text that says the White House is running 
this.
    Mr. Horowitz. No, my understanding just the general 
reference to the White House. I don't know if there was a 
particular person.
    Ms. Plaskett. And if it was to discuss the Russia 
investigation, it is not the Russia collusion investigation by 
the special counsel; it is referring to the Russia election 
interference investigation, right?
    Mr. Horowitz. Correct.
    Ms. Plaskett. We have so many investigations here. Let's 
keep them in line. Now also in your discussion with Mr. 
Meadows, there would seem to be some logical analogy that was 
made, and as an attorney, you know, that's one of thing that we 
look at is the logical inferences, and I wasn't sure if it was 
necessarily correct. The discussion was that if you have a 
person who has a disproportionate bias in their personal, that 
you also then have to look at their disproportionate amount of 
decisionmaking in determining how that. Is that necessarily how 
one determines if their bias, in fact, affects the outcome?
    Mr. Horowitz. I had understood it as that they would have a 
disproportionate, given their role, impact on decisions that 
were made.
    Ms. Plaskett. Okay.
    Mr. Horowitz. And that may be----
    Ms. Plaskett. And that is if their personal bias then bled 
into their work, as well, correct?
    Mr. Horowitz. Correct, and I think that--I think in terms 
of answering, it wasn't, was there disproportionate--did they, 
in fact, cause an impact, but rather, given their role, did 
they have a disproportionate----
    Ms. Plaskett. So the disproportionate bias of Page and 
Strzok in terms of their bias against now President Trump, was 
that disproportionate in size to their decisionmaking?
    Mr. Horowitz. I wouldn't know. You know, as I said earlier, 
I don't have precisely which decisions they made over this 
period of time.
    Ms. Plaskett. Let's move on to someone else who may have 
had a bias. My former boss, Director Comey, was a Republican, 
was he not?
    Mr. Horowitz. I have read that. I don't know at the time 
whether he was.
    Ms. Plaskett. I worked with him in a Republican 
administration----
    Mr. Horowitz. --I've heard also he changed his 
registration----
    Ms. Plaskett. --appointed by----
    Mr. Horowitz. --I just I don't know----
    Ms. Plaskett. So I worked with him in a Republican 
administration when he was the Deputy Attorney General of the 
Justice Department. Would his bias as a Republican and him 
being the decision-maker have affected why he decided not to 
leak or not to discuss the Russia investigation itself?
    Mr. Horowitz. Our concern about what Mr. Strzok did, what 
Ms. Page does, wasn't based on their political affiliation, 
but, rather, on the text messages, so whether Mr. Comey----
    Ms. Plaskett. Did you know their political affiliation?
    Mr. Horowitz. I do not know their political affiliation.
    Ms. Plaskett. But we know the affiliation of Mr. Comey, but 
we're not going to count that against him?
    Mr. Horowitz. I think you have every right to register with 
whichever political party or none at all, and that----
    Ms. Plaskett. Sure, because we are still a democracy, are 
we not?
    Mr. Horowitz. Correct.
    Ms. Plaskett. But listening to my colleagues, it would seem 
that if anyone has a personal opinion about someone, that it 
should automatically exclude them from working in the FBI or 
working any place else and that justice should not be blind 
anymore.
    Mr. Horowitz. I don't think, and I don't think I have 
suggested, that your personal opinion prohibits you from 
working in the FBI or the Justice Department. The concern here 
are the text messages that they exchanged about people they 
were looking at.
    Ms. Plaskett. Sure, because bias--I mean, before the 
election, many of my colleagues had a bias against Trump, but 
it appears now that he is the chief executive, that they have 
all fallen right in line and follow right behind whatever he 
says, even though many of them made public statements against 
him and against some of the opinions that he had before he 
became President.
    In your investigation, you said you looked at 1.2 million 
documents, correct?
    Mr. Horowitz. Correct.
    Ms. Plaskett. And in those documents, which are now being 
subpoenaed by Chairman Gowdy as well as Chairman Goodlatte, on 
the documents for investigation on the FBI's handling of 
Secretary Clinton's emails, have you had access to all of the 
documents that the Justice Department has subpoenaed but 
haven't received? Isn't that correct?
    Mr. Horowitz. That the Justice Department--you mean the 
Congress has subpoenaed? Right.
    Ms. Plaskett. Subpoenaed, correct.
    Mr. Horowitz. Yes, we have had access to all the records--
--
    Ms. Plaskett. And your office was able to review those 
documents and any other documents that's needed as part of your 
investigation for this report?
    Mr. Horowitz. Correct.
    Ms. Plaskett. And your report concluded, and I quote: We 
found no evidence that the conclusions by the Department 
prosecutors were affected by bias or other improper 
considerations. Rather, we determined that they were based on 
the prosecutor's assessment of the facts, the law, and past 
Department practices. Correct?
    Mr. Horowitz. Correct.
    Ms. Plaskett. And so I just want you to be careful because 
now that you have not followed the conclusion that the 
Republicans would like you to, you may, in fact, be up for a 
special counsel investigation yourself.
    And I yield back.
    Chairman Gowdy. On that sobering note, Inspector General 
Horowitz, we will now go to the gentleman from North Carolina, 
Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    If I could take just a moment, I would like to say thank 
you for your leadership. You have been the voice of justice, 
not just for today but for more than 7 years. I have no doubt 
that you will continue to be a warrior against injustice and 
for the underprivileged, and I am proud to have served with you 
and call you my friend.
    Mr. Horowitz, you previously testified that, during the 
investigation, you found additional texts between Agents Strzok 
and Page on FBI devices which the FBI had not analyzed, 
including texts about meeting in Andy's office. I'm assuming 
that wasn't Andy Griffith, Andy Cohen, or Andy Rooney. The 
closeness of referring to Andy bothers me a little bit because 
evidently it says there may have been some relationships. Of 
course, according to your words, according to your report 
somebody denies--which one denies that meeting happened? Is it 
former FBI Director Andrew McCabe or is it Peter Strzok?
    Mr. Horowitz. I think the denial is that Mr. McCabe says he 
does not recall being present for that meeting.
    Mr. Walker. He doesn't recall being present for that 
meeting. Have we investigated that further? Have you referred 
that to be investigated further because that's a pivotal point 
in all of this as far as what was said, who was involved in 
these meetings, whether there was intent, or whether there was 
bias.
    Mr. Horowitz. I think we have investigated, frankly, as far 
as we can take it and could find evidence to see whether he was 
present, and, you know, we have laid out here what we found 
ultimately.
    Mr. Walker. Does it concern you that the FBI did not 
further investigate this issue of these discovered text 
messages? Seems like it raises larger questions with some of 
the behavior at the FBI. Does that offend you, bother you?
    Mr. Horowitz. What has concerned us is that the FBI has 
this imperfect system of collecting records, has known that for 
some time, and needs to get it fixed. Frankly, once we started 
looking at these text messages, we were going to be the ones 
who kept digging to get them, so I didn't expect at that point 
the FBI----
    Mr. Walker. Fair enough. Because of Strzok's actions--I 
have a question, can you with certainty express that the 
Hillary Clinton investigation was without bias or interference?
    Mr. Horowitz. I cannot speak to every single decision that 
was made he might have been involved in. So I can't speak to 
that broader point.
    Mr. Walker. So you're not saying that there wasn't bias. It 
appears that you are saying that bias may have existed in all 
of this but not to the place that you could prove that it 
influenced the investigations.
    Mr. Horowitz. Where we looked on the decisions we looked at 
and the prosecutor's decision, we made the finding we felt we 
could make.
    Mr. Walker. Do you understand why the American people are 
having some trouble with all of this when you begin to talk 
about, well, there's biased behavior, but is it a subject of 
call to where that bias level may have reached whether it 
influenced--the amount of time that Peter Strzok spent as the 
lead investigator, do you understand why the American people 
would be upset at least the appearance of all of this?
    Mr. Horowitz. Absolutely, and I'm upset at all of this. I 
think it is precisely why it cast a cloud over the 
investigation. It undermines confidence in it. All of those 
impacts are very serious and very significant on a very 
important FBI investigation. That should never happen, and it 
happened because of these text messages and what these 
employees were doing. It should not have occurred, period.
    Mr. Walker. Thank you, and it is one of the reasons that 
you're respected on both sides of the aisle. I do remember--in 
fact, it might have been my question or another member on the 
House Oversight Committee--that when asked of former Director 
James Comey as far as why not to bring charges, I believe his 
response that no reasonable prosecutor would bring charges. As 
good as the job that you are doing, my question to you would 
be, is there any room that if there was other investigations or 
if there was other inspections, if you will, would people--do 
you feel like do you agree with James Comey on your conclusion 
that this would be the same conclusion or is there room that 
other people, other investigators might find different 
conclusions?
    Mr. Horowitz. You know, I think, as you have seen in 
commentary about the findings and the report, what we try to 
lay out: This was the policy. This is how they reached the 
decision. And others are free to disagree with that.
    Mr. Walker. When it comes to the number of FBI employees 
who were in contacts with the journalists, was it the FBI 
employee or the reporter who seemed to initiate contacts that 
resulted in this back-and-forth conversation, or did they seem 
like long-term relationships?
    Mr. Horowitz. Some of them, based on what we have, you 
know, seen, did not seem like--well, let me just, looking at 
the charts here, you can see these are not, generally speaking, 
one call, so I would leave it at that. We are looking at that 
deeper question.
    Mr. Walker. When you say you're looking at it, does that 
mean it may warrant more investigations for some of those who 
have been players in this situation?
    Mr. Horowitz. There are active investigations ongoing by 
our office.
    Mr. Walker. Thank you, Mr. Chairman. I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    The gentleman from Rhode Island is recognized.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin by lamenting the fact that we are not 
having Judiciary oversight hearings to address this barbaric 
child separation policy. I just came back from Brownsville, 
Texas, and McAllen. It is despicable what is happening in our 
name. We're not having bills to address dozens of ideas to 
reduce gun violence in this country. We're not marking up the 
Dream Act. We're not marking up legislation to protect the 
special counsel or to protect our elections from foreign 
interference. But, alas, we're having another hearing on the 
Clinton emails.
    So let me just start, Mr. Horowitz, with a basic question. 
Your investigation was to focus on the investigation of Hillary 
Clinton's emails, correct?
    Mr. Horowitz. Correct.
    Mr. Cicilline. And was part of your investigation to 
examine whether the Trump campaign colluded with the Russians?
    Mr. Horowitz. That was not part of this investigation.
    Mr. Cicilline. Did you investigate or make findings about 
collusive behavior between the Trump campaign and the Russians?
    Mr. Horowitz. The only matter we touched on with Russia was 
that October matter----
    Mr. Cicilline. I take it that's a no. Was part of your 
investigation to review whether the President of the United 
States obstructed justice during the course of the special 
counsel's investigation?
    Mr. Horowitz. We looked at the Clinton email investigation.
    Mr. Cicilline. That's yes or no. Was that part of your 
investigation?
    Mr. Horowitz. It was not.
    Mr. Cicilline. Okay. And you didn't make any investigation 
or findings related to the President's potential obstruction of 
justice. Is that correct?
    Mr. Horowitz. It had nothing to do with this investigation.
    Mr. Cicilline. Okay. So the President's claim that your 
report makes clear that he is completely exonerated--there's no 
obstruction of justice and no evidence of collusion--is a lie 
or at least unsupported by your report?
    Mr. Horowitz. Our report focused on the Clinton email 
investigation----
    Mr. Cicilline. Does your report in any way support the 
President's claim that he is completely exonerated, there's no 
evidence of collusion, no evidence of obstruction of justice? 
The answer is no.
    Mr. Horowitz. Our investigation focused on the Clinton 
email investigation.
    Mr. Cicilline. And so your report does not contain any 
findings, not a single one in 500 pages that would support the 
President's claim that your report, authored by you, exonerates 
him fully and presents evidence of no collusion and no 
obstruction of justice. Isn't that correct?
    Mr. Horowitz. I'm going focus on our report, and there are 
individuals----
    Mr. Cicilline. Mr. Horowitz, the truth matters. Can you say 
in open--I'll finish my question. I get to ask the questions. 
Will you admit in open session that your report does not 
support the claim from the President of the United States that 
he is completely exonerated, that there's no evidence of 
collusion between his campaign and the Russians and that 
there's no evidence of obstruction of justice? Your report does 
not investigate or make findings on those issues at all, does 
it?
    Mr. Horowitz. We do not make findings on those.
    Mr. Cicilline. Okay. So that would mean that's not a 
truthful statement. I'm not asking you to say that. I know it 
is hard for you to do that. It is the President; I get it. But 
it is important that the American people know that the 500 
pages that you dedicated your career to developing with 
professionals does not support any such claim by the President. 
I'm not asking you for an answer. That's a statement.
    Mr. Horowitz. Yeah.
    Mr. Cicilline. Let me go next, Mr. Horowitz, to your--the 
part of your investigation that focuses on--you may have heard 
the President and many of his allies make numerous statements 
about your report that were designed to make the American 
people believe the opposite of what is obvious from your 
report's findings, that the FBI's actions had an impact on the 
2000 Presidential election and in Donald Trump's favor. Your 
report found no evidence that the FBI or DOJ's conclusions in 
the investigation of Secretary Clinton's emails were 
politically motivated, and your report found that Director 
Comey violated Department of Justice policies by speaking 
publicly about Secretary Clinton's closed case in July of 2006 
and by disclosing the reopening of the investigation in October 
of 2016. Isn't that correct?
    Mr. Horowitz. Certainly the latter part, I----
    Mr. Cicilline. That it violated Department policy?
    Mr. Horowitz. Yes. The earlier part I was----
    Mr. Cicilline. Okay. And your report discusses why the 
Justice Department and the FBI have a policy and practice of 
refusing to speak publicly about ongoing investigative 
activity. It explains the stay silent principle exists to 
protect the privacy and reputational interests of the subjects 
of the investigation and also the Department's ability to 
effectively administer justice without political or undue 
outside influence, correct?
    Mr. Horowitz. Correct.
    Mr. Cicilline. Would you agree that the FBI--when the FBI 
speaks publicly about an ongoing case, it risks harming the 
subject's reputational interest?
    Mr. Horowitz. Correct.
    Mr. Cicilline. In this case, that subject of potential harm 
was Hillary Clinton.
    Mr. Horowitz. Correct.
    Mr. Cicilline. Your report, Mr. Horowitz, also has a 
subsection entitled ``Avoiding the Perception that the FBI 
Concealed the New Information to Help Clinton Win the 
Election.'' In that section, Director Comey says his decision 
to disclose the investigation reopening was to avoid, quote, 
corrosive doubt that you had engineered a cover up to protect a 
particular candidate. Your report found, however, that Director 
Comey, quote--and this is your words--did not assess risks 
even-handedly. In weighing his actions, did Director Comey ever 
express fear that his notification to Congress would tip the 
scales or at least appear to tip the scales against Hillary 
Clinton in favor of Donald Trump?
    Mr. Horowitz. I don't recall him saying that to us as sort 
of one of his explanations.
    Mr. Cicilline. But Director Comey was afraid that if he 
stayed silent about the reopening of the case, that he would 
unfairly be accused of helping Hillary Clinton. Isn't that 
correct?
    Mr. Horowitz. That was one of the concerns he expressed.
    Mr. Cicilline. And so, sir, when the President said, when 
he praised Director Comey's actions when he made that 
disclosure and said, ``It took guts for Director Comey to make 
the move that he made,'' end quote, what he did was the right 
thing, Chairman Goodlatte said he was very appreciative that 
Director Comey had the courage to step forward and our very own 
Chairman Gowdy went on to FOX News and stated Director Comey 
did the right thing in supplementing his testimony. Isn't it 
true, Mr. Horowitz, just to reiterate, your report concludes 
Director Comey's October 26 notification to Congress was not 
the right thing?
    Mr. Horowitz. Yes, on October 28, correct.
    Mr. Cicilline. So I hope the Justice Department and the FBI 
learned their lesson from your report and do not cave to the 
ongoing bullying of President Trump and his allies in Congress. 
Instead, they must once again uphold longstanding principles 
and the rule of law, even while facing the onslaught of unfair 
political attacks. We expect nothing less of you.
    And, with that, I yield back.
    Chairman Gowdy. The gentleman yields back. Since my name 
was invoked, before we go to the gentleman from Texas, I would 
just point out that we don't live in a binary world. You can 
notify Congress without writing a letter that is publicly 
disseminated. You have other options, including notifying 
Congress in a confidential manner.
    With that, the former United States attorney from Texas Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman.
    Inspector Horowitz, in your report and now in your 
testimony, you said that you are deeply troubled and very 
concerned that the anti-Trump bias reflected in the Strzok-Page 
text messages was so great as to have possibly impacted Peter 
Strzok's conduct about in the Weiner laptop part of the Hillary 
Clinton investigation. Is that fair?
    Mr. Horowitz. Correct.
    Mr. Ratcliffe. So, if the Department of Justice and the 
FBI's own inspector general is very concerned and deeply 
troubled about Peter Strzok's anti-Trump bias affecting his 
actions as an FBI agent, is it unreasonable for President Trump 
as the subject of an investigation to likewise be very 
concerned and deeply troubled that Mr. Strzok was put in charge 
of the Trump Russia investigation?
    Mr. Horowitz. You know, I'm going to step back on that, 
Congressman, and speak to the broader point that that's 
precisely why we were concerned, generally speaking, about the 
election review, that those kind of messages create that 
appearance of bias that undercuts credibility and the ability 
to do investigation. I can't speak to----
    Mr. Ratcliffe. I'm not asking you to make any findings 
about the Trump Russia matter. I'm asking you about the people 
that you investigated in your report, people whose actions you 
found so deeply troubling and very concerning. I just want to 
find out if you think it is unreasonable for the President to 
feel the same way you do.
    Mr. Horowitz. My concern on that is, as you know, we're 
currently reviewing that, and I want to be careful. I don't 
want to be myself seen as prejudging any outcomes here. So I'm 
going to let folks draw----
    Mr. Ratcliffe. Again, I'm not----
    Mr. Horowitz. --what they want to draw from this, but I 
don't want to be seen as making any judgments on that.
    Mr. Ratcliffe. Well, do you think it is unreasonable for 
President Trump to be very concerned or deeply troubled, as you 
were, that 8 days after Peter Strzok was put in charge of the 
Trump Russia investigation, that he promised another FBI 
employee, Lisa Page, that Trump would never be President 
because he would stop it?
    Mr. Horowitz. I think any individual in this country should 
be concerned about that kind of language.
    Mr. Ratcliffe. And the reason you're concerned about that, 
Inspector General, I think is because you have said numerous 
times here that Strzok's stated bias and stated willingness to 
act on that bias are antithetical to the core values of the 
FBI, correct?
    Mr. Horowitz. Right.
    Mr. Ratcliffe. Another thing that is antithetical to the 
FBI and the Department of Justice and our entire justice system 
is putting people in charge of investigating people they hate, 
of people that they are biased against and that they are 
prejudiced against, right?
    Mr. Horowitz. Correct.
    Mr. Ratcliffe. And we don't do that in our justice system. 
We can't do that in our justice system, a system where the 
bedrock principle has to be the fair and impartial 
administration of justice, free from bias and prejudice, right?
    Mr. Horowitz. Correct.
    Mr. Ratcliffe. So I think the point that you're making and 
that I agree with is that anyone--you, me, any member of 
Congress, any American--who becomes the subject of an 
investigation should not be investigated by people who have 
sent hundreds of hateful text messages about them before the 
investigation ever began and then continued to send them while 
the investigation was occurring. That is, by definition, 
prejudicial to the fair and impartial administration of 
justice, isn't it?
    Mr. Horowitz. I think that is precisely the concern.
    Mr. Ratcliffe. And yet that is exactly what happened to 
President Trump. Now, to your credit, Inspector Horowitz, you 
revealed the astonishing level, the outrageous level of bias 
and prejudice, and when you did, Special Counsel Mueller 
removed Peter Strzok from the case, but you and I are former 
prosecutors, and you and I both know that it is impossible to 
remove bias and prejudice from all of the actions taken, all of 
the decisions made, all of the investigative plans implemented, 
all of the evidence gathered by Peter Strzok and at least two 
other Trump-hating FBI agents and lawyers who were assigned to 
the investigation. That's pretty hard to do, isn't it?
    Mr. Horowitz. Well, that is precisely the question, as you 
know, we're looking at.
    Mr. Ratcliffe. So my colleagues over there just keep 
pointing out that your report doesn't state any conclusions 
about the Trump Russia investigation, and they're right. The 
report doesn't state any conclusions, but your findings of 
fact, your findings of fact about the people in charge of the 
Trump Russia investigation in the case of Peter Strzok, for 9 
months, the person in charge of the investigation, well, that 
leads to all sorts of undeniable conclusions about pervasive 
bias and prejudice against President Trump by the people who 
never, ever should have been in charge of gathering evidence 
against him.
    Let me switch topics in the remaining 20 seconds I have. 
Did Jim Comey make the decision not to prosecute Hillary 
Clinton before or after her July 2, 2016, interview?
    Chairman Gowdy. I'm going to let you answer the question 
even though the gentleman from Texas grossly misjudged the 
amount of time he does not have left anymore. It is actually 20 
seconds over, rather than under, but you can answer the 
question.
    Mr. Horowitz. As we laid out here and described here, prior 
to the July 2nd interview, absent, as we were told, either a 
confession or a false statements, the decision had been made to 
close the investigation.
    Mr. Ratcliffe. So the fact that Director Comey testified 
under oath to Members of Congress, in response to a question 
about whether or not the decision was made before or after, 
unequivocally stated after, do you think it is reasonable for 
Members of Congress to think that they were misled by that 
answer?
    Mr. Horowitz. I probably would have to look at the 
transcript. As you know, so much of that turns on the precise 
question and answer so----
    Mr. Ratcliffe. So can I take that as a promise to look at 
that?
    Mr. Horowitz. I'll take a look at the question and answer, 
and then we can talk further, Congressman, about that.
    Mr. Ratcliffe. Thank you, Inspector Horowitz. I appreciate 
your work.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Maryland is recognized.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you, Mr. Horowitz, for being here, and I want to 
commend you and your team for a very thorough report. You have 
taken extreme care to make sure you don't jump to conclusions. 
You've indicated where the lines are between judgment acting in 
accordance with various protocols and norms and rules of the 
Department and so forth. You have indicated that the bias that 
you have identified did not affect or contaminate the 
investigative decisions that were being made at the highest 
levels, which is important.
    When you focus on Jim Comey and his conduct, you point to 
issues of compliance with Department guidelines and norms and 
standards that you think are very important. I think that's 
valid. I think it is also important to observe that that 
doesn't in any way get to the question of the credibility or 
truthfulness of an individual. You can say this person is not 
adhering to what we think is a departmental standard. That 
doesn't go to whether they're being truthful to their basic 
credibility and so forth. If I didn't comply with a rule on how 
much time I'm supposed to take here in asking you a question 
and then I went out in the hall and I saw someone knock someone 
else over and run down the hall and I wanted to testify to 
that, you wouldn't say, ``I'm not going to believe you because 
you didn't follow the clock when you were in the hearing.'' And 
that's important because it may be that Jim Comey down the line 
becomes a witness in various contexts, and there's nothing in 
your report that I see, and I think you said this in response 
to Congressman Cohen, that would suggest that you have any 
reason to think that he has lied, that he misled you, that he 
was not truthful in the course of your conducting this 
investigation. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Sarbanes. Now, I wanted to move to the question of--as 
I step away from this, and I sort of don't consider particular 
individuals but look at the standards you're articulating for 
what's a good investigation and how to carry it out, you have 
identified a variety of things: First of all, follow the rules 
that exist. Be consistent in following those; that's one of the 
major concerns you had in terms of the process for taking 
certain decisions on investigations. So be consistent. Follow 
the rules. Another thing you have talked about is the 
importance of there not being leaks, and you have identified 
some issues with that at the FBI, but that is also--that goes 
to the overall legitimacy of an investigation, that there not 
be leaks. You have talked about the issue of bias, and I assume 
that your expectation would be that a good investigation would 
be one where, if there's evidence of bias in a way that could 
affect the investigation, that steps need to be taken to 
address that bias.
    Mr. Horowitz. Correct. Or the appearance potentially.
    Mr. Sarbanes. Or the appearance of bias. So stepping away 
from that and thinking about those kinds of standards on how an 
investigation should proceed, you've actually left me in a 
position of being--having a lot of confidence in the way Bob 
Mueller is conducting his investigation because, if you take 
those standards that you are highlighting and you apply them to 
how he and his team are conducting themselves, he passes with 
flying colors. Where there's been evidence of bias, he has 
taken steps.
    In fact, you acknowledge that Ms. Page, Mr. Strzok are not 
part of that team anymore because he took quick action when 
there was evidence of bias or even the appearance of bias. 
There's no suggestion that there have been improper leaks from 
this investigation. And by all accounts, both Bob Mueller and 
Rod Rosenstein are following to the T the rules and standards 
that ought to apply to the investigation.
    So I want to thank you and your team for describing a set 
of standards for how to conduct an investigation because I 
think when you take that set of standards and you apply it to 
the way Bob Mueller is conducting his investigation, you can 
see that he is doing it in a diligent and conscientious way as 
a straight arrow, and that's why I think we need to support 
that investigation.
    With that, I yield back.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Georgia is recognized.
    Mr. Hice. Thank you, Mr. Chairman.
    And thank you, Mr. Horowitz, for being here.
    In late September of 2016, the FBI came into possession of 
the Anthony Weiner laptop, which contained hundreds of 
thousands of potentially emails related to the Clinton 
investigation.
    My first question, would you say that this discovery was 
rapidly communicated with the Midterm Clinton investigation 
team and the FBI, or was it slow-walked?
    Mr. Horowitz. The New York office promptly reported it to 
the Midyear Clinton investigation team.
    Mr. Hice. Okay. And when did Peter Strzok, of course, who 
was leading the Clinton investigation, when did he--when was he 
made aware of the laptop?
    Mr. Horowitz. On September 28.
    Mr. Hice. All right. So the next day or close within days. 
All right. So this is the same Peter Strzok has come up in 
multiple ways, repeatedly bashed President, well, candidate 
Trump at that time, and then committed to stop him from 
becoming President.
    Now, from Strzok's--from the perspective of his superiors, 
Bill Priestap, for example, was he at this time committed to 
the Clinton investigation, or was his focus more on the Russian 
investigation?
    Mr. Horowitz. At the time of September 28th and -9th, Mr. 
Strzok was working on the Russia investigation. And his 
supervisor was working, not just on that but as you might 
expect, as Assistant Director of Counterintelligence, a wide 
variety of matters as we lay out here.
    Mr. Hice. Right. On page 297 of your report, Priestap said 
that the Weiner laptop was not his top priority at this time 
due to his involvement in the Russia investigation. You said 
that Priestap himself said that: I don't want to say 
distracted, but, yeah, my focus wasn't on the Midyear anymore. 
And Strzok himself was assigned to both the Russia and Clinton 
investigations at this point, but he was still the lead in the 
Clinton investigation.
    So it is fair to say, by your report, that the superiors 
were distracted at this time. They were not focused on the 
Midyear investigation but on the Russia investigation?
    Mr. Horowitz. Correct. And to be clear, for Mr. Priestap, 
he was also talking about the election interference issues more 
broadly than just what has now come to be known as the Russia 
investigation.
    Mr. Hice. Which adds to the whole scenario that he was 
distracted; his focus was not on the Clinton investigation 
anymore. So here we go back to Strzok. He is presented now with 
a choice. He receives the information from the discovery of the 
Weiner laptop, hundreds of thousands of emails, potentially 
damaging and at least related to the Clinton investigation. He 
has a choice now to either follow up on the leads from that 
laptop and report them in a timely manner, or knowing that his 
superiors are distracted, he can conveniently place this laptop 
discovery on the back burner. And so how long did it take 
Strzok and the Midyear team to finally get around to the 
laptop?
    Mr. Horowitz. So there was activity the next day, September 
29, and then there was some discussions back and forth up 
through October 3 or 4, and then no activity whatsoever until 
the New York field office again raised a concern on October 21 
ultimately--or around October 21--ultimately resulting in a 
call on October 21 from the U.S. Attorney's Office from the 
Southern District of New York to the Deputy Attorney General's 
Office inquiring about why there's been no activity.
    Mr. Hice. So Strzok was taking this slow. I mean, he was 
not--he did not report it in a timely manner and pursue this 
thing. It was only after the New York group pushed it that he--
that Strzok got on board and said we've got to do something 
about this
    Mr. Horowitz. Strzok and others, yes.
    Mr. Hice. All right. But that's the timeline in all of 
this.
    And so, I mean, from every appearance, he did everything he 
could to prevent this discovery from becoming public because it 
may hurt the Clinton campaign. And you, yourself, stated that 
you could not with any confidence say that Strzok's political 
bias did not lead him to delay looking at the laptop. Do you 
still stand by that?
    Mr. Horowitz. Yes.
    Mr. Hice. Okay. So this is where the whole cycle comes back 
to me, where every appearance and action by Strzok at this 
point is that his political bias did, in fact, prevent him from 
bringing forth this information, because it may hurt the 
Clinton campaign.
    And this is precisely, really, one of the big things that 
to me is just the elephant in the room where there not only was 
political bias, but action based on that bias to protect one 
individual over the other, Clinton over Trump. And this is the 
same Strzok who is leading the Russian investigation, which, of 
course, is the foundation of the Mueller special counsel. So 
tremendous concern here.
    Again, I thank you for being here.
    And, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman yields back.
    Inspector General Horowitz, how about we take a 10-minute 
break, recess, and then reconvene?
    Mr. Horowitz. Whatever is good for the committee.
    Chairman Gowdy. That suits you, 10 minutes?
    Mr. Horowitz. It suits me.
    Chairman Gowdy. In 10 minutes we'll reconvene.
    [recess.]
    Chairman Gowdy. The committee will come to order.
    The gentlewoman from Michigan is recognized.
    Mrs. Lawrence. Hello? Are the mikes on? Hello?
    Can I reclaim my time, sir?
    Chairman Gowdy. You've lost no time.
    Mrs. Lawrence. Mr. Chairman, I want to thank you.
    It's concerning to me that we've spent almost 5 hours here 
of this esteemed body which I am a Member of to discuss tapes 
of Hillary Clinton when we know that we have a humanitarian 
issue happening in our country that we need to resolve.
    But with that being said, President Trump fired Director 
Comey on May 9, 2017, and on May 10, 2017, Chairman Jason 
Chaffetz sent a letter to you, sir, asking that you investigate 
the decision to fire James Comey. Did you receive that letter?
    Mr. Horowitz. I did.
    Mrs. Lawrence. You separately stated that if circumstances 
warranted, the OGI will consider including other issues that 
may arise during the course of the review and the 
recommendation to remove Comey, indeed, warranted some 
consideration. Am I correct, sir, you said that?
    Mr. Horowitz. Yeah. If circumstances warranted, we would 
expand----
    Mrs. Lawrence. My question to you is, did you expand the 
scope of your review into the 2016 election to encompass the 
firing of Director Comey?
    Mr. Horowitz. We did not.
    Mrs. Lawrence. Why didn't you?
    Mr. Horowitz. For similar reasons to what I mentioned 
earlier, which is my understanding that it may be the subject 
of an ongoing special counsel review, that there wasn't a 
reason for us to make a determination at that point in time----
    Mrs. Lawrence. Did someone direct you not to?
    Mr. Horowitz. Nobody directed us not to.
    Mrs. Lawrence. Is your office currently investigating the 
firing of Director Comey?
    Mr. Horowitz. We have not announced any review regarding 
that.
    Mrs. Lawrence. I didn't say announcement. Are you currently 
investigating?
    Mr. Horowitz. As I said a minute ago, if there is a basis 
for us to look at it, we will assess and look at it. But my 
understanding is that it is something that the special counsel 
is reviewing, and if----
    Mrs. Lawrence. And that's your sole decision to make?
    Mr. Horowitz. It is my sole decision to make.
    Mrs. Lawrence. Have you encountered any attempts to 
interfere with, obstruct, or curtail that investigation?
    Mr. Horowitz. Zero, of my own investigations. This 
investigation or other work, we've had no interference at all.
    Mrs. Lawrence. Has any entity or individual denied you 
witnesses or documents that you have requested as a part of 
your investigation that you have presented to us?
    Mr. Horowitz. We got access to everything. And as we note 
here, two witnesses did not agree to voluntarily be interviewed 
by us, and we had no ability to compel them.
    Mrs. Lawrence. Is there--and I will ask you again--is there 
a role that your office will play in the investigation that 
does not interfere with Special Counsel Mueller's probe?
    We have multiple investigations that have happened with the 
Hillary Clinton emails. Why are you making that sole decision 
that because there is one investigation that you will not 
investigate the firing of FBI agent Comey?
    Mr. Horowitz. As a general matter, Congresswoman, and it's 
not unique to this matter, as a general matter, when there are 
ongoing Justice Department investigations, FBI, others, we 
understand that we don't want to be in the middle of an ongoing 
investigation. And we defer and wait until the conclusion of 
that to assess whether there's something for us to review.
    And the special counsel, as does the deputy attorney 
general and others, understand that under the IG Act, if they 
see misconduct by Justice Department officials, they're 
obligated to notify us of that.
    Mrs. Lawrence. So you are stating on the record now that 
there will be no investigation from your office, based on your 
sole decision, of the firing of Director Comey?
    Mr. Horowitz. I'm not saying that. I'm saying we have not 
made a decision with regard to the request we received as to 
whether we should or should not do that.
    Mrs. Lawrence. So how long will that process take for you 
to make a decision?
    Mr. Horowitz. In all likelihood, until we understand that 
there is no other investigation going on of that within the 
Justice Department, we would wait until that point in time. And 
obviously, that----
    Mrs. Lawrence. I would like to ask a question. Repeatedly 
we've heard about the possible obstruction of the election of 
our current President. And last time I checked, even though the 
crowd numbers don't match his statements, he is the President 
of the United States.
    So we are investigating whether a person's personal opinion 
is one that is conduct that we are finding to be, as far as 
employment, because it was a government phone, is that the 
issue that is the core of this, the fact that someone does not 
support a certain political candidate?
    Mr. Horowitz. It has nothing--from my standpoint and our 
findings, it has nothing to do with that.
    Mrs. Lawrence. Well, that's been brought up multiple times 
today, that you said because of the email where he said that 
we'll stop that.
    Mr. Horowitz. My point being it doesn't matter who he's 
trying to stop. What I've said repeatedly is I don't care 
whether he was trying to stop the local election, the 
Presidential election, or any candidate. An FBI agent cannot 
take a position or state like that that they would consider 
using their official action to affect any candidates.
    Mrs. Lawrence. I agree with that, but I do not want a 
slippery slope that this President is immune to anyone not 
agreeing with him. And I've heard that repeatedly today as if 
it's a capital crime because someone did not agree or support.
    But I do support what you're saying, in the role of an FBI 
agent, that we do not expect that. And I want to be clear, this 
is a democracy still and we still have freedom of speech.
    Thank you.
    Chairman Gowdy. The gentlelady yields back.
    The gentlelady from the State of North Carolina is 
recognized.
    Ms. Foxx. Thank you, Mr. Chairman. I would like to yield my 
5 minutes to you.
    Chairman Gowdy. I thank the gentlelady.
    Inspector General Horowitz, I want to go back for a couple 
minutes on the issue of intent. Am I correct, is that your 
understanding from what Jim Comey said, that the missing 
element was some element of intent that he was reading into the 
statute?
    Mr. Horowitz. That's what he said. I think what the 
prosecutors were looking at was knowledge and----
    Chairman Gowdy. Knowledge of the wrongfulness of her 
conduct or knowledge that her arrangement with herself may have 
allowed classified information to traverse her server?
    Mr. Horowitz. Knowledge that classified information 
actually did transit through her server----
    Chairman Gowdy. All right.
    Mr. Horowitz. --as of the absence of markings.
    Chairman Gowdy. Well, the questions I have for you are 
equally applicable whether the missing intent is knowledge or 
intent.
    Can you think of a better way to determine what an actor 
knew than to ask the actor what he or she knew? Am I missing 
some better repository of evidence than to actually interview 
the target or the suspect yourself?
    Mr. Horowitz. I would say there could be instances where 
there would be better evidence, like contemporaneous 
recordings, as opposed to the interview where the person might 
not be candid. But you clearly would want to----
    Chairman Gowdy. I'm not aware of those in this case.
    Mr. Horowitz. Correct.
    Chairman Gowdy. But perhaps you know something I do not.
    Mr. Horowitz. No, I'm not. But I'm just saying you asked 
hypothetically is there a better way to get evidence of 
someone's state of mind about the----
    Chairman Gowdy. Given the evidentiary restrictions in this 
case, can you think of any better way to resolve that issue of 
knowledge than to actually interview the target herself?
    Mr. Horowitz. No. I think you would want to interview the 
target herself.
    Chairman Gowdy. All right.
    And what would you ask the target? You were a highly 
decorated Federal prosecutor from one of the most prestigious 
districts in the country. What would you ask the defendant if 
you were trying to determine whether or not that person, that 
suspect, had knowledge?
    Mr. Horowitz. Well, you'd certainly want to start at the 
beginning, which is, why did the server come to be set up, what 
was the rationale behind it, what did you understand it would 
be used for, questions like that, because so much of it would 
be focused on what the intent, rationale, thinking was behind 
creating your own separate server or domain name from the 
outset.
    Chairman Gowdy. If multiple explanations have been given in 
the past on that very issue, would you ask the suspect or the 
target to reconcile those different explanations?
    Mr. Horowitz. Presumably, you would ask the subject during 
the interview in any area where there might be differing 
reports of testimony or recollections.
    Chairman Gowdy. If there had been false exculpatory 
statements made in connection with the fact pattern, would you 
ask the target or the suspect to explain those false 
exculpatory statements?
    Mr. Horowitz. I think if you were interviewing any witness 
you would want to ask them about information that was out there 
that would suggest there was a false exculpatory.
    Chairman Gowdy. When I use the phrase ``consciousness of 
wrongdoing,'' what does that mean to you?
    Mr. Horowitz. That means you have an awareness, perhaps 
unstated, that the conduct that you've engaged in is wrongful 
in some way.
    Chairman Gowdy. What about concealment?
    Mr. Horowitz. Well, that can mean, I guess, different 
things, depending upon the nature of the concealment. It can be 
active. It can be passive at some level. But it's keeping 
something from somebody else. And, you know, we have a concern 
here about concealment on what happened in connection with July 
5th.
    Chairman Gowdy. How about the destruction of evidence?
    Mr. Horowitz. Again, that can be personal or it can be 
knowing that someone else is going to do it, but it is 
obviously destroying evidence or information that has 
evidentiary value.
    Chairman Gowdy. I guess what I'm kind of struggling with a 
little bit, I was actually asked over the weekend whether or 
not I think she should have been charged. I can't answer that 
question because I don't think she was interviewed properly. 
And it's very difficult to go back and conduct a proper 
interview after one has already been botched.
    Did you see all of the questions that you and I just went 
over in the 302? Were all of those asked of her during that 
July interview?
    Mr. Horowitz. I think one of the concerns that's been 
raised is that, a 302 only being a summary of what was said, 
that there isn't a transcript or other more definitive report 
on precisely all the questions and answers.
    So we have a summary, and that's what we're working off of, 
that. It's an extensive summary, but it's still not a 
transcript.
    Chairman Gowdy. Well, given the fact that you and I agree 
that actually talking to the witness, the suspect, the target 
might be, absent a contemporaneous recording, some of the 
better evidence on knowledge and intent, how in the hell was 
Jim Comey able to draft an exoneration press release 6 weeks 
before that interview took place?
    Mr. Horowitz. You know, I think it's clear from looking at 
what we uncovered that by that point in time they had largely 
concluded what they had concluded. And if you----
    Chairman Gowdy. But my question is, if what you're missing 
was knowledge and/or intent and the single best repository for 
that evidence is the person you've yet to talk to, how in the 
hell can you make that conclusion?
    Mr. Horowitz. I think--I'll give you what the answer was 
that we got back, which was: Of course we kept open the 
possibility that we would find some evidence that would change 
that view. That was the explanation we were given.
    Chairman Gowdy. If that were true, did you find drafts of 
inculpatory press releases?
    Mr. Horowitz. We did not.
    Chairman Gowdy. You found no memos or drafts where he had 
decided to charge her?
    Mr. Horowitz. That's correct. We were told, by the way, by 
the prosecutors, as you see here, that they did not draft 
anything until after the interview, precisely because they 
wanted to wait before making a final judgment for the 
interview.
    Chairman Gowdy. Isn't that what we normally do, wait until 
the last interview is----
    Mr. Horowitz. Correct.
    Chairman Gowdy. This is my last question I'll have for you. 
Back when you did trial work, do you remember the judge ever 
admonishing the jury that you are not to make up your mind 
until the last witness has testified and the last piece of 
evidence has been introduced? Do you remember a jury ever being 
told that by a judge?
    Mr. Horowitz. Not only do I remember that as a prosecutor, 
but I actually served on a jury last year. So I remember that 
from the judge's instruction.
    Chairman Gowdy. It's kind of one of the basic precepts of 
our justice system, is that you wait until it's over before you 
draw a conclusion. And I am just dumbfounded that Director 
Comey would draft a press release and cite the missing element 
when the single best repository of potential evidence on that 
element had yet to be talked to. I just--I find that stunning.
    But I'm also stunningly out of time, so I'll go to the 
gentleman from Florida, Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    And from the Amazon jungles to the streets of Shalimar, 
Florida, I've had a chance to observe the patriotic service of 
many frontline FBI agents, and I'm in violent agreement with 
Director Wray that the information in your report does not in 
any way impugn the incredible work that they do.
    Refresh my recollection. We know who Lisa Page is, she sent 
all these bad text messages about Donald Trump, but we don't 
know who FBI Agents 1 through 5 are. Why the disparate 
treatment?
    Mr. Horowitz. So when we write up our report, we apply 
Privacy Act and other laws to decide who we can--whose name we 
can disclose and whose name, on balance, we think as a legal 
matter we can't. That's why you see some names in here and some 
names anonymized. We have the request from the committee.
    As I mentioned, we sought to get approval from the FBI to 
send that information forward. They----
    Mr. Gaetz. What's the reason the FBI gave you as to why we 
couldn't learn who FBI Agents 1 through 5 are?
    Mr. Horowitz. They mentioned a couple of reasons, but the 
primary reason was that because those individuals--two of them 
were agents, one's a lawyer--work on counterintelligence 
matters, they had a security and safety----
    Mr. Gaetz. Peter Strzok worked on counterintelligence 
matters, and we know who he is.
    Mr. Horowitz. That's correct.
    Mr. Gaetz. Why the disparate treatment?
    Mr. Horowitz. I'm just telling you what was reported to us. 
And, you know, as----
    Mr. Gaetz. Who's Attorney Number 2?
    Mr. Horowitz. I'd have to think about who that is, but I, 
again, I'd want to make sure that what I was saying wasn't 
putting someone in jeopardy or at risk.
    Mr. Gaetz. What was the reason the FBI gave for not telling 
us who Attorney Number 2 is?
    Mr. Horowitz. The same reason, that that individual works 
on counterintelligence matters and safety and security reasons 
as well as some other reasons.
    Mr. Gaetz. What were they? I want to obtain the full 
universe of reasons. Because, you know, I feel as though 
sunshine, transparency will be the way to root out this bias 
that we seem to see reflected.
    Are you familiar with the resistance movement in this 
country?
    Mr. Horowitz. I am familiar with it from looking at some of 
these text messages, but I am not personally familiar----
    Mr. Gaetz. What's your general understanding of what that 
movement is?
    Mr. Horowitz. I just could tell you what it says here. 
Somehow, you know, resist what's going on in the country in 
terms of the government, governance. I have no real personal 
knowledge of----
    Mr. Gaetz. Does it mean resist Donald Trump, resist his 
Presidency?
    Mr. Horowitz. That's my understanding certainly as it was 
played out here.
    Mr. Gaetz. So you've got Peter Strzok, who goes from the 
Hillary Clinton email investigation to the FBI Trump-Russia 
investigation to the Mueller probe. You've got Lisa Page, who 
goes from the Hillary Clinton email investigation to the FBI 
Russia investigation to the Mueller probe. And then you have 
Attorney Number 2, who similarly goes from the Hillary Clinton 
email investigation to the Trump-Russia investigation to the 
Mueller probe.
    It seems like a very bizarre coincidence that the way 
people tended to end up on the Mueller probe was some 
association with Hillary Clinton, whether it was the people I 
just identified or whether it was Andrew Weissman, who attended 
Hillary Clinton's election night party, or whether it was 
Jeannie Rhee, who had defended the Clinton Foundation in FOIA 
defenses.
    It seems so bizarre that the people you would go and 
accumulate to prosecute the President of the United States and 
investigate him would be so intertangled with these fact 
patterns regarding Hillary Clinton. Does that strike you as 
odd?
    Mr. Horowitz. I don't know if it strikes me as odd other 
than I know it, as to the three individuals you mentioned, 
occurred.
    Mr. Gaetz. Is that usual, for someone who's like directly 
tied to one element of a fact pattern to then migrate over to 
these other investigations?
    Mr. Horowitz. It's an excellent point, Congressman. We 
actually make that here as well, that from a management matter, 
having done corruption cases, you wouldn't put someone who just 
investigated an individual on one side to go investigate the 
other person.
    Mr. Gaetz. Who made those staffing decisions?
    Mr. Horowitz. It would have been the leadership of the FBI.
    Mr. Gaetz. So it would have been James Comey, who's been 
fired. It would have been Andrew McCabe, who has been referred 
for criminal prosecution as a consequence of your good work.
    Attorney Number 2 says ``viva le resistance'' while 
actively investigating President Trump. Is that right?
    Mr. Horowitz. That's my understanding.
    Mr. Gaetz. And does it trouble you that someone who is 
tasked with investigating the President was associating himself 
with a resistance movement against the very same President?
    Mr. Horowitz. I'll say what I said earlier. I don't care 
who that person was investigating, that person should not be 
making comments about an individual or related to a person 
they're investigating or the FBI is working on.
    Mr. Gaetz. It will be totally unacceptable to my 
constituents to say that there was a person who went from the 
Hillary Clinton email investigation to the Trump-Russia 
investigation to the Mueller probe who identified himself and 
who you identified as the lead FBI lawyer on the Mueller probe 
and we don't get to know who that person is. Associating with 
the resistance, going after the President after this totally 
botched Hillary Clinton email investigation that you've 
appropriately highlighted.
    In this country, we cannot live in a world where unelected 
people at the FBI get to shelter someone who I believe was 
actively working against the President and actively associating 
and identifying with a movement that is intended to frustrate 
everything that this President is trying to do.
    So I hope we get that information, Mr. Chairman, and I 
yield back.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Oklahoma is recognized.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, Inspector General Horowitz, not only for 
your long patience today, but for your professionalism on so 
many levels.
    One of the things that I think the facts seem to bear out 
from this hearing today, that there was bias by key 
investigators collecting evidence; their investigative evidence 
was provided then to prosecutors; these prosecutors, based on 
that evidence, acted accordingly, without any bias of their 
own, in coming to their conclusions.
    Is it possible that prosecutors can be misled by biased 
investigators who guide or withhold evidence?
    Mr. Horowitz. It's certainly a possibility that, you know, 
something like that could happen. I don't--we didn't--in the 
evidence we reviewed, we didn't see that here, but certainly--
--
    Mr. Russell. Well, given the actions of the investigators 
expressing bias, which was very detailed in the report, and the 
statements and draft statements of the Director months before 
the investigation was complete, do you think it possible they 
already had an outcome in mind?
    Mr. Horowitz. Well, I think clearly they had an--that the 
FBI, through Director Comey, had an outcome in mind, given the 
drafting starting in early May.
    Mr. Russell. And while prosecutors were found to be 
unbiased in their conclusions, did that same conclusion exist 
with those making investigative decisions whose evidence would 
ultimately be provided to the prosecutors?
    Mr. Horowitz. Well, Director Comey obviously heading up the 
FBI and his folks, we lay out here that they believed by early 
May that, absent confession, some unusual event or discovery of 
evidence they didn't anticipate or false statements, that they 
thought this was heading towards a declination.
    Mr. Russell. I guess that, you know, that's the concern 
that the American people have, is the investigation was not 
even closed, that we have the Bureau, the Justice Department, 
in fact, in your own reports, and I quote: ``We were 
particularly concerned about the text messages sent by Strzok 
and Page that potentially indicated or created the appearance 
that investigative decisions they made were impacted by bias or 
improper considerations.''
    Along that same vein, quote: ``We did not have confidence 
that Strzok's decision to prioritize the Russia investigation 
over following up on the Midyear-related investigative lead 
discovered on the Weiner laptop was free from bias.''
    And then a last one to highlight here: ``It is not only 
indicative of a biased state of mind but, even more seriously, 
implies a willingness to take official action to impact the 
Presidential candidate's electoral prospects.'' And then you 
highlight that this is antithetical to the core values of the 
FBI and the Justice Department, and I think that's true.
    In your report you discuss also that Mr. Comey was 
concerned about a classified issue specific to Lynch and that 
there are questions that many of us have related to these 
issues that arose in March 2016 that alleged bias or attempts 
by Attorney General Lynch to impede the Midyear investigations, 
and that some of that information suggests, or could, that 
Comey may have also been attempting to influence the 
investigation.
    Your report says that you detail perhaps some answers to 
some of these questions and others in a classified appendix. 
When will you provide the committees copies of the classified 
index?
    Mr. Horowitz. So that classified appendix was classified by 
the intelligence community. We don't do that. It ended up--
we're not the classifiers. They classified it at such a high 
level, some of the information, that it made it impossible to 
make it available to the Members as we wanted to. Only certain 
Members would have been able to see it.
    We have gone back to the intelligence agencies and said: 
Please let us know what is the material that gets us to this 
level so we can bring it down to a level where everybody can 
look at it. We just got a report back from some of the intel 
agencies today. We're hoping--or last night--we're hoping to 
get the rest of it in the next few days.
    I've raised this with the deputy attorney general's office, 
that we need this changed, you need to see it. It's important 
for the Congress to see it. And we're going to work hard to get 
that.
    Mr. Russell. Absolutely. And can the House hold a copy in 
our secure SCIF----
    Mr. Horowitz. That's exactly what I'm working to----
    Mr. Russell. --an unredacted copy?
    Mr. Horowitz. Right. That's exactly what I'm working to 
get.
    Mr. Russell. Because we've been through this rodeo before. 
And I've gone down to the tank and I've read redacted things, 
and then had members, high-placed members of our Bureau and 
Justice Department say, well, this is because of Freedom of 
Information Act redactions, as if that were a grounds to 
withhold information from Congress.
    Which agency in specific? Is it the CIA that's making the 
determination that members of committees are not authorized to 
view the classified index?
    Mr. Horowitz. My understanding is it's--speaking with the 
ODNI, the Office of Director of National Intelligence, and the 
CIA, that they're working through these issues with the FBI.
    Mr. Russell. Well, I thank you for that, Inspector General, 
and thank you for your great work. And we will be right there 
backing you up, that Oversight and Judiciary Committees, with 
obvious jurisdiction, need, for the sake of the American 
people, to see what it is that they are concealing. And we 
await those answers.
    And thank you, Mr. Chairman. I yield back my time.
    Chairman Gowdy. The gentleman from Oklahoma yields back.
    The gentleman from Louisiana is recognized.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    Mr. Horowitz, thank you for your time today and your 
dedicated work. I'm going to speak fast.
    18 U.S.C. Section 793(f) reads in relevant part, as you 
know: Whoever, being entrusted with or having lawful possession 
or control of any document or writing relating to the national 
defense, through gross negligence permits the same to be 
removed from its proper place of custody or delivered to anyone 
in violation of his trust, shall be fined under this title or 
imprisoned for not more than 10 years or both.
    Isn't it true that Director Comey's initial draft 
statement, which he shared with FBI senior leadership, 
criticized Clinton's handling of classified information as, 
quote, ``grossly negligent''?
    Mr. Horowitz. That's correct.
    Mr. Johnson of Louisiana. And according to your report, 
Lisa Page is identified as the person who raised concerns about 
the term ``gross negligence'' in that draft statement, and it 
was later replaced with the phrase, quote, ``extremely 
careless.'' Is that right?
    Mr. Horowitz. That's correct.
    Mr. Johnson of Louisiana. Isn't it true that ``gross 
negligence'' is a legal term with criminal implications, while 
``extremely careless'' is a subjective term with no criminal 
implications?
    Mr. Horowitz. Correct.
    Mr. Johnson of Louisiana. I want to pick up on what 
Chairman Gowdy asked you a few moments ago. You've said a 
couple times today the focus in this particular investigation 
was on actual knowledge. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Johnson of Louisiana. The problem I have and the real 
question here is that that's not a standard of focus or an 
interpretation that's provided in the express language of the 
operative statute. Isn't that right?
    Mr. Horowitz. That is correct. And when I say this 
investigation, it obviously means the Department's Midyear 
investigation, not our review.
    Mr. Johnson of Louisiana. Right. And so the Department used 
this application of the statute, there's no express language in 
the statute to give them that authority. The question is, where 
did that come from? By what authority did these investigators 
unilaterally decide to employ an actual knowledge standard in 
interpreting the statute?
    Mr. Horowitz. Well, as we looked at their--at the written 
evidence, the documents, and then interviewing the prosecutors, 
they describe their rationale for interpreting the statute that 
way as both a legal consideration, because of concerns over 
whether a prosecution would be upheld if it was successful, and 
their belief that, based on the legislative history of the 
statute, it required something more than gross--pure gross 
negligence, and the statute's absence of a definition of gross 
negligence.
    Mr. Johnson of Louisiana. And was there any precedent, 
specific precedent for them to do that?
    Mr. Horowitz. They were relying on prior Department 
precedents. In other words, how the Department they believed 
interpreted the statute over time.
    Mr. Johnson of Louisiana. Let me move on.
    Of course, everyone in America now knows the sordid history 
and the infamous text messages between FBI agents Peter Strzok 
and Lisa Page, including the August 8, 2016, exchange where 
Strzok assured Ms. Page that they would, quote, stop the 
election of Donald Trump.
    Isn't it reasonable to conclude that criminal charges 
brought against Mr. Trump's opponent, Hillary Clinton, would 
hurt her campaign and thus potentially help Donald Trump to be 
elected?
    Mr. Horowitz. I think that's probably a given I might have 
to think a little bit about.
    Mr. Johnson of Louisiana. A matter of common sense, right? 
And wouldn't it--and wouldn't that outcome be the opposite of 
what Strzok promised his paramour in those text messages that 
we've all seen now?
    Mr. Horowitz. I guess so, though, frankly, I haven't 
stepped back and thought about and, frankly, haven't focused on 
what the implications of it ultimately could be as it played 
out. Just sort of as it was, it was problematic.
    Mr. Johnson of Louisiana. Well, the American people have, 
and many Americans would logically conclude that this political 
bias directly affected specific investigative decisions and 
judgment calls. But we'll disagree about that.
    I'm running out of time. I want to get to something that's 
very personal for you.
    By all accounts, you're an American patriot. You're an 
esteemed and trusted public servant. We thank you for that 
service.
    Let me ask you this personal question. Is the American 
people's trust in our justice system and the people's faith in 
our institutions important to you as an individual?
    Mr. Horowitz. Absolutely.
    Mr. Johnson of Louisiana. And do you believe those things 
are important to our Republic as a whole?
    Mr. Horowitz. Yes.
    Mr. Johnson of Louisiana. In your important role at DOJ, do 
you believe you have a personal duty to help guard the 
integrity of and maintain the people's faith in our 
institutions?
    Mr. Horowitz. Yes.
    Mr. Johnson of Louisiana. Let me ask you this very 
important question then, based on that. If your report had 
concluded that the evidence showed that improper 
considerations, including political bias of FBI agents, did 
directly affect specific investigative decisions, do you think 
that would have risked eroding the American people's trust in 
our justice system and the people's faith in our institutions?
    Mr. Horowitz. It could have had I guess even--it could have 
had a greater impact. I think this has an impact, standing 
alone.
    Mr. Johnson of Louisiana. But Does it--would you agree that 
it stands to reason that a man in your position might be 
tempted to rationalize a report that political bias did not 
affect the Clinton investigation as somehow serving the greater 
good of not completely undermining the country's faith in our 
FBI?
    Mr. Horowitz. Look, I look at this evidence and my team 
looks at this evidence based on our judgments, our best 
judgments on this. We don't pull our punches because of 
concerns over how it'll seem or appear. I think anybody who 
tells me that having just completed an investigation where I 
called the former FBI Director insubordinate and issued a 
report about the deputy director lying under oath, I don't 
think anybody can accuse us of pulling our punches on that.
    Mr. Johnson of Louisiana. Could you at least see--I'm out 
of time--could you at least see how reasonable people might 
reach a different conclusion, though?
    Mr. Horowitz. As I said in my opening, Congressman, the 
purpose of laying out this in 500-plus pages is precisely so 
the American public, who are the people who I serve, we all 
serve, can make their own judgments. And people will agree or 
disagree. We've done our best to put our judgment on it. I 
would just assure everybody we didn't pull any punches on it.
    Mr. Johnson of Louisiana. I appreciate your service.
    I yield back.
    Chairman Gowdy. The gentleman from Louisiana yields back.
    The gentleman from Virginia is recognized.
    Mr. Connolly. I thank the chair.
    What a long day, Mr. Horowitz. Thank you for your patience.
    You know, following up on the gentleman from Louisiana's 
style of questioning as well as content, would it be fair to 
conclude by the American people that a hearing such as this is 
designed to discredit an ongoing investigation, criminal 
investigation by the special counsel, Robert Mueller, and using 
your report to do that? Might that be something?
    Mr. Horowitz. I'm not going to speculate----
    Mr. Connolly. Of course, you're not.
    Mr. Horowitz. --on anybody's intent.
    Mr. Connolly. Of course, you're not. But that kind of 
leading question deserves a leading question in return.
    One suspects, sitting here, that we're up to no good. Two 
committees with a big hearing to try to prove that there was 
such unbelievable bias within the FBI, political bias, that it 
taints everything they're doing.
    And I look at your conclusion. You say there are many 
lessons to be learned from the Department and the FBI's 
handling of the Midyear investigation, but among the most 
important is the need to respect the institutions' hierarchy 
and structure and to follow established policies, procedures, 
and norms even in the highest profile and most challenging 
investigations. Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Connolly. Is it established policy, Mr. Horowitz, DOJ 
policy, to disband an investigation, an ongoing investigation, 
because, say, somebody's personal lawyer says it's an 
investigation that will be cleared up with a pardon?
    Mr. Horowitz. No policy in the Department.
    Mr. Connolly. There's no such policy?
    Mr. Horowitz. Correct.
    Mr. Connolly. In fact, that would be bad policy, would it 
not?
    Mr. Horowitz. That would not be good policy.
    Mr. Connolly. Is it established Department of Justice 
policy to disband an investigation because, let's say, the 
subject or one of the potential subjects of the investigation 
calls it a witch hunt?
    Mr. Horowitz. I think, as the Director said yesterday 
during our Senate hearing, that that decision is made solely by 
the FBI.
    Mr. Connolly. Is it established Department of Justice 
policy to disband an ongoing criminal investigation because a 
high-level government official says it's time to wrap it up?
    Mr. Horowitz. Not unless it's someone who has authority 
over it and has made that conclusion that it's reasonable, 
based on the facts and the law.
    Mr. Connolly. So I take your report to basically say we 
have to return to a normal process and allow investigations to 
work their will, but we can't infect them with bias.
    I thought I read in your report, despite hours of hearings 
here, with 76 Members, I thought your report concluded that in 
the conclusion with respect to Secretary Clinton's emails you 
did not detect any evidence of the effect of bias in that 
conclusion?
    Mr. Horowitz. On the conclusion of the prosecutors on 
whether or not to charge.
    Mr. Connolly. Right. Right. So despite all this Sturm und 
Drang, there's no evidence that a bias influenced that 
conclusion.
    Mr. Horowitz. The prosecutor's conclusion, correct.
    Mr. Connolly. Hmm. By the way, I remember Mr. Nadler a 
little earlier asking about the--because we're hearing so much 
about two particular FBI agents who favored, apparently, 
Hillary Clinton or at least did not like Mr. Trump--a lot of us 
join in that sentiment--but are you aware of any FBI agents 
who, in fact, loved Mr. Trump and didn't like Mrs. Clinton?
    Mr. Horowitz. We looked at the team that worked on this 
investigation and the Clinton email investigation and we 
reported what we found in terms of biased texts.
    Mr. Connolly. Did anyone ever refer you to, say, the New 
York field office of the FBI?
    Mr. Horowitz. There were comments made by the FBI general 
counsel about his understanding of the view of agents in the 
New York field office.
    Mr. Connolly. My time is almost up. There are a lot of 
people who believe the New York office had profound bias that 
was anti-Clinton that actually influenced Mr. Comey's thinking.
    I just wish the fervor shown here was reflected in our 
willingness to look objectively at other needs for 
investigation, especially with respect to Cabinet members in 
the current administration. I believe we now have over 50 
subpoena requests in my committee to the chairman, none of 
which have been issued. I wish we had in-depth hearings with 
respect to potential corruption and ethical lapses by members 
of the Cabinet, but we haven't done that.
    But we are going to spend a joint committee hearing, full 
committee, looking in the past at something that's already been 
adjudicated.
    I want to thank you, Mr. Horowitz, and your colleagues for 
a fine piece of professional work, and I hope it doesn't get 
distorted through this process.
    I yield back.
    Chairman Gowdy. The gentleman from Virginia yields back.
    The gentleman from Wisconsin is recognized.
    Mr. Grothman.Okay. We've already spent a lot of time on Mr. 
Strzok and Ms. Page, but they have obviously said things that 
you would consider that they had a strong bias towards Ms. 
Clinton becoming President, correct?
    Mr. Horowitz. We were concerned about their biased 
statements, yes.
    Mr. Grothman. Oh, and by the way, if something happens or 
they make decisions that favor Ms. Clinton and they have talked 
about bias towards Ms. Clinton, you will not say that it has 
necessarily affected their decision, correct? You will give 
them the benefit of the doubt in your paper?
    Mr. Horowitz. I don't know if it's right to say we give 
them the benefit of the doubt as opposed to we would go and 
look for the evidence to see if we could find evidence of bias.
    Mr. Grothman. Okay. But if they make a decision that 
happens to favor Ms. Clinton or happens to hurt Mr. Trump, you 
do not by itself say that's an indication of bias?
    Mr. Horowitz. Well, I would say that with regard to the 
October decision to not prioritize the Weiner laptop and 
prioritize the Russia investigation, we reached the 
determination we were concerned that it could have evidenced 
bias.
    Mr. Grothman.Okay. Now, there were five other people that 
you mentioned specifically in the report that apparently said 
things that would indicate they either did not like Mr.--they 
did not like Mr. Trump, correct?
    Mr. Horowitz. Three others plus the two of them. Five 
total.
    Mr. Grothman. So a total of five. Did you find anybody else 
in any of the emails you looked at throughout the 
investigation, even minor bit players, that would indicate 
political bias?
    Mr. Horowitz. You know, we saw in various messages sort of 
discussions that are--that were tangential, in our view, to the 
events. And so I can't sit here and I have to check to see 
which side everybody was on and who they spoke about, but 
nothing that we thought connected in any way----
    Mr. Grothman. Okay. But there were other comments on the 
election?
    Mr. Horowitz. There's going to be people making comments.
    Mr. Grothman. Comments. Of course, they're going to make 
comments.
    Mr. Horowitz. So that's--I'm just hesitant to say----
    Mr. Grothman. It would seem to me in this environment it 
would stick in your mind if anybody happened to make a comment 
indicating they wanted President Trump to win. Do you ever 
remember any comments like that from any of these emails?
    Mr. Horowitz. I don't remember anything as I sit here.
    Mr. Grothman. Okay. Several of these people were involved 
in more than one investigation, which kind of concerns me. Was 
it a coincidence that people who had an anti-Trump bias wound 
up in two separate investigations or three separate 
investigations?
    Mr. Horowitz. Well, what we describe here is the decision 
was made in July after the Clinton investigation was closed in 
Director Comey's announcement and the Attorney General's 
announcement when the Russia matter opened to take some of 
those same members and put them on that next investigation, 
which we state is from a management standpoint something we 
would be--thought was a concerning decision.
    Mr. Grothman. Was it a coincidence, though, they happened 
to be Clinton partisans? I guess that's my concern. Of all 
these seas of FBI people, and we're told they're so 
professional, is it a coincidence that people who have so 
brazenly expressed anti-Trump sentiment would wind up on these 
two key political investigations?
    Mr. Horowitz. Well, just keep in mind these texts aren't 
discovered until 2017 when we start our review. So----
    Mr. Grothman. Right. I understand that. But would you think 
it was--it hits me as unusual, given the huge volume of work 
the FBI has to do, that these clearly anti-Trump people wound 
up on these two politically charged investigations. No?
    Mr. Horowitz. I don't know exactly how they ended up on the 
other investigation--other than Mr. Strzok was at the time the 
deputy assistant director of counterintelligence. So----
    Mr. Grothman. Are you investigating the Russian 
investigation?
    Mr. Horowitz. We are now looking at, in light of the 
referrals we've had over the last several months, the question 
about the FISA issues that were referred to us as well as the 
campaign-related questions that have been referred to us.
    Mr. Grothman. Okay. But you're not prepared yet to talk 
about any information on political bias?
    Mr. Horowitz. No. It would certainly be premature. We're 
still investigating it, for the very reasons that people have 
expressed concern about the--you know, the----
    Mr. Grothman. I'll give you a broader question, which 
involves not just this investigation but the whole what we'll 
call the swamp. I don't mean this to be a partisan thing, 
because this was an unusual Presidential election. It wasn't 
really a Republican versus Democrat election, it was kind of a 
swamp versus nonswamp, because a lot of the Republicans I don't 
think wanted Mr. Trump to win either, because they were kind of 
wedded to the swamp.
    When I look at the voting results in the District of 
Columbia and surrounding areas, I see--I think the whole 
country in general was about half Clinton, half Trump. But you 
look at Montgomery County, 19 percent Trump; Alexandria County, 
17 percent; Arlington County, 16 percent; Prince George's 
County, 8 percent; District of Columbia, 4 percent.
    We're living in an area here which is just so out of whack 
with the rest of the country, you know, so right across the 
board that it's hard to believe.
    Are we in a situation here in which not just with regard to 
the FBI, but other Federal agencies as well, we have to worry 
that political bias may creep into decision making?
    And my constituents are worried, IRS, EPA, everything, that 
if it's known that they are supporters or people who want to 
reduce the swamp, that these agencies may come after them. Is 
this a--should be an overriding concern of people living in 
this rather unusual area here?
    Chairman Gowdy. The gentleman is out of time, but you may 
answer the question.
    Mr. Horowitz. I mentioned, Congressman, I think what's so 
concerning about this and these texts is because it creates 
that appearance and, rightfully so, that concern. You know, the 
Justice Department and the FBI has offices in every part of 
this country. Some parts of the country have voting records one 
way, some have the other way.
    When you show up in an office and you work for the Justice 
Department, you work for the FBI, it doesn't matter whether 
you're in a red State, a blue State, a purple State, a red 
district, a green district, it should have zero bearing. You 
walk in that door, if you can't be a professional and walk in 
that door and do your job, you got to get a different job. 
That's what it's all about.
    And I've seen commentators write about this, and I had a 
colleague in Southern District of New York who's written about 
this. We went to the office, and I didn't know what my 
colleagues' political views were. I just knew they cared about 
investigating the heck out of the case. And if someone deserved 
to be charged, they were charged; and if someone deserved to be 
convicted, they brought the case to the courtroom to see if 
they could--to see what the jury would decide.
    And that's what the Justice Department's about. And if you 
can't walk in the door and leave your views behind, you got to 
get a different job.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Arizona is recognized.
    Mr. Biggs. Thank you, Mr. Chairman.
    It was reported that on May 15 you completed a draft of the 
report that we're discussing today and then you circulated all 
of it or portions of it to various individuals: Mr. Comey, 
McCabe, Loretta Lynch, Lisa Page, Peter Strzok. Were there 
others that received portions of that draft?
    Mr. Horowitz. So individuals who provided voluntary 
testimony whose conduct is critiqued in here, as a matter of 
fairness--and we do this in every single review we do. We 
changed no practices here. We give them a chance to come in, as 
a matter of fairness, to tell us if they think we got it wrong 
or to give us additional evidence if they think we missed 
something. And that's what we do.
    Mr. Biggs. Right. So I appreciate that. You testified to 
that earlier today. So I'm wondering did you give it to anyone 
else other than those people I just named?
    Mr. Horowitz. We--yes.
    Mr. Biggs. Okay.
    Mr. Horowitz. So any--the individuals in here who you see 
whose conduct was critiqued, we would give it to them and, as a 
matter of course--every IG does this--you give it to the 
Department and the----
    Mr. Biggs. Sure. And that would be like--so you gave it 
to--and I don't mean to interrupt, but we only have 5 minutes. 
I've been waiting for hours. You've been very good here being 
many hours, but you've got to at least talk and I haven't got 
to do that until just now, and I live to talk.
    So I guess what I'm asking is, did you give it to 
Prosecutor 1, Agent 1? They all got it, right?
    Mr. Horowitz. Yes.
    Mr. Biggs. So did they respond?
    Mr. Horowitz. Some did, some didn't.
    Mr. Biggs. Okay. And I guess my question at this point is, 
we've sent you a letter asking for copies of the original 
draft, any alterations made, edits, red lines. And I hope that 
we can get that from you.
    I want to go to--is there a chance we're going to get any 
of that information from you?
    Mr. Horowitz. What I'd like to do is, as we normally do and 
I like to do, is engage with you and----
    Mr. Biggs. Perfect.
    Mr. Horowitz. --the committee about it. I understand the 
concern. I want to talk it through with you and the other 
Members who signed the letter and the chairs and the ranking 
member and have a candid discussion about it.
    Mr. Biggs. Love to do that. We can do that offline.
    Mr. Horowitz. Absolutely.
    Mr. Biggs. Yeah. Great. Thank you.
    So you testified earlier this morning when Mr. Jordan from 
Ohio first questioned you--he took several hits at you. You 
must have felt like a pinata. Don't feel bad.
    Mr. Horowitz. Not at all.
    Mr. Biggs. I get that all the time. That Peter Strzok led 
the Hillary Rodham Clinton--the investigation into her emails. 
Do you remember saying that?
    Mr. Horowitz. Yes.
    Mr. Biggs. Okay. Then on page 148 of your report you 
mentioned the critical roles that both Strzok and Page played 
in most of the decisions made by the FBI, right?
    Mr. Horowitz. Correct.
    Mr. Biggs. Fair statement?
    Mr. Horowitz. Yes.
    Mr. Biggs. And so Lisa Page's duty was she was advising the 
deputy director, Andrew McCabe, legally, and from reading this, 
I get the impression that on a lot more than legal. She's 
giving perhaps even some strategic information and advice, as 
well, and counsel.
    And as you just said, Mr. Strzok, he basically led the 
investigation and he was acting in some ways, through that 
chart of order, he's kind of--he's kind of the liaison between 
all the other analysts and the decision-makers. But he is kind 
of in the decision-maker, because he's always there with the 
decisionmaking body. He's giving inputs. And that's what I want 
to talk about today.
    We're talking about--we've been talking about bias a lot. 
And everybody walks in with bias and you have to be able to set 
it aside. But in this particular thing the output, the output, 
and the way you phrased it, and you've been very careful as 
you've answered today, and in this report you said it didn't--
the bias of these people did not directly affect the outcome. 
But I'm here to suggest to you that inputs affect outcomes. The 
outputs come on.
    So when you have this very notion of these people, for all 
we know, they're filtering information, we don't know anything 
really what's going on in the decisionmaking process, you can't 
recreate it, but we know that there's certain outputs, and 
those outputs point to Hillary Clinton's not going to be 
charged.
    The biases that are reflected by these two people who have 
extraordinary inputs seems to indicate that they could have 
impacted those outputs. Am I wrong on that? I mean, I view what 
you've said here. So what I want to say is, could they have 
indirectly affected the outcome here?
    Mr. Horowitz. It could have, and we don't rule it out. And, 
frankly, I think what you have a right to expect from us is 
this kind of report laying out the facts, so that you and every 
Member and every person in this country can make their own 
assessment.
    Mr. Biggs. Well, I will say in my last minute, in my last 
second, that you've written a report that the other folks that 
disagree with me will say that, see, there was no bias here, 
you know, if there was any bias, it was against Hillary 
Clinton.
    And people on my side look at it and say, you've got people 
working here at the highest levels who appear to have been 
controlling the inputs that are going into the decisionmaking 
process, and that indicates that the ultimate output may, 
indeed, have been biased.
    Thank you. I have no further time.
    Chairman Gowdy. The gentleman from Arizona yields back.
    The gentleman from Florida is recognized.
    Mr. Rutherford. Thank you, Mr. Chairman.
    General, let me paint a little picture of the FBI that I 
knew for many years, and I think most would agree. They are the 
premier law enforcement agency not just in the United States, 
but I think most likely in the world. Would you agree with 
that?
    Mr. Horowitz. I think they're viewed--and I'll say one of, 
because we oversee other law enforcement agencies at the 
Justice Department.
    Mr. Rutherford. Okay. I'll let you off the hook on that 
one.
    But also that Mr. Strzok, who's risen to a very high level 
within that organization, has to be a premier agent within the 
premier agency, the FBI.
    Mr. Horowitz. That's certainly what we were told.
    Mr. Rutherford. Would you agree with that?
    Mr. Horowitz. Yes.
    Mr. Rutherford. And so--and, in fact, I don't know that the 
FBI, at least in the 40 years that I've been in law 
enforcement, ever conducted an investigation that brought the 
integrity of the agency and the investigative process under 
such scrutiny and questioning of the integrity of the agency. 
Would you agree with that?
    Mr. Horowitz. It certainly has brought incredible scrutiny 
and undercut the credibility of the organization in a way that 
is unfair to all these thousands of agents out there.
    Mr. Rutherford. Exactly. I've never seen anything like it. 
And in fact even Agent Strzok, I don't know of anything in his 
past that ever questioned his integrity and his service to the 
FBI or his country. Do you?
    Mr. Horowitz. I'm not aware of anything.
    Mr. Rutherford. So when I look at your report and then you 
outline several investigative and prosecutorial missteps in 
this particular case--and I'll read just a few of them for you. 
This is from Roman numeral I in the summary:
    The preference for consent over compulsory process to 
obtain evidence; decision not to obtain or to seek to review 
certain evidence, such as the personal devices used by 
Secretary Clinton's senior aides; the use of voluntary 
witnesses over these interviews; quote, ``decisions to enter 
into 'Letter Use' or 'Queen for a Day' immunity agreements with 
three witnesses,'' some of which I think might have been 
potential targets as well, had the potential anyway; the use of 
consent agreements and active production immunity to obtain the 
laptops used by Clinton's attorneys, Cheryl Mills and Heather 
Samuelson, to cull her personal and work-related emails; the 
handling of the Clinton interview on July 2; the tarmac 
meeting; the Midyear Exam delay in looking into the Anthony 
Weiner laptop situation; Director Comey's drafting of an 
exoneration letter in May.
    So my question is, when you look at these things in their 
totality--you look at them individually, you may not--you may 
not see much. But you know in a civil rights prosecution, you 
look at patterns or practices, it will overcome any written 
policy that they may be presenting. And all a plaintiff has to 
do is show a pattern or practice to overcome a defense by an 
organization that, you know, we have this policy against, you 
know.
    So when you say that you found political bias but it had no 
effect on the investigation, it seems to negate this pattern or 
practice that clearly existed in this investigation.
    Mr. Horowitz. I just--I want to say we didn't find that it 
didn't have any impact on the investigation. We couldn't 
possibly have looked at all these decisions, as you said, that 
covered all this period of time. What we found was focused on 
the individual investigations.
    And I think what's important for people to understand is 
our responsibility as an inspector general or as inspectors 
general in looking at these issues, not to say this was 
thorough or not thorough or the best choice or not the best 
choice or could have been done more aggressively or not, but 
we're looking at was there misconduct.
    Mr. Rutherford. Let me ask one more question very quickly. 
Have you ever seen a public relations campaign mounted 
surrounding an investigation like we saw here where there's a 
SAC conference so that the agency can pass down information on 
this case so that they can swat down, quote, swat down stories 
about it, and they even briefed retirees. Have you ever seen 
that before?
    Mr. Horowitz. It's a great question, Congressman, actually 
the first in yesterday's hearing and today who's asked about 
that portion of the report. And it doesn't directly affect this 
investigation, but for the reasons you indicated, I think we 
were concerned particularly in the context of when it was 
occurring, which was in October----
    Mr. Rutherford. Correct.
    Mr. Horowitz. --during the campaign.
    And in our view, you look at that and you say, you know 
what, when there's a campaign going on and either side 
commenting on this, the best place for the Justice Department 
to be is on the sidelines. The political debate will be the 
political debate. It might be fair; it might be unfair.
    But when you start doing that and sending out talking 
points across the country you might actually be encouraging 
people--maybe unintentionally, we didn't make an intent finding 
here--but maybe unintentionally encouraging people to, as you 
suggested, get the word out. Well, it may cause other people to 
want to speak who maybe don't agree with the talking points.
    And so that was one of the areas that we had concern about. 
And I appreciate you raising that, Congressman, because I----
    Mr. Rutherford. My time is up. I just can't figure out how 
Peter Strzok is still at the FBI.
    I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Alabama is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Good to see you, General Horowitz. I have a very high 
regard for you. And I think you know that.
    Your report states that various witnesses told you that the 
mishandling of classified information was a persistent practice 
at the State Department. And the State Department is so screwed 
up in the handling of classified information that if they had 
wanted to prosecute Secretary Clinton, that they would have had 
to prosecute 150 State Department people.
    Does that basically invalidate the statute?
    Mr. Horowitz. It doesn't. That's what they told us was one 
of their rationales though for it.
    Mr. Palmer. I don't know if you're going to allow me to do 
this with you, but I want to do this in regard to the statement 
of an insurance policy, okay? It's not in regard to the Russia 
probe. I know that's coming later. But, obviously, Andrew 
McCabe put Peter Strzok in charge of the Russia probe.
    Are you aware that Strzok went to London in July of 2016?
    Mr. Horowitz. I've learned of that through various public 
reports.
    Mr. Palmer. And I think it would be fair to say that McCabe 
approved that trip and approved the expenditures for that?
    Mr. Horowitz. I don't know the answer one way or the other.
    Mr. Palmer. I just wonder what other justification there 
could have been for a trip to London at that particular time 
other than the Russia probe? And what concerns me was that when 
he returned he almost immediately launched that probe. That 
McCabe, I think approved him going to London, he came back and 
he launched it.
    Do you think there's any possibility that Strzok had prior 
knowledge that Christopher Steele was assembling the dossier?
    Mr. Horowitz. You know, that's one of the issues we are--
have been asked to look at, and so we're in the middle of that 
work on how that played out with regard to the FISA 
application.
    Mr. Palmer. And I'm glad that you made that point because I 
think another question I need to ask, was there any possibility 
that the dossier was at least part of Strzok's insurance 
policy? Because that statement came later, I believe.
    Mr. Horowitz. Right. The insurance policy statement came up 
on----
    Mr. Palmer. Well, here is what concerns me about it, is 
that you've got McCabe, whose wife received almost $700,00 in 
campaign contributions from the Clintons. It was almost 40 
percent of her total campaign contributions. And obviously 
there was a very strong relationship. McCabe put Strzok in 
charge of this. He either sent Strzok to London or allowed him 
to go or approved it.
    Do you think that either of them had knowledge that the 
Clinton campaign paid for the dossier?
    Mr. Horowitz. I don't know the answer to that as I sit 
here, but that, you know, is something that is part of the 
review that we're doing. It will be touched on in terms of the 
dossier.
    Mr. Palmer. Well, and I appreciate that. I look forward to 
reading that report. And I understand, you know, what you're 
trying to do.
    But let me ask you this in regard to bias. And I want to be 
maybe the one guy that doesn't go over time today.
    All things being equal, if someone said they thought that 
another inspector general would be more qualified than you to 
do this investigation, I think we'd both agree that there was 
some bias involved there. It might be qualified. It might be 
justified. But there would be some bias there that they 
preferred someone else over you, okay.
    But if that same person called you and your colleagues 
pieces of crap, and that's not what they--the word they used--
or repeatedly referred to you as loathsome or an idiot, awful, 
used the F word in regard to you, referred to your team as 
retarded, crazies, or, as Mrs. Clinton said, deplorables, I 
think that would go beyond bias. I think you might even 
consider that extreme prejudice or maybe even extreme animus.
    Would you agree with that?
    Mr. Horowitz. I think, you know, as we've talked about when 
we----
    Mr. Palmer. I'm just asking this, you know, hypothetically. 
If I were responsible for the job, the assignments you got, and 
I made comments privately like that about you that later became 
public, how would you feel about that?
    Mr. Horowitz. Oh, I think it certainly is evidence of a 
biased state of mind like we----
    Mr. Palmer. But it would indicate that I had made a 
determination that I was going to prevent you from advancing 
your career. I just would ask you, would you have any 
confidence that you would be treated fairly under those 
circumstances?
    Mr. Horowitz. I think I'd have--you'd have reason for 
concern, and it is precisely why this is so problematic.
    Mr. Palmer. And especially if it were persistent, right to 
the very end.
    Mr. Horowitz. That's right.
    Mr. Palmer. Thank you, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from Alabama yields back.
    The gentlelady from Georgia is recognized.
    Mrs. Handel. Thank you, Mr. Chairman.
    Thank you so much, Mr. Horowitz, for being here.
    A January 14, 2016, letter from IG Charles McCullough 
discusses sworn declarations that dozens of Secretary Clinton's 
emails were top secret and special access program levels. This 
information, as you well know, is so sensitive that even for IG 
McCullough he had to get special clearance in order to even see 
them. Treating information like this improperly would almost 
certainly have resulted in serious consequences for just about 
anybody, not in this situation.
    The letter, this letter from IG McCullough, was out well 
before Comey changed the May memo language from, quote, ``gross 
negligence to extremely careless.'' And since we have a lot of 
viewers watching this, and we tend to in this committee, both 
of these committees, be very legalese, could you describe for 
everyone the difference between those two phrases?
    Mr. Horowitz. Well, ``gross negligence'' is a legal term 
found in Section 793. Whereas, ``extremely careless'' is a 
nonlegal term to describe, as used here by former Director 
Comey, to describe what his characterization was of the 
conduct.
    Mrs. Handel. So did I hear you correctly that there's 
really nothing in the U.S. Code that deals with, quote, 
``extreme carelessness'' or ``extremely careless'' when it 
comes to handling classified information?
    Mr. Horowitz. Correct.
    Mrs. Handel. Okay. So information classified at this level 
contains very critical information, critical to national 
security, protecting the identity of U.S. intelligence assets. 
Is it possible that Comey chose ``extremely careless'' or 
``extreme carelessness'' precisely because of the fact that 
that phrase is not in the U.S. Code?
    Mr. Horowitz. In fact, that's what we were told, is the 
reason for the change was to take it from what was in the 
statute to something outside the statute.
    Mrs. Handel. Well, thank you. I think all of us on the 
committee and those watching appreciate that clarity.
    I want to follow up on something that Chairman Gowdy 
brought up earlier, and that has to do with the interview 
process.
    Secretary Clinton was voluntarily interviewed rather than 
appearing before the grand jury?
    Mr. Horowitz. That's correct.
    Mrs. Handel. Were Secretary Clinton's attorneys, Ms. Mills 
and Samuelson, I believe their names were, present for that 
interview?
    Mr. Horowitz. There were multiple lawyers present, 
including Ms. Mills and Ms. Samuelson.
    Mrs. Handel. Mills and Samuelson. Interesting.
    Were they not also witnesses in this investigation?
    Mr. Horowitz. They were.
    Mrs. Handel. It would strike me that's a little bit unusual 
to have witnesses a party to an interview with the subject of 
the investigation.
    Mr. Horowitz. Which is why we found that it was not 
consistent with normal investigative practice. And actually 
Director Comey--sorry, Director Wray yesterday also suggested 
that.
    Mrs. Handel. Was that interview recorded?
    Mr. Horowitz. It was not.
    Mrs. Handel. Why?
    Mr. Horowitz. The FBI, as a matter of its practice, does 
not record interviews of witnesses.
    Mrs. Handel. Is that one of your recommendations, to change 
that? I would hope so.
    Mr. Horowitz. We actually don't have that in a 
recommendation. That's been a subject of discussion for many, 
many years within the Justice Department.
    Mrs. Handel. So there was a written report?
    Mr. Horowitz. There was a written summary report of the 
interview.
    Mrs. Handel. Oh, so only a summary.
    So when I read your report, the IG report, that the 
decision not to prosecute Secretary Clinton was essentially 
made prior to her interview, did I read that correctly?
    Mr. Horowitz. What we were told is absent a confession or a 
false statement, the plan was to close the investigation 
immediately after the interview.
    Mrs. Handel. So if the decision not to prosecute was 
largely made prior to even talking to her, how could it--and 
there's been all of the discussion today about whether or not 
she had willful knowledge of intent--how could anybody even 
know if she had willful intent or knowledge if they didn't talk 
with her before they made the decision?
    And then secondly, with the conversation and what we now 
know is the very extreme bias, particularly of Strzok and 
several other agents who, as I read the report, were part of 
that investigation, how can anyone really be sure that there 
wasn't bias in the way that interview was conducted when it 
went to the prosecutorial decision?
    Mr. Horowitz. And what we went and looked at was the 
summary and the preparation that went into the interview to see 
whether the questions that were intended to be asked were in 
fact asked.
    During that, in terms of whether individuals who were in 
the room were biased or expressed biased----
    Mrs. Handel. You would have absolutely no idea.
    Mr. Horowitz. We wouldn't know one way or the other. 
Although, I would, you know, say, you know, Mr. Strzok was in 
the room, but not one of the questioners, and we had concerns 
about his text messages. And one of the two questioners was one 
of the other three individuals we've referenced here with 
problematic text messages.
    Mrs. Handel. Very disturbing.
    Mr. Chairman, I yield back.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Kentucky is recognized.
    Mr. Comer. Thank you, Chairman Gowdy.
    Mr. Horowitz, I have a statement and then a quick question.
    I go home to Kentucky every weekend. And when I'm home I'm 
talking to a lot of people all across the State. My district is 
very vast, from one State to the other. When we're home during 
recess, I talk to a lot of people.
    The biggest complaint that I hear from the good, 
hardworking people in my congressional district in southern 
Kentucky is thedisgusting news that they've seen about the 
obvious bias from the FBI and from the investigators. And it 
leads in to people's minds exactly what the President has been 
saying, that this is a witch hunt. This is a witch hunt that 
every time they turn on the television there is news about the 
Russia investigation, very little news on certain media outlets 
about the things that obviously Hillary Clinton did that were 
illegal.
    The approval ratings for the FBI and the Department of 
Justice now, I would assume are at record lows, probably lower 
than Congress, and that's not very good.
    What steps must the FBI take to restore confidence, to 
eliminate the obvious political bias that was displayed by 
reading your report with the FBI in this investigation? What 
steps does the FBI need to take to eliminate, not reduce, but 
eliminate political bias in the agency?
    Because any time there's an investigation of any type--and 
one of the main items in the case is conversations with the 
FBI. And as Congresswoman Handel said, you don't record things 
in the FBI, it's your word. The word today isn't worth what it 
should be from the Nation's premier intelligence agency.
    So this is a very serious issue that is dividing America. 
It's really frustrating those of us on the Oversight Committee 
that have tried to find answers from an agency that, quite 
frankly, has not been transparent with the American public.
    What steps can the FBI take in the future to eliminate this 
and correct this problem and restore the confidence of America?
    Mr. Horowitz. Well, I think one of the things we've laid 
out here, we have nine recommendations in here on various 
systemic issues, but I think, as I said in my opening and as we 
say here, really getting back to core values and understanding 
and making sure that the organization at a leadership level and 
at a senior level across the organization understands the 
principles and the norms and follows them.
    And, again, I will say, having been an AUSA, obviously it 
was many years ago now, but I don't think what occurred here 
represents what thousands of agents would do in terms of their 
political views or other biases they may have. They understand 
they may have views, but they understand when they go to work 
those views stay behind.
    And that's what, at a core level, that's what really has to 
happen, because it is why these kinds of text messages are so 
corrosive. It's because people see them and they say, how can 
someone be an FBI agent who has these views?
    It happens in civil rights cases. How can people have views 
we sometimes see when you look at their messages about the 
people they're investigating. It can't happen?
    Mr. Comer. Well, when you have an agency that has a black 
eye, whether it is the VA or the FBI, I think the best decision 
a leader could do is change leadership.
    I support what President Trump did in firing Comey. I think 
that was the right decision. And hopefully, with your report 
and with the work of Congress, we can work to restore the 
confidence of the American public in the FBI and the Department 
of Justice.
    And Mr. Chairman, I have about a minute left. I would like 
to yield my time to my friend Mark Meadows.
    Mr. Meadows. I thank the gentleman from Kentucky.
    Mr. Horowitz, I want to come back to something we talked 
about earlier, the disclosure of FBI Attorney 1 and FBI 
Attorney 2. And you said, I think I'm correct, that they did 
not want that divulged because they actually worked in 
counterintelligence. Is that correct?
    Mr. Horowitz. That's what we were told by the FBI.
    Mr. Meadows. Okay. But you know who the people are?
    Mr. Horowitz. Correct.
    Mr. Meadows. And I would say, based on your report, I know 
who they are. And what I guess I'm concerned about is you know 
that they don't work for the counterintelligence division.
    Mr. Horowitz. Well, two of the agents do.
    Mr. Meadows. Agents. I'm talking about attorneys.
    Mr. Horowitz. There's one lawyer who is in here. So there 
are five people total.
    Mr. Meadows. Right.
    Mr. Horowitz. Page, Strzok, two other agents.
    Mr. Meadows. But you had a dialogue between FBI Attorney 1 
and Attorney 2?
    Mr. Horowitz. Correct.
    Mr. Meadows. And those two attorneys, do they not work for 
Trish Anderson?
    Mr. Horowitz. Those two attorneys work in the Office of 
General Counsel----
    Mr. Meadows. Yeah. And so would one of those attorneys be 
Sally Moyer?
    Mr. Horowitz. I'm going to defer to what the----
    Mr. Meadows. But they don't work in counterintelligence. I 
mean, if that's the reason the FBI is giving, they're giving 
you false information because they work for the general 
counsel.
    Mr. Horowitz. Well, let me just add, they were talking 
about----
    Mr. Meadows. Is the other one Kevin Kleinsman?
    Mr. Horowitz. They were talking about the other attorney 
there that we have their text messages in here----
    Mr. Meadows. Right.
    Mr. Horowitz. --that they were concerned about, along with 
the other two. I'm not here to articulate the FBI's interest. 
We oversee the FBI----
    Mr. Meadows. Well, we're going to get to the bottom of it, 
like Mr. Comer was talking about.
    And I think the other thing that I would ask you to look 
into, there is growing evidence that 302s were edited and 
changed. And it gets back to what Mrs. Handel said in terms of 
those particular interview sessions. And those 302s, it is 
suggested that they were changed to either prosecute or not 
prosecute individuals, and that is very troubling.
    And I yield back, Mr. Chairman.
    Mr. Horowitz. If I could just mention, we have been getting 
those kind of referrals. And as often happens when we issue 
reports like this, we get other information coming to us, and 
we're intending to follow up on that.
    But I just want to reassure you and the committee, I'm here 
to let you know what we're being told by the FBI is their 
concerns. Obviously, Director Wray and the leadership of the 
FBI and ourselves, I'm certainly not looking to step aside on 
this, but it is their interests that need to be articulated to 
the committee.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    The gentleman, Mr. Rothfus, is recognized.
    Mr. Rothfus. Thank you, Mr. Chairman.
    And thank you, Inspector, for being here this afternoon and 
all day here.
    You identified a lot of devices that were part of the 
investigation in your report, the different servers and 
personal devices.
    Mr. Horowitz. Correct.
    Mr. Rothfus. In your investigation, did you review whether 
those conducting the Midyear investigation searched for emails 
with the Clintonemail.com route on databases that held data 
collected pursuant to FISA?
    Mr. Horowitz. I'm not sure as I sit here, but I can 
certainly get back to you promptly on that.
    Mr. Rothfus. Yeah. I'd like to know that.
    Page 186 of the report, when discussing the topic of 
whether the FBI would have a separate announcement from the DOJ 
about the declination to prosecute, Director Comey said the FBI 
was in the middle of a 500-year flood.
    And the quote here is, quote: I mean, to my mind, it was a 
crazy idea, but we were in a 500-year flood. As you all have 
now investigated enough and lived enough to know, that this is 
a circumstance that has never happened before, we're criminally 
investigating one of the candidates for President of the United 
States. President Obama's comments obviously weighed on me as 
well. You've got the President who has already said there's no 
``there'' there. So all of that creates a situation where how 
do you get out of this without grievous damage to the 
institution.
    Reading this sounds as though Director Comey, his decision 
in this context of having a separate statement, was imbued with 
political considerations, does it not?
    Mr. Horowitz. He was certainly speaking about the political 
perceptions that resulted from President Obama's comments and 
other actions he was concerned with.
    Mr. Rothfus. Well, he was considering matters just beyond 
facts, was he?
    Mr. Horowitz. Correct. Correct.
    Mr. Rothfus. And he was considering how in his own 
subjective view that the FBI was going to be viewed in response 
to this investigation.
    Mr. Horowitz. Agreed.
    Mr. Rothfus. And the same would hold true not just for his 
July 5 press conference but his October 28th letter?
    Mr. Horowitz. Agreed.
    Mr. Rothfus. You wonder how the FBI gets to a point where 
there's a 500-year flood. You know, I represent Johnstown, 
Pennsylvania, and they had a horrific flood back in 1889. And 
there was a big rainstorm before that flood, but there were 
things going on years before. And if you read David 
McCullough's book about the flood, you understand that things 
were going on before.
    And to understand this in context, we're here today because 
you had the third-highest official in the executive branch 
decide to conduct official business on a private server for 
whatever reason. And I read through this report and just see 
political consideration after political consideration.
    Isn't Mr. Comey's decision to usurp the authority of the 
Attorney General in order to protect the Bureau inherently a 
political decision?
    Mr. Horowitz. I think you can certainly view it that way.
    Mr. Rothfus. On Page 10, the report states that Mr. Comey's 
decisionmaking--his decisionmaking process made an implicit 
assumption that President Clinton would be President. Isn't 
that yet another example of politics playing a role here?
    Mr. Horowitz. It is certainly his reading the politics tea 
leaves, in his view.
    Mr. Rothfus. When Mr. Comey described Attorney General 
Lynch's presence imbued corrosive doubt into the entire 
process, doesn't this confirm the need for a special counsel in 
this investigation from the very beginning?
    Mr. Horowitz. I think if Director Comey's view was, as he 
laid out, the answer wasn't, I'm going to take over and 
announce the decision. The answer was, I'm going to go to the 
Attorney General, explain my concerns, and ask her to either 
recuse or get a special counsel.
    Mr. Rothfus. You know, going back over the years, and I 
talk about how the 500-year flood, things happening for years, 
and you look at everything that was circulating in, first, the 
Clinton administration and all the scandals that we saw then, 
and the continuing scandals.
    I remember the '96 campaign and the fundraising scandal 
there and Charlie Trie and Johnny Chung and Johnny Huang and 
Maria Hsia. And Louis Freeh was looking at that, the Director 
of the FBI, and he said: It is difficult to imagine at that 
time a more compelling situation for an independent counsel. 
But Janet Reno never appointed one.
    Why wasn't a special counsel ever appointed in this Clinton 
email investigation looking at Attorney General Lynch? Why is 
it that they never?
    Mr. Horowitz. We have explanations here as to why it was. 
Attorney General Lynch said she didn't think the standard was 
met and that there should be one applied. Director Comey 
essentially told us that he was using it as a leverage point to 
get the investigation moving as opposed to it actually being 
presented for serious consideration.
    Mr. Rothfus. But we see instance after instance where 
Director Comey was making political calculations.
    Chairman Gowdy. The gentleman is out of time.
    Mr. Horowitz. I think the start, I'll go back to what we've 
talked about in here and what I talked about earlier.
    And as you referenced, it is easy to say there's a 500-year 
flood, but the reality is we're faced all the time with what 
people perceive to be unique circumstances. That doesn't mean 
you make various judgments along the way. In fact, I think many 
people would argue that's when it's most important to stay true 
to what the institution's values are, norms are, procedures 
are.
    And you're right, the right approach here, if there was a 
concern that the Attorney General could not fairly or by 
appearance decide this, the right response would have been for 
Director Comey to present that to the Attorney General and for 
her to make a decision. But she ultimately was the one who was 
politically accountable in our system of government for that 
final decision, not him.
    Chairman Gowdy. The gentleman yields back.
    This concludes today's hearing. I'll recognize the 
gentleman from Virginia, then the gentleman from Maryland for 
any concluding remarks.
    Chairman Goodlatte. Thank you, Mr. Chairman.
    I want to thank Mr. Horowitz. It's been a long day. I think 
you're going on 7 hours here with very little respite from 
that. But I think you've handled yourself well and we very much 
appreciate that.
    You know, at the beginning of this hearing I posed the 
question, why should Americans care about what we're talking 
about here today?
    And, unfortunately, I think we heard from some of our 
members that we don't care about these emails anymore, we don't 
care about these GD emails and texts, I assume they're 
referring to as well, from Mr. Strzok and Ms. Page.
    But I'd like everyone here to think about, what if the shoe 
was on their foot? What if high-ranking people in the Nation's 
most important law enforcement organization were talking about 
an investigation into them and they showed that kind of animus, 
that kind of bias in the process?
    You, Mr. Horowitz, have a number of times today made it 
very clear that you understand how important it is that the 
American people have the assurance that when it comes to the 
enforcement of our laws that justice is blind and that the 
guarantee of our Constitution of equality under the law for all 
people is fulfilled.
    I don't think we can say that here right now, 
unfortunately, about this very sorry circumstance. And we're 
going to continue to pursue this until we have the assurance 
that the Federal Bureau of Investigation and the Department of 
Justice have cleaned house and are making the necessary changes 
to ensure that in the future, whether it is the 2020 
Presidential election or whether it's Jane Doe or Joe Smith's 
criminal investigation, that they will, indeed, experience 
equality under the law and the kind of extreme bias that we've 
seen in looking at some of the most prominent investigations in 
American history will not happen again.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman from Virginia yields.
    The gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Horowitz, I want to thank you so much. I want to thank 
the ladies and gentlemen behind you and all of those who have 
had anything to do with pulling this report together.
    I want to thank you for the recommendations, because I 
think they go to the heart of the problem.
    You know, as I sit here and I think about life, you know, 
and I tell my constituents this, I tell them I wish there were 
not a Republican and a Democratic party. I wish I was not a, 
quote, ``politician.'' You know why? Because I think that when 
people hear us a lot of time, or hear me, they just assume that 
I'm saying things based upon political expediency or trying to 
help a party. My party.
    But there are certain things that are about--are bigger 
than party, like country and being a human being.
    And I think that when we talk about--you know, when I read 
your report and I looked at what you've done, it's the people 
like the ones that's sitting behind you that take an oath to do 
their very, very best and to be honest and to uphold the 
Constitution of our country. Those are the people that will 
keep our democracy together. And I say it with all of the 
sincerity I have in my heart.
    Everywhere I go, Mr. Horowitz, and I want you to understand 
this, I've never seen so many people scared. They're scared. I 
mean, American citizens scared. And they're scared of where our 
country is going.
    But I think what you have done here today, that is 
examining--first of all, bringing to the table integrity, 
bringing to the table integrity and honesty, and just calling 
it like it is.
    You may have come out with a report that I didn't like. I 
mean, there are certain things I saw in the report that didn't 
sit well with me. But you know what? I'm able to walk away from 
here believing that you all upheld your oath and your 
principles for honesty and integrity. Not about party. Not 
about gender. None of that. Not pro-Trump, against Trump, 
Republican, whatever. But integrity.
    And that integrity, and I tell my staff, that integrity 
will--you don't have to change from time to time. Whatever that 
integrity is and you meet that level, it's always going to be.
    So, you know, the thing I'm trying to get through to you is 
that I want you to continue to do what you're doing. Because 
the people like the people who are sitting behind you and you 
are the folk who are going to make sure that this democracy, 
which so often we take for granted, so often we forget that 
this democracy allows us to be the people that we are and to do 
the things that we do and allow us to be all that God meant for 
us to be.
    But it takes people with that high standard, those high 
standards, that no matter what happens, no matter where the 
wind may blow, no matter how difficult it may become, no matter 
how unpopular it may become--and by the way, that's where Comey 
made a mistake.
    Comey got so--this is my own personal opinion--he got so 
rattled by our Republican friends trying to get the 302s and 
all that, I think he buckled. That does not mean that he's not 
a good man. That means that he used poor judgment at that time.
    But, again, the democracy is held together by us, by 
people, determining that--and I'll close with this. I keep 
going back to something that Martin Luther King said, and I 
think about it all the time, when he talked about, and he's 
quoting another preacher, but he said: Silence can become 
betrayal. Silence can become betrayal. When you see something 
wrong, you've got to deal with it.
    And because if we don't, then we go down a slippery slope 
of betraying not only the people that we represent, all of us--
and that includes, I'm just talking about all of us in 
government--not only do we betray them, but we betray 
generations yet unborn.
    And so, again, I thank you.
    And as to the FBI, you know, Strzok and Page and the other 
folks, they did some damage, ain't no doubt about it. No doubt 
about it. And I cannot get away from the questions that--the 
excellent questions that the chairman asked.
    But I believe in my heart--and I wanted to listen to your 
answers very carefully and how, you know, when you say that the 
problem originated with Comey's elevation and he got a little--
he got off the track. I think the idea is that we have created 
a track through the practices of the DOJ that we've created a 
road, and all he had to do is stay on track and he would have 
been fine. He may have gotten battered a bit, but he would have 
been fine.
    And that's why the integrity issue becomes so significant. 
And so I'm just glad that we have people like you all who are 
able to come to the table. And yeah, you're going to catch some 
hell, probably, you already have. But you can stand, no matter 
what, and you can say we've looked at it, we gave it our best. 
You may not agree with us, but we believe in our hearts that 
this is--these are the right decisions. And I accept that.
    And with that, I thank you.
    Chairman Gowdy. The gentleman yields back.
    The hearing record will remain open for 2 weeks for any 
member on either committee to submit written opening statements 
for the record.
    I will just say this quickly. Mr. Horowitz, it has been a 
long day. There are many important and many would argue, 
including me, urgent issues facing our country today. Some of 
them have been alluded to today. But there is nothing more 
important and nothing is ever more urgent than us having 
confidence in our justice system.
    So I will apologize to no one for having a hearing on your 
report which takes a really hard look at some institutions we 
desperately need.
    And I'll say this as a compliment to you and your team. I 
was thinking over the weekend how much better off our country 
would be had you and your team conducted the investigation that 
is the subject of your report. And make no mistake, you and I 
probably would have reached some different conclusions as old, 
washed up prosecutors do from time to time. You can look at a 
fact pattern and draw different conclusions.
    I don't mind if people are wrong. I really mind if they're 
unfair. We can survive being wrong. We can survive calling jump 
balls differently. We're not going to make it if our system is 
perceived as being biased and unfair.
    So thank you for your work. I know it took a long time. But 
as you correctly noted, some of the information that my 
colleagues found most probative came towards the end. So it's a 
good thing that you did not succumb to all of our pressures and 
wrap this thing up before its natural chronology.
    And we wish you the same objectivity and fact-centricity 
that you showed in this investigation with the others. Our 
country, I think, is counting on you and your team to do in 
your subsequent investigations exactly what you've done in this 
one, which is just call balls and strikes. And people are 
welcome to draw different conclusions, but they're not entitled 
to their own version of the facts.
    With that, to you and your team, thank you.
    We're adjourned.
    [Whereupon, at 5:10 p.m., the committees were adjourned.]

                                 <all>
</pre></body></html>
